APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Memorandum and Order of the United States
District Court for the District of
Massachusetts (August 6, 2020) ........................ 1a
CONSTITUTIONAL PROVISIONS
Relevant Constitutional and Statutory Provisions
and Judicial Rules ............................................ 35a
Proposed Amendment to the Constitution of the
United States Second Session, Ninety-Second
Congress: Equal Rights Amendment............... 37a
OTHER DOCUMENTS
Amended Complaint for Equitable and Injunctive
Relief and for Relief Under the All Writs Act
(February 29, 2020) .......................................... 39a
Partially Opposed Motion to Intervene and
Supporting Statement of Points and
Authorities (February 19, 2020) ...................... 71a
NARA Press Statement on the Equal Rights
Amendment (January 8, 2020) ........................ 95a
Memorandum Opinion for the General Counsel
National Archives and Records
Administration (January 6, 2020) ................... 97a
Letter to The Honorable Carolyn Maloney from
National Archives (October 25, 2012) ............ 154a

App.1a
MEMORANDUM AND ORDER OF THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
(AUGUST 6, 2020)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
________________________
EQUAL MEANS EQUAL, THE YELLOW ROSES
and KATHERINE WEITBRECHT,

Plaintiff,
v.
DAVID S. FERRIERO, in his Official Capacity as
Archivist of the United States,

Defendant.
________________________
Case No. 20-cv-10015-DJC
Before: Denise J. CASPER,
United States District Judge.
CASPER, J.
I.

Introduction

Plaintiffs Equal Means Equal, The Yellow Roses
(together, the “Organizational Plaintiffs”) and Katherine
Weitbrecht (“Weitbrecht” or “Individual Plaintiff”) have
filed this lawsuit against David S. Ferriero in his official
capacity as Archivist of the United States (“Defendant”
or the “Archivist”) alleging constitutional violations

App.2a
and seeking, among other things, an order compelling
the Archivist to record all states’ ratification of the
Equal Rights Amendment (the “ERA”) and otherwise
prohibiting removal of previously recorded ratifications
and an order declaring the Equal Rights Amendment
ratified. D. 5 at 3, 25. The Archivist has moved to dismiss
for lack of jurisdiction and failure to state a claim under
both Fed. R. Civ. P. 12(b)(1) and 12(b)(6). D. 11. For the
reasons stated below, namely that Plaintiffs lack
standing, the Court ALLOWS the motion to dismiss, D.
11.
II.

Standard of Review

Pursuant to Fed. R. Civ. P. 12(b)(1), a defendant
may move to dismiss an action for lack of subject matter
jurisdiction. “[T]he party invoking the jurisdiction of a
federal court carries the burden of proving its existence.”
Murphy v. United States, 45 F.3d 520, 522 (1st Cir. 1995)
(quoting Taber Partners, I v. Merit Builders, Inc., 987
F.2d 57, 60 (1st Cir. 1993)). To determine if the burden
has been met, the Court “take[s] as true all well-pleaded
facts in the plaintiffs’ complaints, scrutinize[s] them
in the light most hospitable to the plaintiffs’ theory of
liability, and draw[s] all reasonable inferences therefrom in the plaintiffs’ favor.” Fothergill v. United States,
566 F.3d 248, 251 (1st Cir. 2009).
A defendant may also move to dismiss for a plaintiff’s “failure to state a claim upon which relief can be
granted.” Fed. R. Civ. P. 12(b)(6). To survive a Rule 12
(b)(6) motion to dismiss, a complaint must allege “a
plausible entitlement to relief.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 559 (2007). Although detailed
factual allegations are not necessary to survive a
motion to dismiss, the standard “requires more than

App.3a
labels and conclusions, and a formulaic recitation of
the elements of a cause of action will not do.” Id. at
555. “The relevant inquiry focuses on the reasonableness of the inference of liability that the plaintiff is
asking the court to draw from the facts alleged in the
complaint.” Ocasio-Hernández v. Fortuño-Burset, 640
F.3d 1, 13 (1st Cir. 2011).
III. Background1
Unless otherwise noted, the following factual summary is taken from the allegations in the operative
complaint and the Court assumes them to be true for
the purposes of resolving the motion. McCloskey v.
Mueller, 446 F.3d 262, 265 (1st Cir. 2006) (noting
that under either rule applicable here that the court
“accept[s] the plaintiffs’ well-pleaded facts as true and
indulging all reasonable inferences in their behoof”).
A. The Parties
David S. Ferriero is the Archivist of the United
States and as such is responsible for the National
Archives and Records Administration including the
recording of states’ ratification of constitutional amendments and the amendments themselves. D. 5 ¶ 9; 1.
U.S.C. § 106b. Equal Means Equal is a national 501(c)(4)
organization whose sole purpose is to advocate for
women’s equality, ratification of the ERA and equal
1 The Court ALLOWS nunc pro tunc the Plaintiffs’ motion to take
judicial notice of the States’ Amicus Brief filed in Virginia v. Ferriero,
1:20-cv-00242 (D.D.C.), D. 27, and the Court further ALLOWS amici
curiae motions, D. 24; D. 28, to file briefs in support of Plaintiffs. The
Court has considered the briefs, D. 25, as amended by D. 30; D. 271, D. 29, herein but notes that none of them concern the legal issue
of standing.

App.4a
rights for women and girls. D. 5 ¶ 10. Specifically, its
goal “is to eradicate sex/gender inequality and advocate
for sex/gender equality and fully equal rights for women
and men.” D. 5 ¶ 59. In 2016, Equal Means Equal
produced a documentary film titled “Equal Means
Equal” which examined the status of American women
who experienced discrimination and considered whether
the ERA would mitigate this pattern of discrimination. D. 5 ¶ 60. Equal Means Equal’s executive
director, Kamala Lopez (“Lopez”), testified in front of
the Illinois legislature in support of the ERA. D. 5
¶ 61. Equal Means Equal has been advocating for
state and federal officials to begin the process of
examining their laws and regulations, and to take
steps “to repair all sex discriminatory provisions,” but
officials have declined, citing the Archivist’s refusal
to recognize the ERA as ratified. D. 5 ¶ 62. Equal Means
Equal further alleges that because the Archivist has
refused to recognize the ERA as ratified, women
attorneys and other advocates have been reluctant to
demand repair work and Equal Means Equal has had
to expend significant resources educating its members
and members of the general public about why the ERA
is duly ratified despite the Archivist’s opinion to the
contrary. D. 5 ¶ 63. The diversion of these resources,
Equal Means Equal asserts, has reduced the amount
of resources available to Equal Means Equal that
would otherwise be used to assist in the repair work
of sex discrimination provisions in anticipation of the
ERA taking effect. D. 5 ¶ 63.
The Yellow Roses is an organization of Massachusetts high school students, founded in 2016, for the
sole purpose of advocating for ratification of the ERA.
D. 5 ¶ 11. The Yellow Roses’ mission is to advocate for

App.5a
and raise public awareness about the ratification of
the ERA. D. 5 ¶ 66. The Yellow Roses engages in numerous activities including circulating a petition for the
ratification of the ERA, interviewing and being interviewed by the media, meeting with state and federal
officials to advocate for the equal treatment of women
and ratification of the ERA, collaborating with activists
and making public appearances to advocate for and
teach young people to be activists in their communities.
D. 5 ¶ 67. The Yellow Roses asserts that its mission is
impaired by the refusal of government officials to begin
the process of examining and repairing sex discriminatory laws, regulations and policies and because
they cannot effectively advocate on behalf of the ERA
so long as the ERA is perceived by government officials
as not valid. D. 5 ¶ 69.
Individual Plaintiff Katherine Weitbrecht is a
female resident of Norfolk County, Massachusetts. D. 5
¶ 12. Weitbrecht personally suffered a violent act
because she is female when she was strangled in
Massachusetts for wearing a rape whistle. D. 5 ¶ 71.
Weitbrecht reported the perpetrator to law enforcement
and he was charged with a single count of assault and
battery, but Plaintiffs allege that he could not be charged
under the Massachusetts hate crime statute, Mass.
Gen. L. c. 265 § 39, because sex is not a protected class
under that statute. D. 5 ¶¶ 72-73 (citing Mass. Gen. L. c.
265 § 39). Weitbrecht is now reluctant to report any
sex-based criminal activity because of that experience.
D. 5 ¶ 74. She fears that reporting crimes committed
against her because she is female will lead to inadequate
charges and unjust treatment by law enforcement and
the legal system. D. 5 ¶ 74. Weitbrecht alleges that
her rights and well-being are threatened and violated

App.6a
by her lack of full constitutional equality and, as a
result, she has been subjected to needless increased
risk of violence because of her sex. D. 5 ¶¶ 75, 77.
B. The ERA
In March 1972, Congress approved a resolution
proposing an Amendment to the Constitution, the Equal
Rights Amendment, by a supermajority of each house
and submitted it for ratification to the state legislatures.
H.J. Res. 208, 86 Stat. 1523 (1972). The resolution
includes the text of the proposed amendment and set
a seven-year deadline from the date of submission for
ratification. The resolution states:
JOINT RESOLUTION
Proposing an amendment to the Constitution of
the United States relative to equal rights for men
and women.
Resolved by the Senate and House of
Representatives of the United States of
America in Congress assembled (twothirds of each House concurring therein),
That the following article is proposed as
an amendment to the Constitution of the
United States, which shall be valid to all
intents and purposes as part of the
Constitution when ratified by the
legislatures of three-fourths of the several
States within seven years from the date
of its submission by the Congress:
“ARTICLE“SECTION 1. Equality of rights under
the law shall not be denied or abridged

App.7a
by the United States or by any State on
account of sex.
“SEC. 2. The Congress shall have the
power to enforce, by appropriate legislation, the provisions of this article.
“SEC. 3. This amendment shall take effect
two years after the date of ratification.
H.J. Res. 208, 86 Stat. 1523 (1972). States considered
the ERA and thirty-five states ratified it, including
Massachusetts, before the seven-year deadline passed.
D. 5 ¶ 18. Five states also passed resolutions seeking
to rescind their prior ratification, see Ratification of the
Equal Rights Amendment, U.S. Dep’t of Justice, Office
of Legal Counsel, 44 Op. O.L.C. at *18-21 (Jan. 6, 2020).
In 1978, as the seven-year deadline approached,
Congress passed a joint resolution by the majority of
both houses extending the ERA’s deadline to June 30,
1982. H.R.J. Res. 638, 95th Cong., 2d Sess., 92. Stat.
3799 (1978). No new states ratified the ERA between
1979 and 1982. D. 5 ¶ 18. One of these five states
attempting to rescind the ERA was Idaho, whose rescission, along with Congress’s 1978 extension, became the
subject of a lawsuit, Idaho v. Freeman, 529 F. Supp.
1107, 1146-50 (D. Idaho 1981). The district court in Freeman held that Congress’s 1978 extension was unsuccessful and states may rescind their ratification. Id. at
1146-54. The Supreme Court stayed the district
court’s judgment and granted certiorari before the
Ninth Circuit ruled on the appeal, Nat’l Org. for
Women, Inc. v. Idaho, 455 U.S. 918, 102 S. Ct. 1272
(1982) (mem.), but vacated and remanded the case to
the district court with instructions to dismiss it as
moot after Congress’s June 30, 1982 extension of the

App.8a
ratification deadline passed. Nat’l Org. for Women, Inc.
v. Idaho, 459 U.S. 809, 103 S. Ct. 22 (1982) (mem.).
C. Recent Developments with the ERA
In 2012, Defendant issued an opinion letter stating
that he would record States’ ERA ratification votes if
they occurred after expiration of the challenged deadline and publish the ERA if three-fourths of the States
voted to ratify it. See Letter from David S. Ferriero,
Archivist of the United States, to Hon. Carolyn Maloney (October 25, 2012), https://www.congress.gov/116/
meeting/house/109330/documents/HHRG-116-JU1020190430-SD007.pdf. In 2017, the ERA regained
national attention when Nevada passed a resolution
intent on ratifying the ERA. S.J. Res. 2, 79th Leg.
(Nev. 2017). Illinois followed suit the following year.
S.J. Res. Const. Amend. 0004, 100th Gen. Assemb.
(Ill. 2018). The Archivist recorded both Nevada and
Illinois’s ratifications. D. 5 ¶ 28. Because following
Illinois’s efforts, thirty-seven states in total had
passed resolutions seeking to ratify the ERA, certain
members of Congress wrote to the Archivist requesting
information as to what actions he would take in the
event that a 38th state, the last necessary vote for
ratification, attempted to the ratify the ERA. See Letter
from Gary M. Stern, General Counsel, Nat’l Archives
and Records Admin., to Steven A. Engel, Assistant
Attorney General, Office of Legal Counsel, U.S. Dep’t
of Justice (Dec. 12, 2018), https://www.archives.gov/files/
press/press-releases/2020/olc-letter-re-era-ratification12-12-2018.pdf. Following the inquiry from Congress,
on December 12, 2018, the general counsel to the
National Archives wrote the Department of Justice,
Office of Legal Counsel (“OLC”) requesting guidance
on the Archivist’s responsibilities to record state’s

App.9a
efforts to ratify the ERA after the congressional deadlines. Id. On January 6, 2020, the OLC issued a
memorandum opinion (the “OLC ERA Opinion”) that
the “deadline in the proposing clause of the ERA
Resolution was a valid and binding exercise of Congress’ authority to set a deadline on ratification” and
regardless of whether the 1979 Congressional Extension was valid, the ERA deadline has come and gone
and, therefore, advised the Archivist not to certify the
ERA as ratified if any state subsequently attempted
to ratify the ERA. See Ratification of the ERA, 44 Op.
O.L.C. at *12, *24. On January 8, 2020, the Archivist
issued a statement that he “defers to DOJ on this
issue and will abide by the [OLC ERA Opinion] unless
otherwise directed by a final court order.” NARA Press
Statement on the Equal Rights Amendment (Jan. 8,
2020), https://www.archives.gov/press/press-releases-4.
A week later, the Virginia General Assembly passed
a joint resolution intending to ratify the ERA. H.R.J.
1, 2020 Sess. (Va. 2020). As of the date of the filing of
the amended complaint in this action, the Archivist
had not recorded Virginia as having ratified the ERA,
D. 5 ¶ 41, but the Archivist subsequently recorded
Virginia’s ratification. D. 12 at 30; see Nat’l Archives
and Records Admin., Equal Rights Amendment: List
of State Ratification Actions (Mar. 24, 2020), https://
www.archives.gov/files/foia/pdf/era-list-of-stateratification-actions-03-24-2020.pdf.
IV. Procedural History
Plaintiffs instituted this action on January 1, 2020,
D. 1, and amended the complaint on February 29,
2020, D. 5. Defendants has now moved to dismiss. D.

App.10a
11. The Court heard the parties on the pending motion
and took the matter under advisement. D. 17.
V.

Discussion
A. Standing

Article III of the Constitution limits federal courts
to deciding cases or controversies. See U.S. Const. art.
III § 2; Merrimon v. Unum Life Ins. Co. of Am., 758
F.3d 46, 52 (1st Cir. 2014). The justiciability doctrines
of standing and ripeness are rooted in Article III and
must be addressed as a threshold inquiry prior to
adjudication of the merits of the underlying case. See
Reddy v. Foster, 845 F.3d 493, 499-500 (1st Cir. 2017).
Standing doctrine reflects both prudential and constitutional limitations. Conservation Law Found. of
New England, Inc. v. Reilly, 950 F.2d 38, 40 (1st Cir.
1991).
The constitutional requirement of standing necessitates that a plaintiff show “a concrete and particularized injury in fact, a causal connection that permits
tracing the claimed injury to the defendant’s actions,
and a likelihood that prevailing in the action will
afford some redress for the injury.” City of Bangor v.
Citizens Commc’ns Co., 532 F.3d 70, 92 (1st Cir. 2008)
(internal quotation marks omitted) (quoting Me. People’s
All. & Nat. Res. Def. Council v. Mallinckrodt, Inc., 471
F.3d 277, 283 (1st Cir. 2006)). As the standing requirement is rooted in the principal that courts should only
decide cases and controversies, plaintiffs must allege
more than a “‘generalized grievance’ shared in substantially equal measure by all or a large class of
citizens,” must assert “his own legal rights and interests,
and cannot rest his claim to relief on the legal rights

App.11a
or interests of third parties.” Warth v. Seldin, 422 U.S.
490, 499 (1975). The prudential limitations prevent
courts from “adjudicating ‘questions of broad social
import where no individual rights would be vindicated
and . . . limit access to the federal courts to those
litigants best suited to assert a particular claim.’”
Conservation Law Found. of New England, Inc., 950
F.2d at 41 (alterations in original) (quoting Phillips
Petroleum Co. v. Shutts, 472 U.S. 797, 804 (1985)).
Plaintiffs identify several theories of standing for both
organizational and individual plaintiffs. D. 13 at 41-58.
Because the Defendant disputes the Plaintiffs’ standing
to bring these claims, D. 12 at 19-29, this Court turns
to this threshold issue.
1. Standing to All Persons Protected by the
ERA
Most broadly, Plaintiffs assert that all persons
protected under the ERA have standing to bring suit.
D. 13 at 41-47. Specifically, Plaintiffs argue that all
persons that would be protected under the ERA are
injured by the Archivist’s actions because they have a
legal interest in the “continued vitality of the ERA.”
D. 13 at 41. Plaintiffs also argue that the Archivist’s
failure to publish the ERA perpetuates the status of
women as unequal resulting in disproportionately higher rates of harm because of that inequality. D. 13 at
43. But cognizable injuries must be both concrete and
particularized. Spokeo, Inc. v. Robins, ___U.S. ___, 136
S. Ct. 1540, 1548 (2016) (reiterating that the Court has
“made it clear time and time again that an injury in
fact must be both concrete and particularized”). These
generalized injuries to all those protected by the ERA
fail in both respects.

App.12a
a) Injury to All Persons Protected By
the ERA Is Not Particularized
As an initial matter, Plaintiffs appear to suggest
that since the members of the Organizational Plaintiffs
and the Individual Plaintiff are female, they have
standing to bring this complaint. D. 13 at 41-42. Such
a nation-wide standing principal has been squarely
rejected. See Allen v. Wright, 468 U.S. 737, 755-56
(1984), abrogated on other grounds, Lexmark Int’l,
Inc. v. Static Control Components, Inc., 572 U.S. 118,
134 (2014). In Allen, the Court rejected the plaintiffs’
standing argument by reasoning that “[i]f the abstract
stigmatic injury were cognizable, standing would extend
nationwide to all members of the particular racial
groups against which the government was alleged to
be discriminating by its grant of a tax exemption to a
racially discriminatory school, regardless of the location
of that school.” Id. at 755-56. Plaintiffs’ theory here is
no different. It embraces standing to “all individuals
protected by the ERA.” D. 13 at 41.
Plaintiffs argue that this case is distinguishable
because unlike in Allen, the Plaintiffs here are not
merely concerned bystanders. D. 13 at 42. Rather,
according to Plaintiffs, “in this unprecedented case
where our nation’s foundational governing document
has been changed, there can be no bystanders” and
because women and others protected by the ERA should
be guaranteed a “place in the Constitution as fully equal
persons, [and] Defendant’s actions have denied them
that status,” they have suffered injury.2 D. 13 at 42.
2 Plaintiffs cite the Ninth Circuit’s ruling on intervenor’s rights
in Freeman holding that the interest in the vitality of the ERA
was sufficient to allow a women’s group to intervene to support
their proposition that such a generalized interest is sufficient to

App.13a
This argument asserts that because the Plaintiffs’
challenge is rooted in the constitution, it is distinguishable from the tax related challenge in Allen.
First, the Supreme Court’s jurisprudence regarding
the requirement that standing be individualized is not
limited to its holding in Allen. See Lujan v. Defs. of
Wildlife, 504 U.S. 555, 573-74 (1992) (explaining that
an injury which “no more directly and tangibly benefits
him than it does the public at large—does not state an
Article III case or controversy”); Simon v. E. Ky. Welfare
Rights Org., 426 U.S. 26, 40 n.20 (1976) (standing
requires that plaintiffs “show that they personally
have been injured, not that injury has been suffered
by other, unidentified members of the class to which
they belong and which they purport to represent”)
(internal quotations omitted) (quoting Warth, 422 U.S.
at 502). This is because “[a]t bottom, ‘the gist of the
question of standing’ is whether petitioners have ‘such
a personal stake in the outcome of the controversy as to
confer standing. Idaho v. Freeman, 625 F.2d 886, 887 (9th Cir.
1980). Although the circuits are split on this issue, Mangual v.
Rotger-Sabat, 317 F.3d 45, 61 (1st Cir. 2003) (acknowledging a
circuit split); see Cotter v. Mass Ass’n of Minority Law Enf’t
Officers, 219 F.3d 31, 34 (1st Cir. 2000) (acknowledging that
there may be “unusual cases” where an intervenor could satisfy
the interest requirement of Rule 24(a)(2) without having a stake
in the controversy needed to satisfy Article III), some have held
that Article III standing is not required to intervene, see e.g., Utah
Ass’n of Ctys. v. Clinton, 255 F.3d 1246, 1251-52 & n. 4 (10th Cir.
2001). Indeed, the Ninth Circuit has explained that “the Article
III standing requirements are more stringent than those for
intervention under rule 24(a).” Yniguez v. State of Ariz., 939 F.2d
727, 735 (9th Cir. 1991). Given this distinction and that this Court
is not otherwise convinced Plaintiffs’ interest in the vitality of
the ERA demonstrate an individualized and concrete stake in the
outcome here, the Court does not accept the ruling in Freeman
as persuasive authority on this issue.

App.14a
assure that concrete adverseness which sharpens the
presentation of issues upon which the court so largely
depends for illumination.’” Massachusetts v. E.P.A.,
549 U.S. 497, 517 (2007) (quoting Baker v. Carr, 369
U.S. 186, 204 (1962)). Accordingly, Article III jurisdiction
requires that the “party bringing suit must show that
the action injures him in a concrete and personal way.”
Lujan, 504 U.S. at 581 (Kennedy, J., concurring). Second,
standing does not exist on a sliding scale in relation to
the gravity of the legal issue. The individual is either
injured or not, it does not matter how deeply felt the
individual’s interest in the problem may be. The test
“requires more than an injury to a cognizable interest.
It requires that the party seeking review be himself
among the injured.” Sierra Club v. Morton, 405 U.S.
727, 734-35 (1972).
b) Nor Have Plaintiffs Identified a
Concrete Injury Suffered By All
Those Protected By the ERA
Although the fact that an injury is widely shared
does not defeat a plaintiff’s claim to injury, it must
nonetheless be sufficiently concrete and individualized.
Plaintiffs may plausibly allege standing regardless of
“how many persons have been injured by the challenged
action” if they plausibly allege that their individual
rights have been or will be infringed in some “concrete
and personal way.” Massachusetts v. E.P.A., 549 U.S.
at 517 (quoting Lujan, 504 U.S. at 581 (Kennedy, J.,
concurring)). In Fed. Election Com’n v. Akins, 524
U.S. 11, 20-25 (1998), the Supreme Court held that
voters had standing to challenge the Federal Election
Commission’s refusal to compel the American Israel
Public Affairs Committee to register as a “political
committee.” Id. The Court identified the injury as a

App.15a
failure to obtain relevant information that was mandated
by statute and explained that “the informational injury
at issue here, directly related to voting, the most basic
of political rights, is sufficiently concrete and specific
such that the fact that it is widely shared does not
deprive Congress of constitutional power to authorize
its vindication in the federal courts.” Id. at 24-25.
This is not the case, as was in Akins, where parties
have identified a concrete injury—such as a lack of
information that is related to their right to vote. Here,
the Plaintiffs have not identified a particular injury
suffered by all people protected by the ERA generally
that concretely or tangibly harms them. Instead,
Plaintiffs assert that all individuals that would be
protected under the ERA are denied that status of
equal person. This theory suffers from two flaws. First,
it is not the case that because the constitution does
not affirmatively protect rights, it impinges on them.
Indeed, some state constitutions protect rights beyond
the floor the federal constitution sets, yet courts do not
understand federal constitutional omissions in regard
to what states protect to impede or burden those
rights. See Am. Legion v. Am. Humanist Ass’n, ___U.S.
___, 139 S. Ct. 2067, 2094 (2019) (Kavanaugh, J., concurring) (recognizing that “the Constitution sets a
floor for the protection of individual rights,” one that
“is sturdy and often high, but it is a floor” and that
“other federal, state, and local government entities
generally possess authority to safeguard individual
rights above and beyond the rights secured by the U.S.
Constitution”). Second, the injury plaintiffs allege, is
that if the ERA were to be fully recognized, individuals
would be afforded more protection under the law than
they would be without the ERA. This amounts to no

App.16a
more than an injury flowing from the application of
the law and the Supreme Court has made clear that
plaintiffs who claim only a harm related to the “proper
application of the Constitution and laws . . . [that] no
more directly and tangibly benefits him than it does
the public at large —does not state an Article III case
or controversy.” Lujan, 504 U.S. at 573-74.
Plaintiffs attempt to ground their injury arguments
in the concrete harm they allege women face as a
result of the ERA not being recognized. D. 13 at 43-44.
In doing so, Plaintiffs point to several harms women
face from society at large. For example, Plaintiffs explain that women face increased and disproportional
levels of violence, are subject to bias in education and
“offenders of violence against women are less likely to be
held responsible compared to offenders of other types
of violence.” D. 5 ¶¶ 51-58. But these generalized injuries
are not cognizable injuries to the class of persons
protected by the ERA as a whole. Simon, 426 U.S. at
40 n.20; United Presbyterian Church in the U.S.A. v.
Reagan, 738 F.2d 1375, 1378-81 (D.C. Cir. 1984)
(finding no standing for a large group of plaintiffs who
alleged a “chilling effect” resulting from an Executive
Order establishing the framework of foreign intelligence
and counterintelligence operation).
Moreover, even assuming these injuries conferred
standing upon all women, but see Equal Means Equal
et al. v. Dep’t of Educ. et al., No. 17-cv-12043-PBS, 2020
WL 1284149, at *7 (D. Mass. Mar. 18, 2020) (rejecting
plaintiffs’ standing argument that plaintiffs established
injury by alleging the denial of equal treatment by the
challenged discriminatory conduct), it cannot be said
that these injuries are fairly attributable to the
Archivist’s action. Injuries that stem from independent

App.17a
acts of third parties are ordinarily not cognizable
because they are neither fairly traceable to the defendant nor likely to be redressed by the requested relief.
See Katz v. Pershing, LLC, 672 F.3d 64, 71-72 (1st Cir.
2012) (explaining that “[b]ecause the opposing party
must be the source of the harm, causation is absent if
the injury stems from the independent action of a
third party”); NAACP, Boston Chapter v. Harris, 607
F.2d 514, 519 (1st Cir. 1979) (agreeing that a federal
court can only redress “injury that can be traced to the
challenged action of the defendant, and not injury that
results from the independent action of some third
party not before the court”) (quoting Simon, 426 U.S.
at 41-42). The disproportional levels of violence women
face, bias in education and the fact gender-based
offenders of violence are less likely to be held responsible
compared to offenders of other types of violence, all
relate to independent acts of third parties: the perpetrators of violence, education systems and those
policing violence, not the Archivist.
2. Individual Plaintiff
Defendant also challenges the standing of the
Individual Plaintiff, Weitbrecht, to bring suit in this
instance. D. 12 at 27-29. Plaintiffs assert that Weitbrecht
has standing in this action because she “has personally
suffered violence and unequal protection and enforcement of the laws based on sex.” D. 13 at 54. Weitbrecht
experiences heightened vigilance and concern about
being less safe because she is female and further alleges a reluctance to seek redress for sex-based harm
due to fear that this will lead to inadequate charges
and unjust treatment by law enforcement. D. 13 at 54.

App.18a
Although Weitbrecht has alleged such harm, that
harm does not confer standing in this suit. The injury
must be tied to the relief requested to confer standing.
Conservation Law Found. of New England, Inc., 950
F.2d at 43 (explaining that the alleged injury was of
particular concern because “plaintiffs seek relief far
beyond any injury they have established”). The relief
requested here, namely the declaration and injunctive
relief concerning the ERA, cannot remedy the violence
Weibrecht faced and the fact that Weibrecht suffered
violence in the past does not establish that she is
likely to suffer violence in the future. See Asociación
de Periodistas de Puerto Rico v. Mueller, 680 F.3d 70,
85 (1st Cir. 2012).3
Weitbrecht’s other alleged injuries also do not
confer standing in this instance. Weitbrecht also
asserts that her “rights and well-being are threatened
and violated by her lack of full Constitutional equality
because she is not equally protected by the United
States Constitution, or Massachusetts law.” D. 5 ¶ 75.
But as explained above, this type of generalized injury
cannot be the basis for a plaintiff’s standing because
it is neither particularized nor concrete. Indeed,
another session of this Court has rejected the assertion
that persons denied generalized equal treatment by
anticipated discriminatory conduct, alleges injury in
3 Nor can this relief remedy any alleged unequal treatment
Weibrecht faced by virtue of the allegation that she is not a member
of a protected class under Massachusetts hate crime statute, Mass.
Gen. L. c. 265 § 39. D. 5 ¶¶ 72-73. This harm stems from the independent act of a third party—the Massachusetts legislature, and,
therefore, is not fairly attributable to the Archivist. See Katz, 672
F.3d at 71 (explaining that “[b]ecause the opposing party must
be the source of the harm, causation is absent if the injury stems
from the independent action of a third party”).

App.19a
fact. Equal Means Equal et al., 2020 WL 1284149, at
*7 (holding that such injuries were “merely speculative”).
Next, Weitbrecht claims a chilling effect on her speech
namely that she is reluctant to seek redress for any
sex-based harm she may endure due to fear that the
charges or crimes will be inadequate and she will receive
unjust treatment by law enforcement and the legal
system. D. 13 at 54-55. To the extent this injury is premised on a First Amendment chill injury, such an
injury is “peculiar to the First Amendment context,”
N.H. Right to Life Political Action Comm. v. Gardner,
99 F.3d 8, 13 (1st Cir. 1996), and despite apparent contentions to the contrary, D. 13 at 55, injuries must be
related to the claim brought to assert standing—
Plaintiffs bring no First Amendment claim here.4 In
any event, “[a]llegations of a subjective ‘chill’ are not
an adequate substitute for a claim of specific present
objective harm or a threat of specific future harm.”
Laird v. Tatum, 408 U.S. 1, 13-14 (1972). “The mere
allegation of a ‘chill,’ . . . will not suffice to open the
doors to federal court.” Nat’l Org. for Marriage v.
McKee, 649 F.3d 34, 47 (1st Cir. 2011). Here, Weitbrecht
has alleged only that she has been personally chilled
by the Archivist’s action, not that this chill was
objectively reasonable or that she has suffered any
other harm.5 Blum v. Holder, 744 F.3d 790, 796 (1st
4 To the extent this chill injury asserts that Weitbrecht has been
denied access to the courts, D. 13 at 55, this injury cannot be said
to be attributable to the Archivist as it involves the independent
acts of third parties. Katz, 672 F.3d at 71-72.
5 Weitbrecht’s chill arguments suffer from an additional deficiency
—they are not fairly attributable to the Archivist. The fact that
Weitbrecht fears that she will receive unjust treatment by law
enforcement or the legal system if she reports a crime is not fairly
attributable to the Archivist’s failure to certify the ERA because

App.20a
Cir. 2014) (reiterating that mere allegations of subjective
chill are insufficient to state an Article III injury). For
these reasons, the Individual Plaintiff, Weitbrecht, has
failed to establish that she has standing to bring this
suit.
3. Organizational and Associational
Standing
Organizational plaintiffs may demonstrate standing by: (1) showing associational standing, i.e., that the
member of the organization would have standing to
sue as an individual and the interests the organization
seeks to protect are germane to its purposes; or (2) by
showing that the organizational plaintiffs have standing
to sue on their own. See Equal Means Equal et al., 2020
WL 1284149, at *3. In either instance, the organization
must demonstrate more than a “mere interest in a
problem.” Sierra Club, 405 U.S. at 739 (internal quotations omitted). As such, they must make the same
showing as is required in the case of an individual:
injury, causation and redressability. Havens Realty
Corp. v. Coleman, 455 U.S. 363, 378-79 (1982) (explaining that the court “conduct[s] the same inquiry as in
the case of an individual” to assess organizational
standing). Defendants assert that neither Equal Means
Equal nor the Yellow Roses have standing. D. 12 at
20-27. Since Equal Means Equal asserts its basis for
standing on both theories (and Yellow Roses asserts
standing on the basis of organizational standing), the
Court addresses both.

it relies on independent acts of third parties. See Katz, 672 F.3d
at 71-72.

App.21a
a) Associational Standing
“[A]n association may have standing solely as the
representative of its members even in the absence of
injury to itself, in certain circumstances.” Camel Hair

& Cashmere Inst. Of Am., Inc. v. Associated Dry Goods
Corp., 799 F.2d 6, 10 (1st Cir. 1986) (citing Warth, 422

U.S. at 511). To meet the Constitution’s standing
requirement the associations must demonstrate that
(1) its members have an injury “that would make out
a justiciable case had the members themselves brought
suit,” Warth, 422 U.S. at 511, and (2) the “interests
served by the suit are pertinent to the mission of the
organization . . . .” Town of Norwood v. F.E.R.C., 202
F.3d 392, 406 (1st Cir. 2000). Moreover “[r]epresentative
standing is inappropriate for prudential reasons, for
example, if ‘the nature of the claim and of the relief
sought’ requires the participation of individual members.” Parent/Prof’l Advocacy League v. City of
Springfield, 934 F.3d 13, 33-34 (1st Cir. 2019).
Plaintiffs assert that Equal Means Equal,6 has
associational standing in this instance because two of
its members, Lopez and Weitbrecht, had a cognizable
interest in the validity of the ERA. D. 13 at 52-53. The
Archivist asserts that it is not apparent from the
amended complaint that Equal Means Equal has
members at all, much less that Lopez and Weitbrecht
were members. Indeed, it does not appear from the
amended complaint that Equal Means Equal alleges
6 Other than a single line in their surreply brief, D. 22 at 12 n.9,
Plaintiffs have not endeavored to argue that the Yellow Roses
have associational standing. See D. 13 at 53-54; D. 20 at 6 n.2; D.
22 at 11-12. To the extent that they do make this contention, the
Court concludes that they have not made sufficient showing of same.

App.22a
that it has members that have standing to sue in their
own right (although it asserts in its opposition that Lopez
and Weitbrecht are members), as the operative pleading
does not individually identify any of Equal Means
Equal’s members. See generally, D. 5. Equal Means
Equal alleges that it has “over twenty-thousand active
supporters including members of the entertainment
and media community,” D. 5 ¶ 65, and otherwise alleges
that it “engages with its members/supporters who
donate funds and volunteer,” D. 5 ¶ 61, and that its
involvement in this litigation is intended to represent
its own interests and the interests of its members/
supporters and women at large, D. 5 ¶ 64. Associational
standing, however, requires that the organization “at
the very least, ‘identify [a] member[ ] who ha[s] suffered
the requisite harm.’” Draper v. Healey, 827 F.3d 1, 3 (1st
Cir. 2016) (quoting Summers v. Earth Island Inst., 555
U.S. 488, 499 (2009)) (alteration in original). Equal
Means Equal’s failure to allege facts in this regard is
alone fatal to its associational standing theory. See
Equal Means Equal, 2020 WL 1284149, at *4 (holding
that Equal Means Equal’s allegations that “they have
supporters who ‘voluntarily associate[ ] themselves with
[Equal Means Equal] . . . is not sufficient to establish
standing”).
Even considering the additional facts alleged in
its opposition, Equal Means Equal has not established
standing. Equal Means Equal asserts in its briefing
that Weitbrecht and Lopez are both members and
both have standing in their own right. D. 13 at 53. As
this Court discussed above, Weitbrecht has not alleged
a cognizable injury attributable to the Archivist’s action
and, therefore, does not have standing in this instance.
Nor does Lopez’s alleged injury—that she has devoted

App.23a
personal resources and funds to conduct training sessions, produce educational material and communicate
with government officials around the country, urging
them to disregard Defendant’s actions—amount to a
concrete injury. D. 13 at 53. As an interest in a problem
is insufficient to confer standing, Sierra Club, 405
U.S. at 739 (quotations omitted), Equal Means Equal’s
associational standing argument fairs no better with
respect to Lopez.
b) Organizational Standing
“It is well-accepted in the standing context that
organizations may have interests of their own, separate
and apart from the interests of their members.” Mass.
Delivery Ass’n v. Coakley, 671 F.3d 33, 44 n.7 (1st Cir.
2012). Organizational standing is analyzed under the
same inquiry as individual standing. That is to say,
for an organization to allege standing in its own right,
it must allege “(1) an injury in fact, which is (2) fairly
traceable to the defendant’s misconduct, and which
can be (3) redressed through a favorable decision of the
court.” Sexual Minorities Uganda v. Lively, 960 F. Supp.
2d 304, 324 (D. Mass. 2013). Especially germane to the
organizational injury inquiry is whether the injury is
sufficiently concrete or merely an abstract social
interest. See Havens Realty Corp., 455 U.S. at 378-79;

Abigail All. For Better Access to Developmental Drugs
v. Eschenbach, 469 F.3d 129, 133 (D.C. Cir. 2006)

(explaining that “[t]he court has distinguished between
organizations that allege that their activities have
been impeded from those that merely allege that their
mission has been compromised”). This is because
although organizations may be formed to remedy certain
problems or advance certain goals, mere interest in a

App.24a
problem is insufficient to support standing. See Sierra
Club, 405 U.S. at 739.
The Supreme Court in Sierra Club addressed
the standing of the Sierra Club, a membership corporation group with a special interest in conservation, to
bring suit enjoining federal officials from approving
an extensive skiing development in the Mineral King
Valley. Id. at 729-30. Recognizing that “[t]he Sierra
Club is a large and long-established organization, with
a historic commitment to the cause of protecting our
Nation’s natural heritage from man’s depredations,”
the Supreme Court held that this “special interest”
in the problem did not satisfy Article III’s standing
requirements. Id. at 739. This is because if “‘special
interest’ in this subject were enough to entitle the Sierra
Club to commence this litigation, there would appear
to be no objective basis upon which to disallow a suit
by any other bona fide ‘special interest’ organization
however small or short-lived. And if any group with a
bona fide ‘special interest’ could initiate such litigation,
it is difficult to perceive why any individual citizen
with the same bona fide special interest would not also
be entitled to do so.” Id. at 739-40. Accordingly, Sierra
Club is understood as rejecting the idea that lobbyist
or advocacy groups had standing when they assert no
injury other than an injury to its advocacy. Ctr. for
Law & Educ. v. Dep’t of Educ., 396 F.3d 1152, 1162
n.4 (D.C. Cir. 2005) (explaining that “in Sierra Club,
the Supreme Court recognized that to hold that a
lobbyist/advocacy group had standing to challenge
government policy with no injury other than injury to
its advocacy would eviscerate standing doctrine’s
actual injury requirement”); Blunt v. Lower Merion

App.25a

Sch. Dist., 767 F.3d 247, 288 (3d Cir. 2014) (summarizing that “it is clear that a nonprofit entity cannot
create standing in a lawsuit in which it has no direct
economic interest by having its representatives attend
meetings regarding the issue that the entity intends
to raise in the suit, or by making expenditures to
‘educate’ the public on what it regards as the factual
or legal basis for its agenda”); Pa. Prison Soc. v. Cortés,
508 F.3d 156, 163 (3d Cir. 2007) (explaining that
organizations are “unable to establish standing solely
on the basis of institutional interest in a legal issue”).
Organizational injury, however, may also be established when the organization suffers an injury to its
organizational activities. For example, in Havens Realty
Corp., 455 U.S. at 379, the Supreme Court held that the
organizational plaintiff had suffered a concrete injury
because the defendant’s action impeded the organizational purpose and consequentially caused a drain on its
resources. Id. There, HOME, a nonprofit corporation
whose purpose was to make equal opportunity in
housing a reality in the Richmond metropolitan area,
brought suit against a realty company and individual
alleging discrimination in violation of the Fair Housing
Act. Id. at 368-69. HOME alleged that it had been
frustrated by the “defendants’ racial steering practices
in its efforts to assist equal access to housing through
counseling and other referral services” and “has had to
devote significant resources to identify and counteract”
the defendant’s actions. Id. at 379. The Supreme Court
explained that “[if as alleged] petitioners’ steering
practices have perceptibly impaired HOME’s ability to
provide counseling and referral services for low-and
moderate-income home seekers, there can be no question
that the organization has suffered injury in fact.” Id.

App.26a
The Supreme Court held that “[s]uch concrete and
demonstrable injury to the organization’s activities—
with the consequent drain on the organization’s
resources—constitutes far more than simply a setback
to the organization’s abstract social interests.” Id.
The Supreme Court differentiated the injury suffered—having to devote significant resources to combat
discrimination and thereby impeding its ability to
provide counseling services—from the abstract social
interest in combatting racial discrimination that the
Supreme Court previously found insufficient to state
standing in Sierra Club. Id. (citing Sierra Club, 405
U.S. at 739). In Havens, it was not enough that the
plaintiff organization was generally interested in
combating racial discrimination, rather it was that its
activities of providing housing counseling and referral
services had been impeded that gave rise to its standing.
Id. Havens and Sierra Club together require organizations to have an injury distinct from an interest in the
problem. Courts, therefore, do not find standing when
the organizational goal is one in the same with the
injury because those organizations have only a “mere
interest” in a problem. See Lane v. Holder, 703 F.3d 668,
674-75 (4th Cir. 2012) (ruling that a second amendment
group whose goal was to promote the exercise of the right
to keep and bear arms, educate and research, publishing
and legal action focusing on the Constitutional right
to privately own and possess firearms did not have
standing to challenge firearm law based on its diversion
of resources to educate and litigate based on the law);
Pa. Prison Soc., 508 F.3d at 162-64 (holding that a group
interested in prison rights did not have standing to
challenge amendment to Pennsylvania’s constitution
regarding recommendations of pardons). This is because

App.27a
“[a]n organization’s expenses in the pursuit of its
agenda are self-effectuating and claiming them as
injury-in-fact would allow any advocacy group to
manufacture standing by choosing to expend resources
to advocate against policy decisions made by the federal
government.” Blunt, 767 F.3d at 288 (quoting Ctr. For
Law and Educ. v. U.S. Dep’t of Educ., 315 F. Supp. 2d 15,
24-25 (D.D.C. 2004)).
Yellow Roses and Equal Means Equal are both
advocacy organizations. Equal Means Equal’s “sole purpose is to advocate for sex equality and ratification of
the ERA.” D. 13 at 50; D. 5 ¶¶ 10, 59. Yellow Rose’s
mission is to advocate for and raise public awareness
about sex equality and the ERA. D. 13 at 53; D. 5
¶¶ 11, 66. Both organizations allege that their missions
have been frustrated because they assert that the
Archivist’s refusal to publish the ERA and dissemination
of misinformation about its validity has obstructed
the organizations’ ability to advocate for sex equality
under the ERA. D. 13 at 50, 54. Because the Archivist
has not declared the ERA valid, they cannot effectively
advocate for equality under it. D. 13 at 49-51, 53-54.
The organizations argue that they have had to divert
funds away from their advocacy efforts and instead
have had to dedicate funds to educating the public
about the Archivist’s actions. D. 13 at 49-51, 53-54. If
these allegations were sufficient to claim standing, an
organizational plaintiff would have standing anytime
a defendant’s action interfered with their organizational
goal of advocacy. This is precisely the principal the
Supreme Court rejected in Sierra Club when it held
that the Sierra Club’s special interest in the “[n]ational
natural heritage from man’s depredations” were not

App.28a
enough to entitle Sierra Club to commence [that] litigation. Sierra Club, 405 U.S. at 739. Undisputedly,
the Organizational Plaintiffs are dedicated advocates
to women’s rights, “but standing is not measured by
the intensity of the litigant’s interest or the fervor of
his advocacy.” Valley Forge Christian Coll. v. Ams.
United for Separation of Church & State, Inc., 454
U.S. 464, 486 (1982).
Other courts reviewing similar organizational
injuries have been reluctant to find standing because
such injuries are not distinct from the organizations’
mere interest in the problem. For example, the D.C.
Circuit has explained that courts do not find standing
where “the only ‘injury’ arises from the effect of the
regulations on the organizations’ lobbying activities
(as opposed to the effect on non-lobbying activities).”
Ctr. For Law & Educ., 396 F.3d at 1161. Similarly, the
Seventh Circuit has explained that “finding it difficult
to advocate and educate on home-sharing in Chicago
before a court rules on the individual plaintiffs’ challenges to the constitutionality” of an ordinance does not
amount to constitutional standing. Keep Chicago
Livable v. City of Chicago, 913 F.3d 618, 625 (7th Cir.
2019). Here, the Organizational Plaintiffs allege similarly policy and advocacy based injuries explaining that
both had to expend significant resources educating,
advocating and “communicating with the public around
the country to counteract Defendant’s unlawful actions,”
D. 13 at 51, and “[t]his has frustrated [the organization’s] mission because [they] unable to advocate at all
for the repair work that should be already underway,
and would already be underway, if the Archivist had
not stated his refusal to recognize the ERA.” D. 5 ¶ 62;
see D. 5 ¶ 63. This interference with organizational

App.29a
advocacy goals is insufficient to confer standing. See
Ctr. For Law and Educ., 396 F.3d at 1161; Keep Chicago
Livable, 913 F.3d at 625; Food & Water Watch, Inc. v.
Vilsack, 808 F.3d 905, 919 (D.C. Cir. 2015) (citing cases
and explaining that “[o]ur precedent makes clear that
an organization’s use of resources for litigation,
investigation in anticipation of litigation, or advocacy
is not sufficient to give rise to an Article III injury”).
Nor are the organizations’ efforts to educate members of the public/supporters sufficient to sustain
standing. The Organizational Plaintiffs argue that
they have devoted resources “to educate and inform
members and the general public about why the ERA
is duly ratified” despite the Archivist’s actions. D. 5
¶ 63. Essentially, these resources have been devoted
to educate the public about the legal status of the
ERA, but an organization may not establish “Article
III standing merely by virtue of its efforts and expense
to advise others how to comport with the law, or by
virtue of its efforts and expense to change the law.”
Fair Elections Ohio v. Husted , 770 F.3d 456, 460
(6th Cir. 2014); see Boston’s Children First v. Boston
Sch. Comm., 183 F. Supp. 2d 382, 403 (D. Mass. 2002)
(rejecting the standing argument that plaintiff
“has ‘expended considerable resources in providing
counseling and information to its members and general
public about the challenged . . . policy’”).7
7 Plaintiffs argue that Boston’s Children First is inapplicable
because they argue that the plaintiffs there alleged no diversion
of resources or frustrated its mission. D. 13 at 51. As a
preliminary matter, it appears that the plaintiffs in Boston
Children First did allege a diversion of resources as its argument
was based on the “sunk costs” injury the organization sustained
as a result of the defendant’s action. Id. at 403. In any event, the

App.30a
To hold otherwise and decide that the Organizational Plaintiffs here, whose purpose is to advocate for
the ERA, have standing to assert the constitutional
validity of the ERA would be in tension with this Court’s
obligation to decide only actual cases and controversies.
“At bottom the Article III standing limitation prevents
a plaintiff from bringing a federal suit to resolve an
issue of public policy if success does not give the
plaintiff (or one of an associational plaintiff’s members)
some relief other than the satisfaction of making the
government comply with the law.” Fair Elections
Ohio, 770 F.3d at 460. The Organizational Plaintiffs
here ultimately assert that the ERA is the law and
advocate for compliance with it. Undoubtedly, the relief
the organizations seek would allow them to focus their
efforts toward advocacy to state legislatures and may
well make their advocacy efforts more effective, but
that does not confer standing for these Plaintiffs to
bring this suit. See Akins, 524 U.S. at 20 (explaining
that the cases and controversies limitation of Article
III ensures that “courts will not pass upon. . . . abstract,
intellectual problems but adjudicate concrete, living
contest[s] between adversaries”) (alterations in original)
(citations omitted). “Otherwise, the implication would
be that any individual or organization wishing to be
involved in a lawsuit could create a[n organization] for
the purpose of conferring standing, or could adopt [a
mission] so that the [organization] expressed an interest in the subject matter of the case, and then spend
its way into having standing.” Blunt, 767 F.3d at 288.
mission the defendant’s action impairs here is that of advocacy
and “when the service impaired is pure issue-advocacy” standing
is not established. PETA v. U.S. Dep’t of Agric., 797 F.3d 1087,
1093-94 (D.C. Cir. 2015).

App.31a
4. Procedural Injury
Plaintiffs also assert a procedural injury in their
opposition. D. 13 at 40. “The person who has been
accorded a procedural right to protect his concrete
interests can assert that right without meeting all of
the normal standards for redressability and immediacy.”
Lujan, 504 U.S. at 572 n.7. Article III still imposes a
“irreducible constitutional minimum” and although
Congress is “well position to identify intangible harms”
that does not mean that a plaintiff “automatically
satisfies the injury-in-fact requirement whenever a
statute grants a person a statutory right and purports
to authorize that person to sue to vindicate that right.”
Spokeo, Inc., 136 S. Ct. at 1548-49.
Although Plaintiffs do not assert a procedural
injury in their complaint, in their opposition they appear
to identify 1 U.S.C. § 106b and the Archivist’s decision
not to certify the ERA as the basis for their procedural
injury.8 D. 13 at 23-25. Plaintiffs argue that Section
106b creates a mandate for the Archivist to record
ratified amendments because it provides that the Archivist “shall forthwith cause the amendment to be
published.” 1 U.S.C. § 106b. Examples of procedural
8 Plaintiffs also assert a procedural right because “thirty-eight
states voted to ratify the ERA, thus satisfying Article V” and,
therefore, Plaintiffs also have a cognizable legal interest in ensuring
compliance with the states’ judgment that the ERA is now law.
D. 22 at 10-11 n. 7. In support, Plaintiffs cite Salazar v. Buono,
555 U.S. 700, 712 (2010) for the proposition that party who obtains
a judgment in his favor “acquires a ‘judicially cognizable’ interest
in ensuring compliance with hat judgment.” Here, Plaintiffs have
not obtained a judgment in their favor that the ERA is ratified
and cannot use their arguments that it is ratified to assert
standing to obtain that very judgment.

App.32a
injuries include: an agency’s failure to prepare an
environmental impact statement, see City of Davis v.
Coleman, 521 F.2d 661, 671 (9th Cir. 1975), adoption
of a regulation without notice or comment period,
United States v. Johnson, 632 F.3d 912, 920-21 (5th
Cir. 2011), violation of publication and notification
procedural duties prior to an eminent domain taking,
Brody v. Vill. of Port Chester, 345 F.3d 103, 108-13 (2d
Cir. 2003), and failure to comply with its certification
procedures, Int’l Longshoremen’s & Warehousemen’s
Union v. Meese, 891 F.2d 1374, 1379 (9th Cir. 1989).
In all these cases, plaintiffs sought to enforce a procedural requirement which could impair their separate
concrete interests.
Even assuming there was some procedural violation
here, Plaintiffs “cannot satisfy the demands of Article
III by alleging a bare procedural violation.” Spokeo,
Inc., 136 S. Ct. at 1550. Here, Plaintiffs have not alleged
any concrete interest in tandem with the Archivist’s
failure. It “is not a case where plaintiffs are seeking to
enforce a procedural requirement the disregard of which
could impair a separate concrete interest of theirs
(e.g., the procedural requirement for a hearing prior
to denial of their license application, or the procedural
requirement for an environmental impact statement
before a federal facility is constructed next door to
them).” Lujan, 504 U.S. at 572. Rather, here Plaintiffs
seek to establish an injury in procedural violation—
the Archivist’s failure to certify the ERA—and argue
that a myriad of generalized consequences (the unequal
status of women, violence against women and unequal
treatment) flow to all women and all those otherwise
affected by the Archivist’s failure to act. As this court

App.33a
explained above, this is not a concrete and particularized stake in the outcome. Accordingly, Plaintiffs’
procedural standing argument fare no better than
their class-wide, individual and organizational arguments.
5. The Claims Here Further Illustrate That
Plaintiffs Do Not have Standing
Plaintiffs ask, among other things, that this Court
declare certain states’ purported rescissions invalid
and declare the ERA ratified despite the fact that
several states have passed intended rescissions of
these ratifications. D. 5 at 25. In short, the Plaintiffs
ask this Court to adjudicate the efficacy of states
ratification, which Freeman observed is “the mechanism
whereby the will of the people is expressed.” Freeman,
529 F. Supp. at 1128. Standing is meant to sharpen
“the presentation of issues upon which the court so
largely depends for illumination,” Massachusetts v.
E.P.A., 549 U.S. at 517 (quoting Baker, 369 U.S. at 204)
(internal quotations omitted), but no states are parties
in this suit. Freeman and Dyer both considered whether
Idaho and Illinois had ratified the ERA. See Dyer v.
Blair, 390 F. Supp. 1291, 1308-09 (N.D. Ill. 1975);
Freeman, 529 F. Supp. at 1146-50. Both considered
the process by which Idaho and Illinois had approved
and rescinded their approval for the amendment. See
Dyer, 390 F. Supp. at 1308-09; Freeman, 529 F. Supp.
at 1147-50. Freeman and Dyer both considered the
states’ legislative actions in an attempt to determine
the “will of the people of those states.” See Dyer, 390
F. Supp. at 1308-09; Freeman, 529 F. Supp. at 1150.
Here, the Court does not have before it any state as a
party for this litigation but is nonetheless asked to
decide their ratifications.

App.34a
For all of the aforementioned reasons stated,
Plaintiffs have not demonstrated standing in this suit.
Accordingly, the Court lacks jurisdiction to decide the
underlying merits and, therefore, does not address the
Defendant’s remaining arguments for dismissal. See
United States v. AVX Corp., 962 F.2d 108, 113 (1st
Cir. 1992) (explaining that “[i]f a party lacks standing
to bring a matter before the court, the court lacks
jurisdiction to decide the merits of the underlying case”).
VI. Conclusion
For the foregoing reasons, the Court ALLOWS
Defendants’ motion to dismiss. D. 11.
So Ordered.
/s/ Denise J. Casper
United States District Judge

App.35a
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS AND
JUDICIAL RULES
U.S. Const. Art. V
The Congress, whenever two thirds of both houses
shall deem it necessary, shall propose amendments
to this Constitution, or, on the application of the
legislatures of two thirds of the several states, shall
call a convention for proposing amendments,
which, in either case, shall be valid to all intents
and purposes, as part of this Constitution, when
ratified by the legislatures of three fourths of the
several states, or by conventions in three fourths
thereof, as the one or the other mode of ratification
may be proposed by the Congress; provided that
no amendment which may be made prior to the
year one thousand eight hundred and eight shall
in any manner affect the first and fourth clauses
in the ninth section of the first article; and that
no state, without its consent, shall be deprived of
its equal suffrage in the Senate.
1 U.S. Code § 106b
Amendments to Constitution
Whenever official notice is received at the National
Archives and Records Administration that any
amendment proposed to the Constitution of the
United States has been adopted, according to the
provisions of the Constitution, the Archivist of
the United States shall forthwith cause the
amendment to be published, with his certificate,
specifying the States by which the same may
have been adopted, and that the same has become

App.36a
valid, to all intents and purposes, as a part of the
Constitution of the United States.
28 U.S. Code § 2101(e)
Supreme Court; Time for Appeal or Certiorari;
Docketing; Stay
(e) An application to the Supreme Court for a writ
of certiorari to review a case before judgment has
been rendered in the court of appeals may be
made at any time before judgment.

App.37a
PROPOSED AMENDMENT TO
THE CONSTITUTION OF THE UNITED STATES
SECOND SESSION, NINETY-SECOND CONGRESS:
EQUAL RIGHTS AMENDMENT

JOINT RESOLUTION
[H.J. RES. 208]
PROPOSING AN AMENDMENT TO THE CONSTITUTION
OF THE UNITED STATES RELATIVE TO
EQUAL RIGHTS FOR MEN AND WOMEN.

Resolved by the Senate and House of Representatives of the United States of America in Congress
assembled (two-thirds of each House concurring therein),
That the following article is proposed as an amendment to the Constitution of the United States, which
shall be valid to all intents and purposes as part of
the Constitution when ratified by the legislatures of
three-fourths of the several States within seven years
from the date of its submission by the Congress:
“ARTICLE—
“SECTION 1. Equality of rights under the law shall
not be denied or abridged by the United States or
by any State on account of sex.
“SEC. 2. The Congress shall have the power to
enforce, by appropriate legislation, the provisions
of this article.
“SEC. 3. This amendment shall take effect two
years after the date of ratification.”

App.38a
CARL ALBERT
Speaker of the House of Representatives.
ALLEN J. ELLENDER
President of the Senate pro Tempore.
I certify that this Joint Resolution originated in
the House of Representatives,
W. PAT JENNINGS
Clerk
BY
W. RAYMOND COLLEY
[Received by the Office of the Federal Register, National
Archives and Records Service, General Services Administration, March 23, 1972.]
________________________
LEGISLATIVE HISTORY:
HOUSE REPORT
No. 92-359 (Comm. on the Judiciary).
SENATE REPORT
No. 92-689, also accompanying
S. J. Res. 8 and S. J. Res. 9 (Comm. on the Judiciary).
CONGRESSIONAL RECORD:
Vol. 117 (1971):
Aug. 6, S. J. Res. 150 considered in Senate. Oct. 6, 12,
H. J. Res. 208 considered and passed House.
Vol. 118 (1972):
Mar. 15, 17, 20-22, considered and passed Senate.

App.39a
AMENDED COMPLAINT FOR EQUITABLE
AND INJUNCTIVE RELIEF AND FOR
RELIEF UNDER THE ALL WRITS ACT
(FEBRUARY 29, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
________________________
EQUAL MEANS EQUAL, THE YELLOW ROSES,
KATHERINE WEITBRECHT,

Plaintiffs,
v.
DAVID S. FERRIERO, in his official capacity as
Archivist of the United States,

Defendant.
________________________
Civil Action No. 20-cv-10015
Equal Means Equal, The Yellow Roses, and
Katherine Weitbrecht bring this action for equitable
and injunctive relief and relief under the All Writs
Act.
INTRODUCTION
1. This action concerns the recent ratification of
the Equal Rights Amendment (“ERA”) and raises
novel questions of public importance. Review by this
Court will offer significant pragmatic benefits and
provide needed guidance to the litigants, as well as to

App.40a
government officials responsible for complying with
the ERA.
2. Thirty-eight states (three-fourths) are needed
to ratify a constitutional amendment. Nevada and
Illinois became the 36th and 37th States to ratify the
ERA in 2017 and 2018, respectively. Virginia became
the 38th State to ratify the ERA on January 27, 2020.
3. On December 16, 2019, Attorneys General
from Alabama, Louisiana and South Dakota (“Alabama
Plaintiffs”) preemptively filed suit in Alabama federal
court suit against the United States Archivist, seeking
to block ratification of the ERA when Virginia ratified.
Alabama et al. v. Ferriero, N.D. Alabama, No. 7:2019cv-02032. The Alabama Plaintiffs seek declaratory and
injunctive remedies, including preliminary and permanent injunctions, directing the Archivist not to record
Virginia’s ratification, and to remove the alreadyrecorded ratifications of Nebraska, Idaho, Tennessee,
Kentucky, and South Dakota.
4. On December 19, 2019, just days after the Alabama lawsuit was filed, Defendant Archivist (National
Archives and Records Administration) issued a statement declaring that it “does not intend to take any
action regarding the ERA until, at a minimum, it
receives the guidance it previously requested [from
the Justice Department’s Office of Legal Counsel] and
in no event before February 15, 2020.” U.S. National
Archives and Records Administration, Press Release,
December 19, 2019.
5. On January 8, 2020, the day after this action
was filed, the Department of Justice Office of Legal
Counsel released to the public a formal legal opinion
(slip opinion) dated January 6, 2020, stating, inter alia,

App.41a
“ . . . even if one or more state legislatures were to
ratify . . . ” the Equal Rights Amendment, “ . . . it would
not become part of the Constitution, and the Archivist
could not certify its adoption under 1 U.S.C. § 106b.”
Ratification of the Equal Rights Amendment, Memo-

randum Opinion for the General Counsel National
Archives and records Administration, https://www.
justice.gov/olc/file/1235176/download.

6. On January 8, 2020, citing the Office of Legal
Counsel’s opinion, the Defendant Archivist of the
United States released an official statement declaring
he would not certify adoption of the Equal Rights
Amendment, and citing, inter alia, this litigation,
would “ . . . abide by the OLC opinion, unless otherwise
directed by a final court order.” NARA Press Statement
on the Equal Rights Amendment, https://www.archives.
gov/press/press-releases-4
7. By its terms, the ERA becomes enforceable two
years after ratification. This two-year period is designed
to give state and federal officials time to examine and
repair laws, regulations, and policies, to remove all
sex discriminatory features. Plaintiffs have an interest
in ensuring that state officials begin taking these
steps now that Virginia has ratified.
8. Plaintiffs filed this action to ensure the proper
recording of Virginia’s ratification, and the ERA’s
ratification. Plaintiffs also seek to prevent the Archivist
from improperly removing prior ratifications by any
state. Plaintiffs, therefore, seek by this complaint all
appropriate writs, injunctions, judgments and orders
to ensure the ERA is recorded as the duly ratified 28th
Amendment to the U.S. Constitution.

App.42a
PARTIES
9. Defendant, David S. Ferriero, is the Archivist
of the United States. The Archivist directs and supervises the National Archives and Records Administration and is responsible for administering the process
of recording states’ ratifications of constitutional
amendments, and for recording the amendments. See
1. U.S.C. § 106b. The Archivist is sued in his official
capacity.
10. Plaintiff Equal Means Equal is a national
501(c)(4) organization whose sole purpose is to advocate
for women’s equality and ratification of the ERA and
equal rights for women and girls.
11. Plaintiff The Yellow Roses is an organization
of Massachusetts high school students, founded in
2016 for the sole purpose of advocating for ratification
of the ERA.
12. Plaintiff Katherine Weitbrecht is a female
resident of Plymouth County Massachusetts.
JURISDICTION
13. This Court has subject-matter jurisdiction
under 28 U.S.C. § 1331, 28 U.S.C. § 1361 and 28 U.S.C.
§ 1651, because this case seeks equitable relief, a Writ
of Mandamus, and relief under the All Writs Act, and
arises under the Constitution and laws of the United
States.
14. Venue is proper under 28 U.S.C. § 1391(e)
because Defendant is an officer of the United States
sued in his official capacity, this case does not involve
real property, and Plaintiff The Yellow Roses and
Plaintiff Katherine Weitbrecht reside in Massachusetts.

App.43a
FACTS
15. In 1972, Congress proposed the Equal Rights
Amendment as an amendment to the United States
Constitution, and sent it to the states for ratification.
The ERA states, “[e]quality of rights under the law
shall not be denied or abridged by the United States
or by any state on account of sex.” As the same time,
however, Congress enacted a separate provision as a
preamble to the ERA, purporting to give the States
only seven years to ratify (by March 22, 1979). This
separate deadline, as a preamble provision and not
part of the ERA itself, thus was not subject to approval
by the States. Indeed, only some of the states that
voted to ratify mentioned the deadline.
16. The extra-textual deadline is unconstitutional as it imposes unlawful constraints on the States to
elect a schedule of their choosing on which to consider
and ratify-or decline to ratify-a proposed constitutional
amendment.
17. The first sixteen amendments to the U.S.
Constitution had no ratification deadlines. The first
time Congress imposed a deadline was relatively
recently, with the Eighteenth Amendment (prohibition)
in 1917. Notably, the deadline for ratification of the
Eighteenth Amendment was not extra-textual; it was
included in the text of the proposed amendment itself.
18. In 1978, as the extra-textual deadline approached, Congress passed a joint resolution by simple
majority of both houses, extending the ERA’s extratextual deadline to June 30, 1982. Like the extratextual deadline, the extension bill was enacted
separately from the ERA itself and was not sent to the
states for approval. That the extra-textual deadline was

App.44a
extended by routine statutory process without congressional action on the ERA itself, and was passed by
a simple majority in both houses rather than the twothirds required for amendments, illustrates not only its
extra-textual nature, but also that Congress perceived
the deadline to be untethered to the ERA. When the
extra-textual deadline expired in 1979, 35 states,
including Massachusetts, had ratified the ERA. No
additional states ratified between 1979 and 1982.
19. When the ERA extension bill deadline expired
in 1982, women’s rights groups continued to work
toward ratification, especially after 1992, when the
27th Amendment (“Madison Amendment”) was ratified
203 years after it passed Congress. Proponents of the
ERA were incredulous that a congressional pay-raise
amendment was ratified centuries after Congress
dispatched it to the States, while a proposed constitutional amendment granting equality of citizenship to
women was given only ten years. The ERA’s proponents were also aware that the Madison Amendment was ratified and approved by Congress despite
the fact that the United States Supreme Court had
ruled, in Dillon v. Gloss, 256 U.S. 368, 376 (1921), that
the Madison Amendment was already too old in 1921
to ratify.
20. Despite expiration of the extra-textual deadline
and its subsequent extension, women’s rights groups
and others have worked continuously to ratify the
ERA, succeeding in Nevada in 2017, and Illinois in
2018. The Archivist recorded both ratifications.
21. Now that Virginia has become the thirtyeighth state to ratify, the ERA is a valid amendment
to the Constitution despite the extra-textual deadline
because the deadline is a constitutional nullity.

App.45a
22. Article V of the U.S. Constitution, which sets
out the process for ratification, nowhere grants Congress the power to restrict States’ rights concerning
ratification by enacting a separate provision to limit
the time period within which the States must ratify.
Article V only gives Congress authority to “propose
amendments” and to “propose” whether they may be
ratified “by state legislature or constitutional convention . . . ” These allocations of proposal power in
Article V neither require nor permit-nor warrant-a
grant of implied power to Congress to use an extratextual statute to impose a deadline on ratification.
23. The Tenth Amendment limits the power of
the federal government to constrain legislatively the
States’ power to ratify proposed amendments: “The
powers not delegated to the United States by the
Constitution, nor prohibited by it to the States, are
reserved to the states respectively, or to the people.”
24. If Congress may impose deadlines on ratification of amendments, it must do so in a constitutional
manner, by placing the deadline within the text of a
proposed amendment itself, as happened with the
20th, 21st, and 22nd Amendments. This at least
allows the States to decide for themselves, as a matter
of process and substance, whether they want to
ratify an amendment on a proposed schedule. Congress
may not, as occurred with the ERA, enact a provision
separately from the ERA itself that substantively-and,
therefore, unconstitutionally-constrained the States’
ratification powers and subverted the plain language
of Article V by limiting the States’ sovereign rights. It
would be equally inappropriate for the States to impose
a deadline on the Congress in circumstances where
the States initiated an amendatory process through

App.46a
Convention. The extra-textual deadline, therefore,
offends the constitutional allocation of equal amendatory power between the federal and state governments established by the Framers in Article V, and
required by the Tenth Amendment.
25. After a state has ratified a proposed amendment, nothing in Article V or United States Supreme
Court precedent permits it to rescind its ratification.
Indeed, the Fourteenth Amendment was successfully
ratified despite rescissions by two states, at a time
when, had those rescissions counted, the Fourteenth
Amendment could not have been added to the Constitution. The text of the Constitution allows nullification
of amendments only by subsequent repealing of amendments, as was the fate of the Eighteenth Amendment.
Further, nothing in Article V allows some states to
nullify the value of other states’ ratifications, which is
inevitable if states are permitted to rescind.
26. The only court to pass on the issue of whether
states may rescind was a single District Court judge
in Idaho. Idaho v. Freeman, 529 F. Supp. 1107, 1128
(D. Idaho 1981). The District Court ruled that states
may rescind their ERA ratifications, but the ruling
was appealed to the 9th Circuit, and a certiorari
petition was filed with the United States Supreme
Court. The Supreme Court granted pre-judgment certiorari and stayed the judgment of the District Court.
When the 1982 ERA deadline extension expired, the case
was dismissed as moot. N.O.W. v. Idaho, 459 U.S. 809
(1982). Thus, there is no case law from any federal
court addressing whether a state may rescind its
ratification of an amendment and recent attempts by
several states to rescind their ratifications are
without legal support.

App.47a
27. Whether an amendment becomes part of the
Constitution is determined solely by the state-ratification process: an amendment “ . . . shall be valid to all
intents and purposes, as part of this Constitution, when
ratified by the legislatures of three-fourths of the several states, or by conventions in three-fourths thereof
. . . ” Nothing more is needed than the vote of threefourths of the states, by legislature or by convention.
Once that happens, the amendment becomes law and
the Archivist of the United States performs the purely
ministerial task of recording the last state’s ratification
decision, followed by a recording of the ratified amendment itself. Dillon at 376 (The Eighteenth Amendment “was consummated January 16, 1919. That the
Secretary of State [now the Archivist] did not proclaim
its ratification until January 29, 1919, is not material,
for the date of its consummation, and not that on which
it is proclaimed, controls.)
28. The Archivist has properly recorded ratification documents from thirty-seven states, including
recent post-deadline ratifications by Nevada (2017)
and Illinois (2018). The Archivist has no obligation,
duty or authority to record unlawful attempts to
rescind ratifications, or to decline to record Virginia’s
ratification or ratification by any additional state. Nor
may the Archivist decline to record an amendment once
the requisite three-fourths of the States have ratified.
29. The Archivist acted legally in recording ratifications of thirty-seven states. His actions respect the
Constitution, the plain language of Article V, and the
Tenth Amendment.
30. Notwithstanding the Archivist’s compliance
with the law thus far, the Alabama Plaintiffs allege that

App.48a
the Archivist acted illegally by recording the ratifications of Nevada and Illinois, and by not recording
attempted rescissions of prior ratifications by five
states.
31. Plaintiffs here, like the Alabama Plaintiffs,
seek to ensure that the Archivist performs his duties.
But unlike the Alabama Plaintiffs, Plaintiffs seek to
ensure that the Archivist performs his duties lawfully,
so that the Constitution formally recognizes women’s
equality of citizenship for the first time in history.
32. Article V clearly gives Congress and the States
separate, co-equal and distinct roles in the amendatory
process. See The Federalist No. 43 (Hamilton)
(explaining that Article V “equally enables the general
and the States governments”). This balance was by
design, as it makes the amendment process “neither
wholly national nor wholly federal.” The Federalist
No. 39 (Madison). Article V accomplishes this balance
by giving Congress and the States “carefully balanced
and approximately equally distributed” powers. Idaho
v. Freeman, 529 F. Supp. at 1128.
33. Although Article V states that Congress has
the power to control the “mode of ratification,” see
United States v. Sprague, 282 U.S. 716, 732 (1931),
this refers solely to the choice between ratification by
convention or by state legislatures.
34. The United States Supreme Court has said
that Congress may set “reasonable” time limits on
ratification, Dillon v. Gloss, 256 U.S. 368, 376 (1921).
However, the Amendment at issue in that case-the
Eighteenth-expressly included a deadline within the
text of the amendment itself. (See Section 3 of the

App.49a
Eighteenth Amendment: “This article shall be inoperative unless it shall have been ratified as an
amendment to the Constitution by the legislatures of
the several states, as provided in the Constitution,
within seven years from the date of the submission
hereof to the states by the Congress.”) Thus, Dillon is
authority for at, at most, the proposition that an
amendment may include a deadline-or anything elsein its text.
35. Further, it is arguable that Dillon is no longer
good law as the underlying basis for Dillon no longer
applies. The United States is a much more complex
nation today than it was when Dillon was decided in
1921. In Dillon, the Court was primarily concerned
with ensuring national consensus for proposed
amendments. It ruled that substantial contemporaneity
between the date when Congress proposes an amendment, and the date when the last of three-fourths of
the States ratifies would demonstrate consensus.
Contemporanaeity, however, is no longer necessary to
show consensus. Indeed, recent rigorous survey research
demonstrates overwhelming national support for the
ERA. CISION, PR Newswire.com, Americans–by 94%-

Overwhelmingly Support the Equal Rights Amendment,

June 17, 2016. Indeed, imposing a short ratification
deadline can undermine consensus, as occurred with
Prohibition. The seven-year deadline put artificial pressure on the states to ratify quickly, without giving sufficient attention to the consequences of ratification, a
reality that quickly became clear when prohibition
was repealed soon after it became law.
36. Dillon’s viability is questionable not only
because its underlying premise about demonstrating
consensus through contemporaneity is anachronistic,

App.50a
but also because it was effectively voided when Congress disregarded the decision by validating the
Madison Amendment in 1992 after it languished with
insufficient numbers of ratifying states since its original proposal in 1789. Congressional approval of the
Madison Amendment’s ratification in 1992 ignored the
Dillon court’s admonition that the Amendment was
already too old, in 1921, to ratify. Dillon at 375
(“proposal and ratification . . . are not to be widely
separated in time.”)
37. The States have exclusive authority over the
ratification process, an authority that cannot be mitigated by ratification deadlines enacted by Congress outside the scope of its power to propose amendments.
Congress exceeded its Article V authority by enacting
an extra-textual deadline, thus denying the States
their right to exercise exclusive control over the ratification process. Dyer v. Blair, 390 F. Supp. 1291, 1307
(N.D. Ill. 1975) (Stevens, J.) (“[Article V’s] failure to
prescribe any particular ratification procedure, or required vote to effectuate a ratification, is certainly consistent with the basic understanding the state
legislature should have the power and the discretion
to determine for themselves how they should discharge the responsibilities committed to them by the
federal government.”)
38. Since Congress began imposing deadlines in
the early 1900s, it has done so inconsistently, adding
deadlines for some amendments, but not all. For
example, a deadline was imposed on the Eighteenth
but not the Nineteenth Amendment. And even when
imposing deadlines, Congress has done so capriciously
by placing some deadlines in the text of proposed
amendments (Eighteenth, Twentieth, Twenty-First,

App.51a
and Twenty-Second) and in separate provisions for
others (Twenty-Third, Twenty-Fourth, Twenty-Fifth
and Twenty-Sixth Amendments). The constitutionality
of extra-textual statutory deadlines has never been
addressed by any court, but it should be obvious that
amending the Constitution is not run-of-the-mill
lawmaking. The process should be consistent, predictable, and strictly obedient to the Constitution.
39. Congress’ inconsistent handling of ratification
deadlines and disregard for Dillon support Plaintiffs’
request that this Court declare the extra-textual ERA
deadline a constitutional nullity.
40. This Court should also prohibit the Archivist
from recording any state’s attempt to rescind a prior
ratification of the ERA.
41. After Virginia ratified, the Archivist refused
to record Virginia’s ratification. In turn, the Archivist
violated his duty to “cause the [ERA] to be published,
with his certificate, specifying the States by which the
same may have been adopted, and that the same has
become valid, to all intents and purposes, as a part of
the Constitution of the United States.” 1 U.S.C. § 106b.
42. The Archivist’s duties are narrow in scope
and purely ministerial in function because the date
when an amendment becomes law is the date when
the last state ratifies. Dillon at 376. The Alabama
Plaintiffs seek to disrupt a constitutionally valid
process by obtaining a court order nullifying existing
ratifications of the ERA, and forbidding the Archivist
to recognize the ERA itself as duly ratified. Plaintiffs
here seek a remedy from this Court to ensure that the
Archivist is not unlawfully prohibited from performing

App.52a
his ministerial duties, and recording the ERA as duly
ratified.
43. The ERA is critically important to American
Democracy; it guarantees women full equality of
citizenship. Presently, women enjoy less than full
citizenship. For example, the United States Supreme
Court has held that the Fourteenth Amendment’s
Equal Protection Clause prohibits sex discrimination
less effectively than it prohibits other forms of discrimination because the applicable legal standard
denies women the strictest level of legal scrutiny, thus
permitting more sex discrimination than is legally
tolerated against other social classes. See, e.g., United
States v. Virginia, 518 U.S. 515, 532 (1996).
44. The issues presented here are justiciable,
non-political questions. “[G]ving plenary power to
Congress to control the amendment process runs completely counter to the intentions of the founding fathers.”
Freeman , 529 F. Supp. at 1126. Because Article V
“split[s]” the amending power “between Congress and
the states,” “it is evident . . . that the framers did not
intend either of those two parties to be the final
arbiter of the process”; rather, “the courts, as a neutral
third party . . . [would] decide . . . questions raised under
article V.” Id. at 1134. Courts are “not . . . free” to
dismiss challenges to the ratification process as
political questions, as then-Judge Stevens explained,
because “the [Supreme] Court has on several occasions
decided questions arising under article V, even in the
face of ‘political questions’ contentions.” Dyer, 390 F.
Supp. at 1300; accord Freeman, 529 F. Supp. at 112223 (collecting cases).
45. Plaintiffs have standing to seek a remedy
because government officials are refusing to identify

App.53a
and repair sex discriminatory provisions in laws, regulations and policies based on the Archivist’s refusal to
recognize the ERA as a duly ratified amendment, thus
exposing them to an unnecessary risk of harm, and
denying them their legal interest in having government officials begin said repair work. See Buckley v.
Valeo, 424 U.S. 1, 117 (1976) (per curiam) (“Party
litigants with sufficient concrete interests at stake
may have standing to raise constitutional questions of
separation of powers with respect to an agency designated to adjudicate their rights”). See also, N.O.W. v.
Idaho, supra (National Organization for Women granted
standing as intervenor-Defendant to address constitutionality of ERA rescissions and deadline extension).
46. Plaintiff Katherine Weitbrecht, The Yellow
Roses, and all women in Massachusetts are experiencing
an increased risk of harm because of the Defendants’
actions and inactions because women as a class are
currently excluded from protection under the state’s
hate-crime statute, Mass.G.L.c.265, § 39, which means
they are being denied equal protection from sex/genderbased hate-crimes and associated deterrence of genderbased hate-crimes ensuing from their enforcement.
The Massachusetts hate crime statute is facially discriminatory, thus causing injury to all Plaintiffs
because unequal treatment is a cognizable legal injury.
The Massachusetts hate crime statute should be
repaired so that it is no longer discriminatory based
on sex, but lawmakers and other government officials
will not take steps to fix the hate crime statute so long
as the Archivist refuses to record the ERA as a valid
constitutional amendment.
47. Relief from this Court will protect Plaintiffs
and all women, as well as the States, from suffering

App.54a
irreparable injury. See Maryland v. King, 567 U.S.
1301 (2012) (Roberts, C.J., in chambers) (“[A]ny time
a State is enjoined by a court from effectuating statutes
enacted by representatives of its people, it suffers a
form of irreparable injury.”)
48. Precluding the enforcement of the Constitution, like “the threat of enforcement of [an unconstitutional law,] is an Article III injury in fact.” Susan B.
Anthony List v. Driehaus, 573 U.S. 149, 16 (2014).
49. Plaintiffs seek to vindicate their rights, and
the rights of the States to exercise fully their co-equal
constitutional role in the amendatory process, on par
with the national government, by respecting the plain
language of Article V, and the Tenth Amendment.
50. Thus, Plaintiffs ask this Court to issue any
and all appropriate writs, orders, and judgments to
ensure proper recording of the ERA as the duly
enacted twenty-eighth Amendment to the U.S. Constitution.
FACTS REGARDING
THE CLASS OF PEOPLE AFFECTED
51. Violence against women is the product of
women’s inequality and is reinforced by discriminatory
laws and exclusionary social norms.1
52. Nearly 1 in 2 women experiences some form
of sexual violence in their lifetime, 37% between the
1 U.N. General Assembly, 2006, In-Depth Study on All Forms of
Violence against Women: Report of the Secretary General. A/61/
122/Add.1; United Nations, New York, http://www.un.org/women
watch/daw/vaw/v-sg-study.htm, February 2010; D. Rhode,
Speaking of Sex, 1997, the Denial of Gender Inequality.

App.55a
ages of 18-24.2 Females are 5 to 8 times more likely
than men to be victimized by an intimate partner and
they suffer disproportionately high rates of domestic
and dating violence,3 sexual assault,4 and stalking.5
Only a small percentage of victims report sexual
assaults to government officials because, inter alia,
they expect the government not to provide effective
2 Rape Prevention and Education Program, Centers for Disease
Control and Prevention, 2013. http://www.cdc.gov/violenceprevention/rpe/>.
3 U.S. DEPARTMENT OF JUSTICE, Violence by Intimates:

Analysis of Data on Crimes by Current or Former Spouses,
Boyfriends, and Girlfriends, (March 1998) (violence by an intimate

partner accounts for about 21% of violent crime experienced by
women and about 2% of the violence experienced by men.) 92%
of all domestic violence incidents are committed by men against
women; accord, U.S. DEPARTMENT OF JUSTICE, Violence
Against Women, Bureau of Justice Statistics, January, 1994; and
Koss, M.P. (1988), Hidden Rape: Incidence, Prevalence and

Descriptive Characteristics of Sexual Aggression and Victimization
in a National Sample of College Students. In Burgess, A.W. (ed.)
Sexual Assault. Vol. II. New York: Garland Pub. (84% of raped
women know their assailants and 57% of rapes occur on a date.)
4 U.S. DEPARTMENT OF JUSTICE, 2003 National Crime
Victimization Survey (nine out of ten rape victims are female);
Koss, M.P., id, (women aged 16-24 are four times more likely to
be raped than any other population group.)
5 8% of women and 2% of men in the United States have been
stalked at some time in their life. 78% of stalking victims
identified in a survey were women, and 22 percent were men.
Thus, four out of five stalking victims are women. By comparison,
94 percent of the stalkers identified by female victims and 60
percent of the stalkers identified by male victims were male.
Overall, 87 percent of the stalkers identified by the victims were
male. NATIONAL INSTITUTE OF JUSTICE Stalking in America:
Findings from the National Violence Against Women Survey, 1998.

App.56a
redress, and they fear the legal system will cause
additional harm.6
53. 9% of all rapists are prosecuted, 5% lead to
conviction, and less than 3% spend even one day behind
bars.7
54. Offenders’ sense of entitlement, caused in
part by women’s constitutional inequality, fosters rapesupportive attitudes and behaviors, which is correlated
with sexual aggression.8
55. One in three to one in four women is victimized
by sexual assault during college.9 Given that approximately 916,000 women graduated from post-secondary schools in 2009,10 this means over 200,000 women

6 D. Kilpatrick et al., Drug-facilitated, incapacitated, and Forcible
Rape: A National Study, 2007; U.S. Bureau of justice Statistics,
M. Planty and L. Langton, Female Victims of Sexual Violence,
1994-2010,” 2010.
7 Probability Statistics Calculated by the Rape, Abuse and Incest
National Network, “Reporting Rats,” 2013.
8 L. Bouffard, Exploring the Utility of Entitlement in Understanding Sexual Aggression, 38 Journal of Criminal Justice, pp.870879 (2010).
9 https://www.ncjrs.gov/pdffiles1/nij/grants/221153.pdf, pp. xiixiii and 2-1 (2007); U.S. Department of Justice Office of Community Oriented Policing Services, Acquaintance Rape of College
Students, March 28, 2002, http://www.cops.usdoj.gov/pdf/e03021472.
pdf; https://www.ncjrs.gov/pdffiles1/nij/grants/221153.pdf; Freyd,
J. Rosenthal, M. & Smith, C., Preliminary Results from the University of Oregon Sexual Violence and Institutional Behavior
Campus Survey, 2014, http://dynamic.uoregon.edu/jjf/campus/UOcampus- results-30Sept14.pdf.
10 http://www.census.gov/prod/2012pubs/p20-566.pdf.

App.57a
are victimized by sexual assault during college. Some
studies find as few as 5% of college victims file reports.11
56. Female students in the United States endure
pervasive unequal treatment, harassment and violence,
on the basis of sex, throughout all levels of education.12
Women also suffer disproportionately high rates of

11 B. Fischer, et al., Sexual Victimization of College Women,
National Institute of Justice, (2000), http://www.nij.gov/publications/
pages/publication-detail.aspx?ncjnumber=182369 (5%).
12 Sadker, & Zittleman, Still Failing at Fairness, How Gender Bias
Cheats Girls and Boys in School and What We Can Do About It,
Scribner Press 2009; www.hks.harvard.edu/centers/carr/researchpublications/carr-center-working-papers-series/caplan-and-ford%22the-voices-of-diversity-%22.

App.58a
domestic and dating violence,13 sexual assault14 and
stalking.15
57. Because women do not enjoy full constitutional
equality, they suffer disproportionately higher rates
of violence, and offenders of violence against women
are less likely to be held responsible compared to
offenders of other types of violence.
13 Women are less likely than men to be victims of violent crimes
overall, but women are 5 to 8 times more likely than men to be
victimized by an intimate partner. Violence by Intimates: Anal-

ysis of Data on Crimes by Current or Former Spouses, Boyfriends,
and Girlfriends, U.S. Department of Justice, March, 1998;

violence by an intimate partner accounts for about 21% of violent
crime experienced by women and about 2% of the violence
experienced by men. Id. 92% of all domestic violence incidents
are committed by men against women. Violence Against Women,
Bureau of Justice Statistics, U.S. Department of Justice, January, 1994; 84% of raped women know their assailants and 57% of
rapes occur on a date. Koss, M.P. (1988). Hidden Rape: Incidence,

Prevalence and descriptive Characteristics of Sexual Aggression
and Victimization in a National Sample of College Students. In
Burgess, A.W. (ed.) Sexual Assault. Vol. II. New York: Garland
Pub.
14 Nine out of ten rape victims are female, U.S. Department of
Justice, 2003 National Crime Victimization Survey. 2003;
Women aged 16-24 are four times more likely to be raped than
any other population group. Koss, M.P., id.

15 8% of women and 2% of men in the United States have been
stalked at some time in their life. 78% of stalking victims identified in a survey were women, and 22 percent were men. Thus,
four out of five stalking victims are women. By comparison, 94
percent of the stalkers identified by female victims and 60 percent
of the stalkers identified by male victims were male. Overall, 87
percent of the stalkers identified by the victims were male.
National Institute of Justice 1998. Stalking in America: Findings
from the National Violence Against Women Survey).

App.59a
58. The relief sought here is, therefore, necessary
to protect the rights of the Plaintiffs and similarly
situated others.
PLAINTIFF EQUAL MEANS EQUAL
59. Equal Means Equal (EME) is a national 501(c)
(4) non-profit organization whose sole mission and
purpose is to eradicate sex/gender inequality and
advocate for sex/gender equality and fully equal rights
for women and men.
60. In 2016, EME released an award-winning
film entitled Equal Means Equal. This documentary
film, a decade in the making, examined the status of
American women in over two dozen areas where
women experienced sex discrimination, and analyzed
whether ratification of the ERA would mitigate this
overall pattern of discrimination in American society.
61. Along with producing the film, EME has
been instrumental in raising awareness about the
ERA and helping to pass ERA ratification bills in
Nevada, Illinois, and Virginia. EME’s executive director,
Kamala Lopez, testified in front of the Illinois legislature in support of the ERA. EME has engaged in
direct political action and educational campaigns in
many states, related to ratification of the ERA,
including Virginia, Arizona, North Carolina, South Carolina, Missouri, Nevada, Illinois, Utah, Georgia, Louisiana, Florida, and Oklahoma. EME engages with its
member/supporters who donate funds and volunteer
their services, which enable EME to carry out its
mission.
62. Since Virginia became the thirty-eighth state
to ratify the ERA in January 2020, EME has been

App.60a
frustrated in its mission because of the Archivist’s
refusal to recognize Virginia’s ratification, and record
the ERA as the validly enacted twenty-eighth Amendment to the United States Constitution. EME has
been advocating for state and federal officials to begin
the process of examining their laws and regulations,
and to take steps to repair all sex discriminatory
provisions, but officials have declined, citing the
Archivist’s refusal to recognize the ERA as ratified.
This has frustrated EME’s mission because it is
unable to advocate at all for the repair work that
should already be underway, and would already be
underway, if the Archivist had not stated his refusal
to recognize the ERA as a valid amendment to the
United States Constitution.
63. Because the Archivist has refused to recognize
the ERA as ratified, victims of sex discrimination
represented by EME have been unable to assert their
rights under the ERA with regard to insisting that
government officials begin the task of examining and
repairing sex discriminatory provisions. EME has
personally witnessed reluctance on the part of women,
attorneys, and other advocates to demand that such
repair work begin because of the Archivist’s refusal to
record the ERA as a validly enacted amendment to the
United States Constitution. In turn, EME has had to
divert resources to educate and inform its member/
supporters and the general public about why the ERA
is duly ratified despite the Archivist’s opinion to the
contrary, why the Archivist’s view is incorrect as a
matter of law, and why government officials should
already be taking steps to repair sex discriminatory
laws, regulations, and policies. EME has also had to
divert significant time and resources to advocating for

App.61a
government officials to accept that the ERA is a
validly enacted amendment, and that they are legally
obligated to begin the process of identifying and
repairing sex discriminatory laws, regulations and
policies. This diversion of resources has reduced the
amount of resources available to EME that they would
otherwise be using to assist in said repair work in
anticipation of the ERA taking effect in January 2022.
64. EME’s involvement in this litigation is intended to represent EME’s own interersts, as well as the
interests of its members/supporters, and women everywhere who have suffered and are at increased risk of
suffering harm because they are female and do not
enjoy equal protection of law. Because the ERA is a
validly enacted amendment to the United States Constitution, EME and all women have a protectable legal
interest in having all government officials, state and
federal, immediately begin the process of repairing all
sex discriminatory laws, regulations and policies,
before the ERA becomes enforceable in January 2022.
EME as an organization, and all women, also have a
protectable legal interest in ensuring that sex discriminatory laws, regulations and policies are repaired as
quickly as possible because if government officials do
nothing until January 2022 out of deference to the
Archivist’s unlawful refusal to record the ERA as duly
ratified, then women, EME and other advocacy groups
will be forced to expend significant resources filing
lawsuits against government officials to repair such
laws, regulations and policies simply because government officials did nothing to repair them during the
two-year repair period provided in the ERA itself.
65. EME has over twenty-thousand active supporters including members of the entertainment and

App.62a
media community. The organization is well known as a
leader in the modern strategy for ratification of the
ERA and has worked in collaboration with major labor
unions such as the Teamsters, Screen Actors Guild,
American Federation of Radio and Television Artists,
the United Nations (UN Women), the National Women’s
Political Caucus, the YWCA, the AAUW, the ACLU,
the League of Women Voters, Yale Women, the National
Association of Women’s Commissions, Veteran Feminists of America, Women Matter, the National Black
Women’s Caucus, Black Voters Matter, Common Cause,
Indivisible, Women Occupy Hollywood, NOW Hollywood, Hispanics Organized for Political Equality
(HOPE), the Latino Legislative Caucus of the State of
California, among others. Since 2009, the ERA Education Project and EME have actively engaged in
advocacy and educational services, including working
directly with government officials to address discriminatory laws, regulations, and policies related to
women’s equality and the ERA. They have received
many commendations for their work in the service of
advancing women’s equality and ensuring ratification
of the ERA.
PLAINTIFF THE YELLOW ROSES
66. Plaintiff The Yellow Roses is a volunteer student organization, founded in Quincy, Massachusetts in
2016 by a group of middle school girls who were
surprised to learn in school that women were not yet
equal citizens under the U.S. Constitution. The organization’s sole mission is to advocate for and raise
public awareness about ratification of the ERA.

App.63a
67. The Yellow Roses has engaged in numerous
activities, including circulating a Petition for the ratification of the ERA; interviewing and being interviewed
by local and national publications; meeting with state
and federal officials to advocate for the equal treatment
of women and ratification of the ERA; collaborating
with activists such as Gloria Steinem, and making
public appearances to advocate for and teach young
people to be activists in their communities.
68. The Yellow Roses have been subjected to a
needless increased risk of violence because they are
female, and government officials are not currently
undertaking any steps to identify and repair sex discriminatory laws, regulations and policies. They have
a protectable legal interest in ensuring that government officials regard the ERA as a validly enacted
amendment to the United States Constitution, and
begin the process of examining and repairing sex discriminatory laws, regulations and policies, including the
Massachusetts hate crime statute, which currently
excludes females from its protection.
69. The mission of the Yellow Roses is impaired by
the refusal of government officials to begin the process
of examining and repairing sex discriminatory laws,
regulations, and policies because they cannot effectively advocate on behalf of the ERA so long as the
ERA is perceived by government officials as not
validly enacted based on the Archivist’s refusal to
record it.
THE INDIVIDUAL PLAINTIFF
70. Plaintiff Katherine Weitbrecht is a resident
of and a college sophomore in Norfolk County,
Massachusetts.

App.64a
71. Ms. Weitbrecht personally suffered a violent
act because she is female when she was strangled in
Massachusetts by a man who mocked her for wearing
a rape whistle on campus late at night. The man had
a history of making discriminatory and derogatory
comments about females.
72. Ms. Weitbrecht reported the strangulation
incident to law enforcement, but no hate crime charges
could be filed because, as a female, she is not protected
under the Massachusetts hate crime statute, Mass.
G.L.c.265, § 39. Had she suffered the exact same crime
based on a different protected class category, such as
ethnicity or religion, a hate crime charge could have
been filed.
73. Although Ms. Weitbrecht was strangled, the
offender was charged only with a single misdemeanor
count of assault and battery. The offender’s case was
continued without a finding; he suffered no serious
consequences.
74. Because of her experience, Ms. Weitbrecht is
now reluctant to report any sex-based criminal activity
she may endure. As a college student, Ms. Weitbrecht
faces a disproportionately high risk of harm because
she is female. Ms. Weitbrecht fears that reporting
crimes committed against her because she is female
will lead to inadequate charges and unjust treatment
by law enforcement and the legal system.
75. Ms. Weitbrecht’s rights and well-being are
threatened and violated by her lack of full Constitutional equality because she is not equally protected by
the United States Constitution, or Massachusetts law.
76. When the ERA becomes law, Massachusetts
officials will be required to repair the hate crime

App.65a
statute to ensure the equal protection of Ms. Weitbrecht
and all females.
77. Ms. Weitbrecht has been subjected to a needless increased risk of violence because she is female,
and not currently equally protected by law. She has a
protectable legal interest in ensuring that government officials regard the ERA as a validly enacted
amendment to the United States Constitution, and
begin the process of examining and repairing sex discriminatory laws, regulations and policies, including the
Massachusetts hate crime statute, which currently
excludes females from its protection.
COUNT I
(ARTICLE V OF THE U.S. CONSTITUTION)
78. Plaintiffs repeat and reallege each of the
prior allegations in this complaint.
79. Congress cannot limit the amount of time
that States have to ratify a constitutional amendment
because Article V of the United States Constitution
nowhere grants Congress the power to impose deadlines.
Under Article V, an amendment becomes valid when
three-fourths of the states ratify it.
80. When Congress proposed the ERA in 1972, it
imposed a seven-year ratification deadline on the
states by enacting a separate deadline provision. In
1978, Congress enacted another statute, extending
the deadline to 1982. As Congress had no authority to
impose an extra-textual ratification deadline on the
states, the ERA ratification deadline is null and void
and without any legal effect.
81. If Congress has authority to impose ratification
deadlines on the States, it must do so in a constitutional

App.66a
manner. By enacting the ERA deadline as an extratextual provision, separate from the text of the ERA
itself, Congress violated Article V and the ERA deadline
is null and void and without any legal effect.
82. The Archivist has recorded thirty-seven states’
ratifications, including from Nevada in 2017 and
Illinois in 2018, which occurred after the expiration of
the ERA deadline. The Archivist refused to record
Virginia’s ratification in 2020.
83. The Archivist’s recordings of 37 ERA ratifications to date were legal and are consistent with the
clear text of Article V. The Archivist’s refusal to record
Virginia’s ratification, and refusal to record ratification
of the ERA itself, is illegal and not consistent with the
clear text of Article V.
COUNT II
(TENTH AMENDMENT TO THE U.S. CONSTITUTION)
84. Plaintiffs repeat and reallege each of the
prior allegations in this complaint.
85. Congress cannot limit the amount of time
that States have to ratify a constitutional amendment
because the Tenth Amendment to the United States
Constitution provides that all rights not specifically
granted to the federal government are reserved to the
States, and the United States Constitution nowhere
grants to Congress the power to impose extra-textual
statutory deadlines on the States. Under the Tenth
Amendment, and in light of Article V which states
that an amendment becomes valid when three-fourths
of the states ratify, the States have authority to ratify,
or not, unrestrained by the federal government.

App.67a
86. When Congress proposed the ERA in 1972, it
imposed a seven-year ratification deadline on the
states by enacting a separate provision that was not
part of the ERA itself. In 1978, Congress enacted
another law, extending the deadline to 1982. The
extra-textual ERA deadline encroached unconstitutionally on the States’ Article V right to ratify. Thus,
the ERA deadline is null and void and without any
legal effect.
87. If Congress has authority to impose ratification
deadlines on the States, it must do so in a constitutional
manner. By enacting the ERA deadline as an extratextual provision, separate from the text of the ERA
itself, Congress violated Article V and the ERA
deadline is null and void and without any legal effect.
88. The Archivist has recorded thirty-seven states’
ratifications, including from Nevada in 2017 and
Illinois in 2018. The Archivist refused to record
Virginia’s ratification in 2020, and refused to record
the ERA itself as a duly ratified amendment to the
U.S. Constitution.
89. The Archivist’s recordings of 37 ERA ratifications thus far were legal and consistent with the
clear text of Article V and the Tenth Amendment.
COUNT III
(ARTICLE V OF THE U.S. CONSTITUTION)
90. Plaintiffs repeat and reallege each of the prior
allegations in this complaint.
91. A State cannot rescind its ratification of a
constitutional amendment. Any attempt to do so is null
and void.

App.68a
92. Five States—Nebraska, Idaho, Tennessee,
Kentucky, and South Dakota—have voted to rescind
their prior ratifications of the ERA. These efforts have
no legal effect and are null and void.
93. The Archivist correctly refused to record any
rescissions of prior ratifications because That would
not be consistent with the plain language of Article V,
or Supreme Court precedent.
94. The Archivist’s actions to date are constitutional and consistent with the clear text of Article V.
COUNT IV
(ALL WRITS ACT)
95. Plaintiffs repeat and reallege each of the
prior allegations in this complaint.
96. The Archivist is mandated to perform the
ministerial task of recording state ratifications of, and
ratified amendments to, the U.S. Constitution.
97. The Archivist is mandated to record Virginia’s
ratification of the ERA.
98. The Archivist currently faces legal action in
federal court in Alabama to prevent him from recording
Virginia’s ratification, require him to remove prior
ratifications by other states, and prevent him from
recording the ERA as a duly ratified amendment to
the U.S. Constitution.
99. Plaintiffs have no plain, speedy, and adequate
remedy at law, other than the remedies requested by
this action.
100. Failure to record the ERA as a duly ratified
amendment threatens to cause harm, and will continue
to cause harm to Plaintiffs’ rights, and the rights of

App.69a
similarly situated others, and is unlawful, unreasonable
and exceptional.
WHEREFORE, Plaintiffs respectfully request that
this Court enter judgment in favor of Plaintiffs and
against Defendant and provide the following relief:
i.

A declaratory judgment that the ERA is the
duly ratified twenty-eighth Amendment to
the U.S. Constitution;

ii.

A declaratory judgment that the extra-textual
ERA ratification deadline is a constitutional
nullity;

iii. A declaratory judgment that Nebraska, Idaho,
Tennessee, Kentucky, and South Dakota did
not and may not validly rescind their prior
ratifications of the ERA because such rescissions are not permitted under the Constitution;
iv. A writ requiring the Archivist to record all
states’ decisions to ratify the ERA, irrespective
of the deadline;
v.

A writ prohibiting the Archivist from removing
previously recorded ratifications of the ERA;

vi. A writ requiring the Archivist to record
Virginia’s ratification of the ERA;
vii. A permanent injunction precluding the
Archivist from removing previously recorded
ratifications, or from recording rescissions
from Nebraska, Idaho, Tennessee, Kentucky,
and South Dakota;
viii. A preliminary injunction granting the above
relief during the pendency of this action;

App.70a
ix. Plaintiffs’ reasonable costs and expenses of
this action, including attorneys’ fees; and
x.

All other relief to which Plaintiffs might be
entitled.
Respectfully submitted,
/s/ Wendy J. Murphy
New England Law|Boston
154 Stuart Street
Boston, MA 02116
(617) 422-7410
wmurphy@nesl.edu

Dated: February 29, 2020

App.71a
PARTIALLY OPPOSED MOTION TO INTERVENE
AND SUPPORTING STATEMENT
OF POINTS AND AUTHORITIES
(FEBRUARY 19, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
________________________
VIRGINIA, ILLINOIS, and NEVADA,

Plaintiffs,
v.
DAVID S. FERRIERO, in his official capacity as
Archivist of the United States,

Defendant.
ALABAMA, LOUISIANA, NEBRASKA, SOUTH
DAKOTA, and TENNESSEE,

[Proposed] Intervenor-Defendants.
________________________
Case No. 1:20-cv-242-RC
Plaintiffs, three States who claim they ratified the
Equal Rights Amendment decades after the deadline
 Per LCvR 7(m), counsel for Movants, Plaintiffs, and the Archivist
discussed this motion in good faith to determine everyone’s
position. Plaintiffs oppose intervention. The Archivist takes no
position on intervention as of right and consents to permissive
intervention.

App.72a
expired, brought this suit to force the Archivist to add
the ERA to the Constitution. Movants, two States who
rejected the ERA and three States who timely
rescinded their ratifications, seek to intervene in this
suit for equal and opposite reasons. If Plaintiffs prevail
and the ERA is added to the Constitution, then
Movants will be forced to spend substantial resources
defending their duly enacted laws from this new line
of constitutional attack. Many of those laws, from
prohibitions on the public funding of abortion to support for women-only prisons and shelters, risk invalidation. For the Movants who rescinded their ratifications, moreover, Plaintiffs’ suit would force the Archivist
to wrongly count them among the ratifying States and
to illegally convert their rescinded ratification papers
into live legal documents. Because Movants have
weighty interests at stake and satisfy all the requirements for intervention, this Court should let them
intervene as defendants.
BACKGROUND
I.

The Rejection of the Original ERA

In 1972, Congress enacted a joint resolution
proposing the ERA as the next amendment to the Constitution. H.J. Res. 208. The operative provision of the
ERA would have stated that le] quality of rights under
the law shall not be denied or abridged by the United
States or by any State on account of sex.” Id. Like the
proposing resolutions for the Twenty-Third, TwentyFourth, Twenty-Fifth, and Twenty-Sixth Amendments,
the proposing resolution for the ERA gave the States
a deadline of “seven years” to ratify the amendment.

Id.

App.73a
When the seven-year deadline arrived in 1979,
only 30 States had ratified the ERA: Alaska, California,
Colorado, Connecticut, Delaware, Hawaii, Indiana,
Iowa, Kansas, Maine, Maryland, Massachusetts,
Michigan, Minnesota, Montana, New Hampshire, New
Jersey, New Mexico, New York, North Dakota, Ohio,
Oregon, Pennsylvania, Rhode Island, Texas, Vermont,
Washington, West Virginia, Wisconsin, and Wyoming.
Five States had ratified the ERA but rescinded their
ratifications: Idaho, Kentucky, Nebraska, South Dakota,
and Tennessee. See, e.g., 126 Cong. Rec. 4,861-62
(Mar. 13, 1979) (reporting South Dakota’s resolution
“withdraw[ing] its ratification” of the ERA and
rendering its earlier ratification “null and void” if the
ERA was not ratified by the original 1979 deadline).
And 15 States had rejected the ERA: Alabama, Arizona, Arkansas, Florida, Georgia, Illinois, Louisiana,
Mississippi, Missouri, Nevada, North Carolina, Oklahoma, South Carolina, Utah, and Virginia. The ERA
fell short of the 38 States (three-fourths of 50) needed
for ratification. See U.S. Const., Art. V.
Congress thus passed a measure purporting to
“extend” the ratification deadline four more years.
H.J. Res. 638 (1978). Unlike the original ERA and its
seven-year deadline—which were enacted by a twothirds vote of Congress, as required by Article V of the
Constitution—the extension bill was passed by bare
majorities. The only court to consider its legality held
that the extension was unconstitutional. See Idaho v.
Freeman, 529 F. Supp. 1107 (D. Idaho 1981).
The Supreme Court agreed to review that decision
but, before it could, the extended deadline expired in
1982. No additional States had ratified the ERA

App.74a
between the original deadline and the extended deadline. So the Supreme Court dismissed the case as
moot. See Nat’l Org. for Women, Inc. v. Idaho, 459
U.S. 809, 809 (1982). Congress, the Executive Branch,
the States, and the American public all understood
that the ERA was dead. See, e.g., Supreme Court
Declares ERA Issues Legally Dead, Post-Dispatch (Oct.
4, 1982). As Justice Ginsburg put it, the ERA cannot be
ratified unless it’s “put back in the political hopper”
and its proponents “start[] over again, collecting the
necessary number of States.” Justice Ginsburg to
Address New Georgetown Law Students, Georgetown
Law (Sept. 12, 2019), bit.ly/3bbokcd (remarks begin at
1:03:35).
II.

The Three-State Strategy

In recent years, activists have devised a plan to
revive the expired ERA. Dubbed the “three state
strategy,” these activists argue that the ERA can
become law if only three more States ratify it. Three
more States, the logic goes, would bring the total number of ratifiers to 38 (ignoring the rescissions in Idaho,
Kentucky, Nebraska, South Dakota, and Tennessee)—supposedly crossing the three-fourths threshold
specified in Article V. Plaintiffs are all adherents to
this plan: Nevada purported to ratify the ERA in 2017,
Illinois followed suit in 2018, and Virginia became the
third and final State in January 2020.
Plaintiffs’ three-state strategy relies on at least
three legal assumptions. All are demonstrably false.
First, Plaintiffs assume that the seven-year deadline Congress included in the ERA is unenforceable.
See Compl. (Doc. 1) 13-14. But the Constitution gives
Congress authority over the “mode of ratification,”

App.75a
U.S. Const., Art. V, including the “period for ratification.” Dillon v. Gloss, 256 U.S. 368, 376 (1921). When
“the congressional resolution proposing” the Eighteenth Amendment declared that the amendment
“should be inoperative unless ratified within seven
years,” the Supreme Court upheld this deadline,
“entertain[ing] no doubt” about “the power of Congress, keeping within reasonable limits, to fix a
definite period for the ratification.” Id. at 370, 375-76.
While Plaintiffs note that the ERA’s deadline was not
included in the text of the proposed amendment itself,
that was also true of the deadlines imposed on the
Twenty-Third, Twenty-Fourth, Twenty-Fifth, and
Twenty-Sixth Amendments. Under Plaintiffs’ logic,
the Congresses that proposed those amendments all
violated the Constitution (and no one said anything
about it).
Second, even if Congress had not imposed a deadline in the ERA, Plaintiffs assume that the Constitution itself does not limit the time available for ratification. See Compl. 14-15. It does. The Supreme Court has
drawn the “fair . . . implication from article V” that “the
ratification” of a constitutional amendment “must be
within some reasonable time after the proposal.”
Dillon, 256 U.S. at 375. Article V treats “proposal and
ratification” not “as unrelated acts, but as succeeding
steps in a single endeavor, the natural inference being
that they are not to be widely separated in time.” Id. at
374-75. Only “sufficiently contemporaneous” ratification ensures that the grave seriousness of amending
the Constitution “reflect[s] the will of the people in all
sections at relatively the same period, which of course
ratification scattered through a long series of years
would not do.” Id. at 375. While Plaintiffs note that

App.76a
the Twenty-Seventh Amendment was ratified in 1992
(200 years after it was proposed), the legitimacy of
that ratification is hotly contested, and an isolated
episode from the 1990s says little about the original
meaning of Article V. See Printz v. United States, 521
U.S. 898, 918 (1997).
Third, Plaintiffs assume that Idaho, Kentucky,
Nebraska, South Dakota, and Tennessee did not
validly rescind their ratifications; if they did, then
Plaintiffs are still 5 States short of the 38 States they
need for ratification. See Compl. 15-16. Yet the Constitution gives States the power to determine “when”
they have “ratified” an amendment. U.S. Const., Art. V;
accord Freeman, 529 F. Supp. at 1134; Dyer v. Blair,
390 F. Supp. 1291, 1307 (N.D. Ill. 1975) (Stevens, J.).
If States cannot rescind their ratifications before the
ratification period has expired, constitutional amendments could “be ratified by a technicality . . . and not
because there is really a considered consensus supporting [them].” Freeman, 529 F. Supp. at 1149. As Justice
Ginsburg recently explained, “a number of States
have withdrawn their ratification [of the ERA],” so “if
you count a latecomer [like Virginia] on the plus side,
how can you disregard States that said, We’ve changed
our mind’?” Searching for Equality: The 19th Amendment and Beyond, Georgetown Law (Feb. 10, 2020),
bit.ly/2tUgeUw (remarks begin at 43:55).
III. Litigation Over the Three-State Strategy
Correctly anticipating that Virginia would soon
complete the three-state strategy, three of the Movants
(Alabama, Louisiana, and South Dakota) sued the
Archivist last December. See Alabama v. Ferriero, No.
7:19-cv-02032-LSC (N.D. Ala.). Their complaint sought,

App.77a
among other relief, a declaration that the ERA has expired, a declaration that the rescinding States have
not ratified the ERA, and an injunction requiring the
Archivist to return South Dakota’s ratification documents.
Three weeks after Movants sued, the Justice
Department’s Office of Legal Counsel issued a formal
opinion on the three-state strategy. See Ratification of
the Equal Rights Amendment, O.L.C. Op.___ (Jan. 6,
2020), bit.ly/2UqCYWZ. OLC’s opinion agrees with
one, but not all, of the legal claims that Movants
raised in their complaint. OLC agrees that the original
ERA proposed in 1972 can never be ratified because
the seven-year deadline has expired. See id. at 12-36.
Yet OLC did not opine on whether the ERA has expired because, apart from the deadline imposed by
Congress, the Constitution imposes its own deadline
on ratification. See id. at 18 n.17. OLC’s existing opinions reach the opposite conclusion. See id. (citing Congressional Pay Amendment, 16 Op. O.L.C. 85, 92-93
(1992)). OLC also did not opine on whether the rescissions by Idaho, Kentucky, Nebraska, South Dakota,
and Tennessee are valid and enforceable. See id. at 3637. Again, OLC’s existing opinions reach the opposite
conclusion. See id. at 37 (citing Memo. for Robert J.
Lipshutz, Counsel to the President, from John M.
Harmon, Asst. Att’y Gen., OLC, Re: Constitutionality

of Extending the Time Period for Ratification of the
Proposed Equal Rights Amendment 28-49 (Oct. 31,
1977); Power of a State Legislature to Rescind its
Ratification of a Constitutional Amendment, 1 Op.
O.L.C. 13, 15 (1977)).
Despite these continued disagreements, the
Archivist now agrees with Movants that the original

App.78a
ERA can never be ratified. Compl. 13; see Press Statement on the Equal Rights Amendment, NARA (Jan.
8, 2020), bit.ly/39ejGIi (“[The Archivist] defers to DOJ
on this issue and will abide by the OLC opinion, unless
otherwise directed by a final court order.”). Thus,
although Movants do not concede that their lawsuit
against the Archivist is moot, it is now clear that the
parties in that case are not adversarial on one
important legal question surrounding the viability of
the ERA. Movants expect their case against the
Archivist to reach a mutually agreeable resolution
soon.
Meanwhile, the parties in this case are adversarial
on the legal questions surrounding the ERA. If Plaintiffs obtain their requested relief, this Court’s judgment will cause Movants the exact same injuries that
prompted them to sue the Archivist in the first place.
And because the Justice Department’s existing opinions reject two of Movants’ defenses—i.e., their claim
that the Constitution itself imposes time limits on
ratification and their claim that States can rescind
prior ratifications—Movants have no reason to believe
the Justice Department will advance these defenses
or otherwise protect Movants’ interests. Movants thus
filed this motion to intervene.
ARGUMENT
I.

Movants are Entitled to Intervene as of Right

This Court “must grant a timely motion to intervene that seeks to protect an interest that might be
impaired by the action and that is not adequately
represented by the parties.” Roane v. Leonhart, 741

App.79a
F.3d 147, 151 (D.C. Cir. 2014). Specifically, under Rule
24(a)(2), this Court grants intervention as of right if:
1.

The motion is timely;

2.

Movants have “a legally protected interest”
in this action;

3.

This action “threaten[s] to impair that
interest”; and

4.

No existing party is “an adequate representative of [Movants’] interests.”

Karsner v. Lothian, 532 F.3d 876, 885 (D.C. Cir. 2008).
Any movant “who satisfies Rule 24(a) will also meet
Article III’s standing requirement.” Roeder v. Islamic
Republic of Iran, 333 F.3d 228, 233 (D.C. Cir. 2003).
“[T]he D.C. Circuit has taken a liberal approach
to intervention.” Wilderness S oc. v. Babbitt, 104 F.
Supp. 2d 10, 18 (D.D.C. 2000); see Nuesse v. Camp,
385 F.2d 694, 702 (D.C. Cir. 1967) (emphasizing “the
need for a liberal application [of Rule 24(a)] in favor of
permitting intervention”). Under any standard, liberal
or otherwise, Movants satisfy each requirement of Rule
24(a).
A. This Motion Is Timely
Movants filed a “timely motion” to intervene. Fed.
R. Civ. P. 24(a). Movants filed this motion as quickly
as they could—three weeks after the complaint was
filed, before the Archivist even entered an appearance,
and months before the Archivist’s answer is due. E.g.,
Fund for Animals, Inc. v. Norton, 322 F.3d 728, 735
(D.C. Cir. 2003) (motion timely filed “less than two
months after the plaintiffs filed their complaint and
before the defendants filed an answer”); Connecticut v.

App.80a

DOI, 344 F. Supp. 3d 279, 304 (D.D.C. 2018) (Contreras,
J.) (motion timely filed “within a month of when
Plaintiffs filed the complaint, and before Federal
Defendants entered an appearance”); WildEarth Guardians v. Jewell, 320 F.R.D. 1, 3 (D.D.C. 2017) (Contreras,
J.) (motion timely filed “approximately sixteen weeks
after the initial complaint was filed”). Regardless how
many days it’s been, courts “‘do not require timeliness
for its own sake’” but only to prevent harm to the court
or the parties. 100Reporters LLC v. DOJ, 307 F.R.D.
269, 274-75 (D.D.C. 2014) (Contreras, J.). Since “no
substantive progress has occurred in this action,”
Movants’ intervention could not “unduly disrupt the
litigation or pose an unfair detriment to the existing
parties.” Id. at 275. This motion is timely.
B. Movants Have a Protected Interest in This
Action
Movants also have a “legally protected interest in
[this] action.” Karsner, 532 F.3d at 885 (citing Fed. R.
Civ. P. 24(a)(2)). This “interest” test is a “liberal” one.
Indep. Petrochemical Corp. v. Aetna Cas. & Sur. Co.,
105 F.R.D. 106, 109-10 (D.D.C. 1985). It is “primarily a
practical guide to disposing of lawsuits by involving as
many apparently concerned persons as is compatible
with efficiency and due process.” Nuesse, 385 F.2d at
700. The test is satisfied here.
Movants’ interests in this action are, at a minimum, equal to Plaintiffs’. If Plaintiffs have standing
to ensure their “yes” votes are counted and the ERA is
added to the Constitution, then Movants have standing
to ensure their “no” votes are counted and the ERA is
not added to the Constitution. Every “State has an
interest in securing observance of the terms under

App.81a
which it participates in the federal system.” Alfred L.
Snapp & Son, Inc. v. P.R. ex rel. Barez, 458 U.S. 592,
607-08 (1982). Key among those terms are the “orderly”
rules that Article V establishes for amending the Constitution. Hawke v. Smith, 253 U.S. 221, 226 (1920);
accord Freeman, 529 F. Supp. at 1128 (“Within article
V each of the participants are assigned certain powers
which appear to be carefully balanced and approximately equally distributed.”). “It is not the function
of” Plaintiffs, the Archivist, or anyone else “to alter the
method which [Article V of] the Constitution has
fixed.” Hawke, 253 U.S. at 227. Yet this suit asks the
Court to do just that—i.e., to allow Plaintiffs to alter
our fundamental charter without securing the timely,
supermajority consent that Article V requires. If
Plaintiffs’ suit is successful, Movants will suffer “a
continuing injury.” Freeman, 529 F. Supp. at 1123.
The Movants who rescinded their ratifications of
the ERA (Nebraska, South Dakota, and Tennessee)
have an additional interest at stake. The Archivist
still has possession of their ratification documents;
those documents were never returned after Movants’
rescinded their initial ratifications. According to the
Archivist, he maintains these documents solely for
historical purposes. He claims that his official records
do not list Idaho, Kentucky, Nebraska, South Dakota,
or Tennessee as having validly ratified the ERA. See,

e.g., Equal Rights Amendment – Proposed March 22,
1972, List of State Ratification Actions, Nat’l Archives,
available at, bit.ly/31BdR5d (noting these States’
“Purported Rescission[s]”). But if Plaintiffs prevail in
this case, then the Archivist will be ordered to convert
Movants’ archival ratifications into live legal documents, to wrongfully treat those documents as votes

App.82a
for ratification, and to falsely list Movants as having
ratified the ERA. These injuries, which resemble
common-law property and tort claims, independently
support Movants’ intervention. See Freeman, 529 F.
Supp. at 1114 (granting intervention to state
defendants who sought “a return of Washington’s
certificate of ratification”); id. at 1123 (finding a
“conflict of the type proper for the courts to resolve”
because “the defendant has refused to remove Idaho’s
name from the official lists of those who are considered
as having ratified”).
All Movants have still more interests at stake in
this action—interests that are even stronger than
Plaintiffs’. If the ERA stays out of the Constitution,
Plaintiffs could always voluntarily comply with what
they believe it dictates. But if the ERA is added to the
Constitution, Movants cannot avoid the risk that their
duly enacted laws will be challenged as unconstitutional. See Maine v. Taylor, 477 U.S. 131, 137 (1986)
(“[States] clearly ha[ve] a legitimate interest in the continued enforceability of [their] own statutes.”); Alaska v.
DOT, 868 F.2d 441, 443 (D.C. Cir. 1989) (“States have
an interest, as sovereigns, in exercising ‘the power to
create and enforce a legal code.’”). For example:
•

Movants have laws that prohibit the expenditure of public funds on abortion. E.g., Ala. Admin.
Code r. 560-X-6-.09; Ala. Medicaid-Provider
Billing Manual §§ 5.8, 28.6.7 (Oct. 2019); La.
Stat. Ann. §§ 22:1014, 40:1061.6; Neb. Rev.
Stat. § 44-1615.01; 471 Neb. Admin. Code § 10005.09; S.D. Codified Laws §§ 28-6-4.5, 58-17147; Tenn. Code Ann. § 9-4-5116. Litigants will
argue that these laws violate the ERA, as they
successfully argued under several state ERAs.

App.83a

E.g., NM Right to Choose/ NARAL v. Johnson,
975 P.2d 841 (N.M. 1998); Doe v. Maher, 515
A.2d 134 (Conn. Super. Ct. 1986); Moe v. Sec’y
of Admin. & Fin., 417 N.E.2d 387 (Mass. 1981).
•

Movants maintain regulations that protect
women’s health, e.g., Ala. Admin. Code r. 4205-1-.01; La. Stat. Ann. §§ 40:2175.3-.4; S.D.
Codified Laws 34-23A-5, and that impose other
reasonable regulations of abortion, e.g., Ala.
Code § 26-23A-4; La. Stat. Ann. §§ 40:1061.910, 16-17; La. Admin. Code tit. 48, § 4405; Neb.
Rev. Stat. §§ 28-3,106, 28-327; S.D. Codified
Laws §§ 34-23A-3-5; Tenn. Code Ann. § 39-15202. Litigants will argue that the ERA is
“properly interpreted” to “negate” these
“hundreds of laws” because abortion restrictions are a form of “sex discrimination,” Nat’l
Org. for Women, Is the Equal Rights Amendment Relevant in the 21st Century?, bit.ly/
2UvXN3p—an argument they successfully
made under New Mexico’s ERA, see NM. Right
to Choose/ NARAL, 975 P.2d 841.

•

Movants fund and operate programs, such as
school athletics, that are reserved exclusively
for women. Activists will argue that these
programs violate the ERA, which they claim
requires stricter scrutiny than the “intermediate scrutiny” currently given to sex-based
laws. See Compl. 4; e.g., Att’y Gen. v. Mass.
Interscholastic Athletic Ass’n, Inc., 393 N.E.2d
284, 296 (Mass. 1979) (holding that a state rule
barring “boys from playing on girls’ interscholastic teams” violates the Massachusetts
ERA).

App.84a
Movants do not concede that any of their laws
would violate the ERA. But if a litigant convinces at
least one judge to enjoin Movants’ laws under a
federal ERA—as many judges have done under state
ERAs—Movants and their citizens will suffer serious
injuries. Even if Movants can quickly stay any such
decisions and ultimately defend all their laws, the
ERA will force them to spend massive time and money
doing so. See United States v. Windsor, 570 U.S. 744,
761 (2013). And as soon as the ERA is added to the
Constitution, it will cast a pall of uncertainty over
hundreds of Movants’ laws and “impos[e] substantial
pressure on them to change their laws.” Texas v. United
States, 809 F.3d 134, 153 (5th Cir. 2015). Movants
thus have many weighty interests at stake in this case.
C. This Action Threatens to Impair Movants’
Interests
Movants are “so situated that disposing of [this]
action may as a practical matter impair or impede
[their] ability to protect [their] interest.” Fed. R. Civ.
P. 24(a)(2). This language in Rule 24 is “obviously
designed to liberalize the right to intervene in federal
actions.” Nuesse, 385 F.2d at 701. When applying it,
“courts in this circuit look to the practical consequences
that the applicant may suffer if intervention is denied.”
100Reporters, 307 F.R.D. at 278. The practical consequences for Movants are immense.
If Plaintiffs’ action succeeds, then the ERA will
be added to the Constitution. See Compl. 17. That
addition will irreparably harm Movants in all the
ways mentioned above: They will be forced to spend
substantial resources defending their laws from constitutional attack, many of their laws risk invalidation,

App.85a
and the rescinding States’ ratification documents will
be unlawfully given effect and their rescissions
ignored. Movants cannot sit back and wait until after
the ERA is added to the Constitution and litigants
begin using it to challenge their laws. Movants will be
barred from challenging the validity of the ratification
process at that time, litigants will claim, because the
Archivist’s “certification of the adoption of the [ERA
will be] conclusive.” United States v. Stahl, 792 F.2d
1438, 1439-40 (9th Cir. 1986). While Movants would
resist that argument, litigating in such a defensive
posture would certainly present “a sterner challenge
than [Movants] would face as intervenors here.”
Smuck v. Hobson, 408 F.2d 175, 181 (D.C. Cir. 1969).
Nothing more is required for intervention.
But no matter what happens in future cases interpreting the ERA, Movants “do not need to establish that
their interests will be impaired,” “only that the disposition of the action ‘may’ impair or impede their
ability to protect their interests.” Brumfield v. Dodd,
749 F.3d 339, 344-45 (5th Cir. 2014). It would be “a
questionable rule that would require prospective
intervenors to wait on the sidelines. . . . The very purpose of intervention is to allow interested parties to
air their views so that a court may consider them
before making potentially adverse decisions.” Id.
It is also no answer to say that Movants could
“fil[e] a separate suit” of their own against the
Archivist. Kaufman v. Societe Internationale Pour
Participations Industrielles Et Commerciales, S.A., 343
U.S. 156, 161 (1952). “[T]he opportunity to raise the
same issue in another forum” in “the hope of sparking
a conflict between circuits, and possibly even Supreme
Court resolution,” is “no bar to intervention of right”;

App.86a
such a rule would encourage the very “fragmented
approach to adjudication that [Rule 24] seek[s] to
avoid.” Nuesse, 385 F.2d at 702; accord Kaufman, 343
U.S. at 161 (approving intervention to avoid “a multiplicity of separate actions”); NRDC v. Costle, 561 F.2d
904, 911 (D.C. Cir. 1977) (approving intervention
because the movants’ “involvement may lessen the
need for future litigation to protect their interests”).
Nor is there any guarantee that, in a separate dispute between Movants and the Archivist, the court
would even reach the critical constitutional issues at
stake here, given the parties’ lack of adversity on the
viability of the ERA. See Greenlaw v. United States,
554 U.S. 237, 243-44 (2008) (“In our adversary
system, . . . we follow the principle of party presentation. That is, we rely on the parties to frame the issues
for decision and . . . we normally decide only questions
presented by the parties.”). Even if the parties
someday become adversarial again, Movants are still
entitled to intervene here because the “persuasive
weight” of an adverse decision from this Court “would
make it more difficult for [Movants] to succeed on
similar claims . . . in a separate lawsuit of [their]
own.’” Crossroads Grassroots Policy Strategies v.
FEC, 788 F.3d 312, 320 (D.C. Cir. 2015); accord U.S.
House of Representatives v. Price, 2017 WL 3271445,
at *1 (D.C. Cir. Aug. 1, 2017); Roane, 741 F.3d at 151.
The “best” course then—and the one that Rule 24
“implements”—is to give “all parties with a real stake
in a controversy . . . an opportunity to be heard” in
this suit. Hodgson v. United Mine Workers of Am., 473
F.2d 118, 130 (D.C. Cir. 1972).

App.87a
D. The Existing Parties Do Not Adequately
Represent Movants’ Interests
Finally, no existing party is “an adequate representative of [Movants’] interests.” Karsner, 532 F.3d
at 885 (citing Fed. R. Civ. P. 24(a)(2)). This inadequaterepresentation requirement is “not onerous” and “should
be treated as minimal.” Dimond v. Dist. of Columbia,
792 F.2d 179, 192 (D.C. Cir. 1986); 100Reporters, 307
F.R.D. at 279. It is satisfied when “the applicant shows
that representation of his interest ‘may be’ inadequate”;
“[t]he applicant need . . . not [show] that representation will in fact be inadequate.” 100Reporters, 307
F.R.D. at 279; Dimond, 792 F.2d at 192; see Am. Tel.,
642 F.2d at 1293 (“[Intervention is] ordinarily . . .
allowed . . . unless it is clear that the party will provide
adequate representation for the absentee.”). Representation is inadequate when the existing parties have
“a ‘different’ interest” from the movant, even if they
have “‘a shared general agreement,’” ‘“tactical similarity
[in their] legal contentions,’” or “general alignment” on
the correct outcome. Fund for Animals, 322 F.3d at
737; Crossroads, 788 F.3d at 321.
Plaintiffs clearly do not represent Movants’ interests, and the Archivist does not adequately represent
them either. Most obviously, the Archivist will not
raise two of Movants’ defenses—that the ERA has expired by force of the Constitution, and that five States
(including three Movants) have validly rescinded their
ERA ratifications. The Archivist “defers to DOJ” in this
case, Press Release, supra, and the Justice
Department’s existing opinions expressly reject these
two defenses. Thus, Movants will make “real and
legitimate additional or contrary arguments” to the
Archivist, which “is sufficient to demonstrate that the

App.88a
representation may be inadequate.” Brumfield, 749 F.3d
at 346. At the very least, Movants will “serve as a
vigorous and helpful supplement” to the Archivist,
will “make a more vigorous presentation” than the
Archivist, and “can reasonably be expected to contribute to the informed resolutions of these questions.”
Costle, 561 F.2d at 912-13; accord 100Reporters, 307
F.R.D. at 286 (“Though the Court agrees that the DOJ
can represent capably many of the interests asserted
by the [movant], the Court also has found that . . . the
strength of the DOJ’s position will be enhanced by the
assistance of the [Movant]”).
More broadly, the D.C. Circuit “look[s] skeptically
on [federal] government entities serving as adequate
advocates for private parties,” Crossroads, 788 F.3d at
321—much less for separate sovereigns like Movants.
Fund for Animals, 322 F.3d at 736. As a federal
official, the Archivist has no interest in the validity of
Movants’ laws or what happens to their ratification
documents. Id. at 736-37; see also Nuesse, 385 F.2d at
703 (explaining that the federal government does not
adequately represent States because, unlike them, it
usually tries to maximize federal power). In fact, the
Archivist has no formal position on the wisdom of the
ERA, disclaims any independent power to decide legal
questions about its ratification, and describes his role
in the ratification process as merely “ministerial.”
Press Release, supra. Because his only interest is
following the procedures imposed on him by federal
law, the Archivist “merely seeks to defend the present
suit and would accept a procedural victory.” Wal-Mart
Stores, Inc. v. Texas Alcoholic Beverage Comm’n, 834
F.3d 562, 569 (5th Cir. 2016). Movants, by contrast,
want a definitive ruling that rejects the three-state

App.89a
strategy on the merits and binds future Archivists.
See, e.g., Crossroads, 788 F.3d at 321 (finding the
federal government an inadequate representative of
the movant’s interests because the government
planned to raise a procedural standing argument).
Finally, the “burden is on those opposing intervention to show the adequacy of the existing representation.” Smuck, 408 F.2d at 181 (cleaned up).
Because the government “has taken no position on the
motion to intervene” as of right, its “‘silence on any
intent to defend [Movants] special interests is deafening.’” Utah Ass’n of Cos. v. Clinton , 255 F.3d 1246,
1256 (10th Cir. 2001); accord U.S. House, 2017 WL
3271445, at *2. Further, the positions and personnel
of the Executive Branch can change over the course of
a single case, so it is “not realistic to assume” that the
Archivist will forever defend Movants’ position in this
litigation. Utah Ass’n, 255 F.3d at 1256. Movants
“should not need to rely on a doubtful friend to
represent [their] interests, when [they] can represent
[themselves]” as intervenor-defendants. Crossroads,
788 F.3d at 321.
II.

Alternatively, Movants are Entitled to Permissive
Intervention

Even if Movants were not entitled to intervention
as of right under Rule 24(a), this Court should grant
them permissive intervention under Rule 24(b). Exercising broad judicial discretion, courts grant permissive intervention when the movant makes a
“timely motion” and has “a claim or defense that
shares with the main action a common question of law
or fact.” Fed. R. Civ. P. 24(b). Courts also consider

App.90a
“whether the intervention will unduly delay or prejudice the adjudication of the original parties’ rights.”
Id. “While permissive intervention may be denied in
order to avoid the likelihood of undue delay,” it should
not be denied based on the natural burdens that
always come with adding parties—the likely delay
must be “undue.” Nuesse, 385 F.2d at 704 & n.13.
Courts in this Circuit are particularly “hospitable” to
“governmental application[s]” for permissive intervention, like this one. Id. at 705.
The requirements of Rule 24(b) are all met here.
As explained, Movants filed a timely motion. And
Movants will raise defenses that share many common
questions with the parties’ claims and defenses—
including whether Congress can impose deadlines on
constitutional amendments, see Compl. 13-14; whether
the Constitution imposes deadlines on constitutional
amendments, see Compl. 14-15; and whether States
can rescind their ratifications of constitutional amendments, see Compl. 15-16. These “similarities between
the issues presented by [the proposed intervenordefendant] and those raised by the DOJ” and Plaintiffs
warrant permissive intervention. 100Reporters, 307
F.R.D. at 286.
Movants’ intervention will not unduly delay this
litigation. Movants swiftly moved to intervene while
the case was “at . . . a nascent stage,” id., and their
participation will add no delay beyond the norm for
multiparty litigation. This is particularly true because
Movants will voice their collective views in one consolidated brief (and one consolidated oral argument),
and they will focus their briefs and arguments on their
own unique defenses, rather than duplicating defenses
and arguments that the Archivist raises himself.

App.91a
Although Movants will make two “additional and different legal arguments,” Plaintiffs will not be prejudiced because they “will have a full opportunity, in
their . . . brief[s], to counter any such legal arguments.”
United States v. Philip Morris USA Inc., 2005 WL
1830815, at *5 (D.D.C. July 22, 2005). And this case
will likely be resolved at the motion-to-dismiss stage
anyway, requiring only one round of briefing. Nor
would any prejudice be undue “[i]n a case of this
magnitude,” which implicates the very contents of our
founding document. Id. at *6.
“The proper approach” to permissive intervention,
this Court has explained, “is to allow all interested
parties to present their arguments in a single case at
the same time.” 100Reporters, 307 F.R.D. at 286.
Movants are interested parties, they have important
interests to represent, their unique arguments are
essential to the accurate resolution of this case, and
this Court will benefit from their involvement. Movants
should be granted leave to intervene.
CONCLUSION
The Court should grant this motion and allow
Movants to intervene as defendants.
Respectfully submitted,
Steve Marshall
Attorney General of Alabama
/s/ Edmund G. LaCour Jr.
Edmund G. LaCour Jr.
Solicitor General
James W. Davis

App.92a
Deputy Attorney General
A. Barrett Bowdre
Deputy Solicitor General
Kelsey J. Curtis
Assistant Solicitor General
Office of the Alabama Attorney
General
501 Washington Ave.
P.O. Box 300152
Montgomery, AL 36130
(334) 353-2196
edmund.lacour@AlabamaAG.gov
jim.davis@AlabamaAG.gov
barrett.bowdre@AlabamaAG.gov
kelsey.curtis@AlabamaAG.gov
Jeff Landry
Attorney General of Louisiana
/s/ Elizabeth B. Murrill
Elizabeth B. Murrill
Solicitor General of Louisiana
Louisiana Department of Justice
1885 N. 3rd St.
Baton Rouge, LA 70802
(225) 326-6766
MurrillE@ag.louisiana.gov
Douglas J. Peterson
Attorney General of Nebraska
/s/ James A. Campbell
James A. Campbell
Solicitor General
Office of the Attorney General
of Nebraska

App.93a
2115 State Capitol
Lincoln, NE 68509
(402) 471-2682
jim.campbell@nebraska.gov
/s/ Cameron T. Norris
Patrick Strawbridge
Consovoy Mccarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(703) 243-9423
patrick@consovoymccarthy.com
Cameron T. Norris
Alexa R. Baltes
Tiffany H. Bates
Consovoy Mccarthy PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
cam@consovoymccarthy.com
lexi@consovoymccarthy.com
tiffany@consovoymccarthy.com
Jason Ravnsborg
Attorney General of South Dakota
/s/ Paul S. Swedlund
Paul S. Swedlund
Assistant Attorney General
Office of the Attorney General
State of South Dakota
1302 East Highway 14, Suite 1
Pierre, South Dakota 57501-8501
605-773-3215
paul.swedlund@state.sd.us

App.94a
Herbert H. Slatery III
Attorney General and Reporter of
Tennessee
/s/ Andrée S. Blumstein
Andrée S. Blumstein
Solicitor General
Office of the Tennessee Attorney
General
P.O. Box 20207
Nashville, TN 37202
(615) 741-3492
andree.blumstein@ag.tn.gov
Dated: February 19, 2020

App.95a

NARA PRESS STATEMENT ON THE
EQUAL RIGHTS AMENDMENT
(JANUARY 8, 2020)
Washington, DC
At the request of the National Archives and
Records Administration (NARA), the Department of
Justice (DOJ) has issued an opinion on the Ratification
of the Equal Rights Amendment (ERA) and the
statutory role of the Archivist of the United States.
Under 1 U.S.C. § 106b, the Archivist performs a
ministerial role with respect to certifying the ratification
of amendments to the U.S. Constitution, as follows:
Whenever official notice is received at the
National Archives and Records Administration that any amendment proposed to the
Constitution of the United States has been
adopted, according to the provisions of the
Constitution, the Archivist of the United
States shall forthwith cause the amendment
to be published, with his certificate, specifying
the States by which the same may have been
adopted, and that the same has become valid,
to all intents and purposes, as a part of the
Constitution of the United States.
In its January 6, 2020, opinion, the Office of Legal
Counsel (OLC) has concluded “that Congress had the
constitutional authority to impose a deadline on the
ratification of the ERA and, because that deadline has
expired, the ERA Resolution is no longer pending
before the States.” (OLC Opinion, at p.2.) Accordingly,
the OLC opinion goes on to state that “the ERA’s

App.96a
adoption could not be certified under 1 U.S.C. § 106b.”
(OLC Opinion, at p.37.)
These issues are currently presented in two
federal lawsuits against the Archivist of the United
States, one filed in the U.S. District Court for the
Northern District of Alabama by the states of Alabama,
Louisiana, and South Dakota and the other filed in
the U.S. District Court for the District of Massachusetts by Equal Means Equal, The Yellow Roses,
and Katherine Weitbrecht.
NARA defers to DOJ on this issue and will abide
by the OLC opinion, unless otherwise directed by a
final court order.

App.97a
MEMORANDUM OPINION FOR THE GENERAL
COUNSEL NATIONAL ARCHIVES AND
RECORDS ADMINISTRATION
(JANUARY 6, 2020)
RATIFICATION OF THE EQUAL RIGHTS AMENDMENT
Congress has constitutional authority to impose
a deadline for ratifying a proposed constitutional
amendment. It exercised this authority when
proposing the Equal Rights Amendment and,
because three-fourths of the state legislatures did
not ratify before the deadline that Congress imposed, the Equal Rights Amendment has failed of
adoption and is no longer pending before the
States. Accordingly, even if one or more state
legislatures were to ratify the proposed amendment, it would not become part of the Constitution, and the Archivist could not certify its
adoption under 1 U.S.C. § 106b.
Congress may not revive a proposed amendment
after a deadline for its ratification has expired.
Should Congress wish to propose the amendment
anew, it may do so through the same procedures
required to propose an amendment in the first
instance, consistent with Article V of the Constitution.
You have asked for our views concerning the legal
status of the Equal Rights Amendment (“ERA”).
Consistent with Article V of the Constitution, twothirds of both Houses passed a joint resolution
proposing the ERA, which would become part of the
Constitution when ratified by three-fourths of the
States. See 86 Stat. 1523 (1972) (“ERA Resolution”).

App.98a
Consistent with the last seven amendments adopted
before 1972, Congress conditioned ratification on a
deadline, requiring that the necessary number of
States (thirty-eight) approve the amendment within
seven years. See id. As that deadline approached, only
thirty-five States had ratified the ERA, and several
had sought to rescind their initial approvals. Congress
took the unprecedented step of voting, with a simple
majority in each House, to extend the deadline by
three years, until June 30, 1982. See 92 Stat. 3799
(1978). That new deadline came and went, however,
without additional ratifications. The ERA thus failed
to secure the necessary ratifications within either of
Congress’s deadlines.
Nearly four decades later, ERA supporters have
renewed their push to ratify the amendment. Some
have urged Congress to restart the ratification process
by proposing it anew. See, e.g., Remarks of Justice
Ruth Bader Ginsburg, Georgetown University Law
Center (Sept. 12, 2019) (“[T]he ERA fell three States
short of ratification. I hope someday it will be put back
in the political hopper, starting over again, collecting
the necessary number of States to ratify it.”).1 Others,
however, have urged the outstanding States to ratify
the long-expired ERA Resolution, arguing that the

1 https://www.facebook.com/georgetownlaw/videos/justice-ginsburgto-address-new-georgetown-law-students/2325195750861807
(remarks starting at 1:03:35); see also Marcia Coyle, Partisan

Divisions Are ‘Not Serving Our Country Well,’ Justice Ginsburg
Says, Nat’l L.J., Sept. 12, 2019 (quoting Justice Ginsburg’s

remarks on the ERA), https://www.law.com/nationallawjournal/
2019/09/12/partisan-divisions-are-not-serving-our-country-welljustice-ginsburg-says/.

App.99a
congressional deadline was invalid or could be retroactively nullified by Congress. In 2017, Nevada voted
to ratify the ERA, see S.J. Res. 2, 79th Leg. (Nev.
2017), and in 2018, Illinois did the same, see S.J. Res.
Const. Amend. 0004, 100th Gen. Assemb. (Ill. 2018).
If the ratification period remains open, and if the
efforts by five States to rescind their earlier ratifications are disregarded, then thirty-seven States could
be credited with having voted to ratify the ERA. After
falling just short of ratifying the ERA during its 2019
session, the Virginia legislature is expected to vote
again early this year.
Congress has charged the Archivist of the United
States with the responsibility to publish a new
constitutional amendment upon receiving the formal
instruments of ratification from the necessary number
of States. Whenever the National Archives and Records
Administration (“NARA”) receives “official notice” that
an amendment to the Constitution “has been adopted,”
the Archivist “shall forthwith cause the amendment
to be published” along with a certificate identifying
the States that ratified the amendment and declaring
“that the [amendment] has become valid, to all intents
and purposes, as a part of the Constitution of the
United States.” 1 U.S.C. § 106b. In view of this
responsibility, NARA has received inquiries from
Members of Congress and from several States asking
about the status of the ERA. Accordingly, you have
asked for our views on the legal status of the proposed
amendment.2
2 See Letter for Steven A. Engel, Assistant Attorney General,
Office of Legal Counsel, from Gary M. Stern, General Counsel,
National Archives and Records Administration (Dec. 12, 2018).

App.100a
We conclude that Congress had the constitutional
authority to impose a deadline on the ratification of the
ERA and, because that deadline has expired, the ERA
Resolution is no longer pending before the States. The
Supreme Court has upheld Congress’s authority to
impose a deadline for ratifying a proposed constitutional amendment. See Dillon v. Gloss, 256 U.S. 368,
375-76 (1921) (“Of the power of Congress, keeping
within reasonable limits, to fix a definite period for the
ratification we entertain no doubt.”). Although Congress
fixed the ratification deadline in the proposing clause
of the ERA Resolution, rather than in the proposed
amendment’s text, that choice followed established
practice. After incorporating ratification deadlines in
the text of four amendments, see U.S. Const. amends.
XVIII, XX-XXII, Congress placed deadlines in the
resolutions proposing each of the next four amendments. Both Houses of Congress, by the requisite twothirds majorities, adopted the terms of the ERA
Resolution, including the ratification deadline, and the
state legislatures were well aware of that deadline
when they considered the resolution. We therefore do
not believe that the location of the deadline alters its
effectiveness.
The more difficult question concerns whether
Congress, having initially specified that state legislatures must ratify the proposed amendment within
seven years, may modify that deadline. In 1977, this
Office advised that Congress could extend the ERA’s
deadline before it had expired. See Memorandum for
Robert J. Lipshutz, Counsel to the President, from
John M. Harmon, Assistant Attorney General, Office
of Legal Counsel, Re: Constitutionality of Extending

the Time Period for Ratification of the Proposed Equal

App.101a

Rights Amendment (Oct. 31, 1977) (“Constitutionality
of ERA Extension”).3 We recognized that “respectable
arguments can be made on both sides of this question,”
id. at 7, but we viewed Congress’s authority to fix the
deadline in the first instance as including a power to
modify it even after the States had begun to vote on
ratification, see id. at 20-21. We acknowledged, however,
that there would be a “strong argument” that Congress’s
authority to extend a pending deadline would not
include “reviving a proposed amendment” after the
deadline had expired. Id. at 5-6.
Although we disagree with the 1977 opinion’s
conclusion that Congress may extend a ratification
deadline on an amendment pending before the States,
we agree in any event that Congress may not revive a
proposed amendment after the deadline has expired.
The Constitution authorizes Congress to propose
amendments for ratification, but it does not contemplate
any continuing role for Congress during the ratification
period. See U.S. Const. art. V. Even if Congress could
validly extend the ERA’s ratification deadline before
its expiration, that deadline expired decades ago. Should
the people of the United States wish to adopt the ERA
as part of the Constitution, then the appropriate path
is for Congress (or a convention sought by the state
legislatures) to propose that amendment once more, in
a manner consistent with Article V of the Constitution.

3 The 1977 opinion is not published in the Opinions of the Office
of Legal Counsel, but it was reprinted in connection with
Assistant Attorney General Harmon’s November 1, 1977 congressional testimony. See Equal Rights Amendment Extension: Hearings

on H.J. Res. 638 Before the Subcomm. on Civil & Constitutional
Rights of the H. Comm. on the Judiciary, 95th Cong. 7-27 (1978).

App.102a
I.
Congress proposed the ERA to the States after
five decades of deliberation over whether such an
amendment was necessary to secure equal rights for
women or might instead cut back on existing
protections. The first ERA proposal was introduced in
1923. It would have provided that “[m]en and women
shall have equal rights throughout the United States
and every place subject to its jurisdiction” and that
Congress could “enforce this article by appropriate
legislation.” S.J. Res. 21, 68th Cong. (1923); see also
H.R.J. Res. 75, 68th Cong. (1923). The measure faced
opposition from traditionalists and some leaders of
the women’s movement, including many who feared
that the amendment would invalidate labor laws that
protected women. See Mary Frances Berry, Why ERA
Failed: Politics, Women’s Rights, and the Amending
Process of the Constitution 56-60 (1986). The proposal
did not advance in 1923, but it was re-introduced
repeatedly over the next fifty years, and it was the
subject of multiple committee hearings.4 The amendment appears to have first reached the Senate floor in
July 1946, where it fell short of the required twothirds majority by a vote of 38 to 35. See 92 Cong. Rec.
9404-05 (1946). The Senate would go on to approve the
4 See, e.g., H.R.J. Res. 42, 79th Cong. (1945); S.J. Res. 8, 77th
Cong. (1941); S.J. Res. 65, 75th Cong. (1937); H.R.J. Res. 1, 75th
Cong. (1937); S.J. Res. 1, 73d Cong. (1933); H.R.J. Res. 55, 71st
Cong. (1929); S.J. Res. 64, 70th Cong. (1928); S.J. Res. 11, 69th
Cong. (1925); Equal Rights for Men and Women: Hearings on
S.J. Res. 65 Before a Subcomm. of the S. Comm. on the Judiciary,
75th Cong. (1938); Equal Rights Amendment: Hearing on S.J.
Res. 64 Before a Subcomm. of the S. Comm. on the Judiciary,
70th Cong. (1929).

App.103a
proposal by the required supermajority on two occasions, in 1950 and 1953. See 99 Cong. Rec. 8974
(1953); 96 Cong. Rec. 872-73 (1950). On both occasions,
however, the House did not act on the measure.
After languishing for decades, the ERA gained
momentum during the 91st Congress. See H.R.J. Res.
264, 91st Cong. (1969). In 1970, Representative Martha
Griffiths obtained the necessary signatures for a
discharge petition to move the resolution out of the
House Judiciary Committee, and the House approved
the resolution by an overwhelming margin. See 116
Cong. Rec. 28004, 28036-37 (1970). The Senate, however, did not take a final vote on the resolution. See S.
Rep. No. 92-689, at 4-5 (1972). Notably, in the debates
over the ERA, opponents had seized on the absence of
a ratification deadline. See, e.g., 116 Cong. Rec. 28012
(1970) (remarks of Rep. Celler); see also 116 Cong.
Rec. 36302 (1970) (remarks of Sen. Ervin) (proposing
to amend the earlier resolution to include a seven-year
deadline for ratification).
In the 92nd Congress, the resolution finally met
with bicameral success. The House adopted the ERA
Resolution by the requisite two-thirds majority on
October 12, 1971. 117 Cong. Rec. 35815 (1971). The
Senate did the same on March 22, 1972. 118 Cong.
Rec. 9598 (1972).
The ERA Resolution reads in its entirety:

App.104a
JOINT RESOLUTION
Proposing an amendment to the Constitution
of the United States relative to equal rights
for men and women.

Resolved by the Senate and House of
Representatives of the United States of
America in Congress assembled (two-thirds
of each House concurring therein), That the
following article is proposed as an amendment
to the Constitution of the United States,
which shall be valid to all intents and purposes as part of the Constitution when
ratified by the legislatures of three-fourths of
the several States within seven years from
the date of its submission by the Congress:
“ARTICLE —
“SECTION 1. Equality of rights under the
law shall not be denied or abridged by the
United States or by any State on account of
sex.
“SEC. 2. The Congress shall have the power
to enforce, by appropriate legislation, the
provisions of this article.
“SEC. 3. This amendment shall take effect
two years after the date of ratification.”
86 Stat. at 1523.
The proposing clause of the ERA Resolution
contains a ratification deadline, which required that
“the legislatures of three-fourths of the several States”
ratify the amendment “within seven years from the
date of its submission by the Congress,” resulting in a

App.105a
deadline of March 22, 1979. Id. In 1971, Representative Griffiths, the ERA’s lead sponsor, defended the
inclusion of the deadline, describing it as “customary,”
as intended to meet “one of the objections” previously
raised against the resolution, and as a “perfectly
proper” way to ensure that the resolution “should not
be hanging over our head forever.” 117 Cong. Rec. at
35814-15. The report of the Senate Judiciary Committee
similarly explained: “This is the traditional form of a
joint resolution proposing a constitutional amendment
for ratification by the States. The seven year time
limitation assures that ratification reflects the
contemporaneous views of the people.” S. Rep. No. 92689, at 20; see also Ruth Bader Ginsburg, Ratification
of the Equal Rights Amendment: A Question of Time,
57 Tex. L. Rev. 919, 921 (1979) (stating that ERA supporters “thought the stipulation innocuous, a ‘customary’ statute of limitations, not a matter of substance
worth opposing” (footnote omitted)). Congress therefore
made the deliberate choice to subject the proposed
amendment to a seven-year ratification deadline.
After Congress adopted the ERA Resolution, the
Acting Administrator of the General Services Administration transmitted certified copies of the full text of
the resolution to the States with a request that each
governor submit the proposed amendment “to the
legislature of your state for such action as it may
take.” Constitutionality of ERA Extension at 3; see,
e.g., Letter for George C. Wallace, Governor, State of
Alabama, from Rod Kreger, Acting Administrator,
General Services Administration (Mar. 24, 1972).5
5 As we have previously recognized, “Section 106b and its
antecedents have long been understood as imposing a ministerial,
‘record-keeping’ duty upon the executive branch.” Congressional

App.106a
Twenty-two States ratified the ERA by the end of
1972.6 The political winds shifted, however, and only
thirteen more States ratified within the next five
years.7 During those years, four States voted to
Pay Amendment, 16 Op. O.L.C. 85, 98 (1992). From 1791 to 1951,
the Secretary of State reported on the ratification of new
amendments, a practice that Congress formally endorsed in
1818. See Act of Apr. 20, 1818, ch. 80, § 2, 3 Stat. 439. The
Administrator of General Services held the duty from 1951 to 1984.
See Pub. L. No. 82-248, ch. 655, sec. 2(b), § 106b, 65 Stat. 710,
710 (1951). In 1984, the role was transferred to the Archivist. See
Pub. L. No. 98-497, § 107(d), 98 Stat. 2280, 2291 (1984).
6 The States were Hawaii, New Hampshire, Delaware, Iowa,
Idaho, Kansas, Nebraska, Texas, Tennessee, Alaska, Rhode
Island, New Jersey, Colorado, West Virginia, Wisconsin, New York,
Michigan, Maryland, Massachusetts, Kentucky, Pennsylvania,
and California. S. Con. Res. 39, 6th Leg. (Haw. 1972); H.R. Con.
Res. 1, 1972 Sess. Gen. Ct. (N.H. 1972); S. Con. Res. 47, 126th
Gen. Assemb. (Del. 1972); S.J. Res. 1008, 64th Gen. Assemb.
(Iowa 1972); S.J. Res. 133, 41st Leg. (Idaho 1972); H.R. Con. Res.
1155, 1972 Sess. Leg. (Kan. 1972); Legis. Res. 86, 82d Leg. (Neb.
1972); S. Con. Res. 1, 62d Leg. (Tex. 1972); H.R.J. Res. 371, 87th
Gen. Assemb. (Tenn. 1972); H.R.J. Res. 125, 7th Leg. (Alaska
1972); S. Res. 3482, 1972 Jan. Sess. Gen. Assemb. (R.I. 1972); S.
Con. Res. 74, 195th Leg. (N.J. 1972); H.R. Con. Res. 1017, 48th
Gen. Assemb. (Colo. 1972); S.J. Res. 3, 60th Leg. (W. Va. 1972);
Enrolled J. Res. 52, 1972 Spec. Sess. Gen. Assemb. (Wis. 1972);
S. Con. Res. 9748, 179th Leg. (N.Y. 1972); S.J. Res. GG, 76th Leg.
(Mich. 1972); H.R.J. Res. LLL, 76th Leg. (Mich. 1972); Res. 35,
1972 Sess. Gen. Assemb. (Md. 1972); Res. Ratifying the Proposed
Amend. to the Const. of the U.S. Prohibiting Discrimination on
Account of Sex, 167th Gen. Ct. (Mass. 1972); H.R.J. Res. 2, 1972
1st Extra. Sess. Gen. Assemb. (Ky. 1972); J. Res. 2, 1972 Sess.
Gen. Assemb. (Pa. 1972); S.J. Res. 20, 1972 Sess. Leg. (Cal.
1972).
7 Eight States ratified the ERA in 1973: Wyoming, South
Dakota, Oregon, Minnesota, New Mexico, Vermont, Connecticut,
and Washington. H.R.J. Res. 2, 42d Leg. (Wyo. 1973); S.J. Res.
1, 48th Leg. (S.D. 1973); S.J. Res. 4, 57th Legis. Assemb. (Or.

App.107a
rescind their earlier ratifications.8 A fifth State, South
Dakota, later adopted a resolution providing that its
prior ratification would be withdrawn if the requisite
number of the States failed to ratify the ERA within
the seven-year period. S.J. Res. 2, 54th Leg. (S.D.
1979).
As the seven-year deadline approached, Congress
considered resolutions that would take the historically
unprecedented step of extending the ratification
deadline. See H.R.J. Res. 638, 95th Cong., 1st Sess.
(1977); H.R.J. Res. 638, 95th Cong., 2d Sess. (1978).
Congress had never before sought to adjust the terms
or conditions of a constitutional amendment pending
before the States. A subcommittee of the House
Judiciary Committee conducted hearings over six days
during which government officials, legal scholars, and
political activists expressed differing views over whether
Congress could validly extend the ratification deadline,
whether it could adopt such a resolution by only a
1973); H.R. Res. 1, 68th Leg. (Minn. 1973); H.R.J. Res. 2, 31st
Leg. (N.M. 1973); H.R.J. Res. 8, 1973 Sess. Gen. Assemb. (Vt.
1973); H.R.J. Res. 1, 1973 Jan. Sess. Gen. Assemb. (Conn. 1973);
H.R.J. Res. 10, 43d Leg. (Wash. 1973). Three ratified in 1974:
Maine, Montana, and Ohio. J. Res. to Ratify the Equal Rights
Amend. to the Federal Const., 106th Leg., 1st Spec. Sess. (Me.
1974); H.R.J. Res. 4, 43d Leg. (Mont. 1974); H.R.J. Res. 11, 110th
Gen. Assemb. (Ohio 1974). North Dakota ratified the ERA in
1975. S. Con. Res. 4007, 44th Legis. Assemb. (N.D. 1975).
Indiana did so in 1977. H.R.J. Res. 2, 100th Gen. Assemb. (Ind.
1977).
8 Kentucky voted to rescind its ratification in 1972. H.R.J. Res.
20, 1978 Sess. Gen. Assemb. (Ky. 1978). Nebraska did the same
in 1973, Legis. Res. 9, 83d Leg. (Neb. 1973); Tennessee in 1974,
S.J. Res. 29, 88th Gen. Assemb. (Tenn. 1974); and Idaho in 1977,
H. Con. Res. 10, 44th Leg. (Idaho 1977).

App.108a
simple majority vote, and whether States could validly
rescind their earlier ratifications. See Equal Rights
Amendment Extension: Hearings on H.J. Res. 638

Before the Subcomm. on Civil & Constitutional Rights
of the H. Comm. on the Judiciary, 95th Cong. (1978)
(“House Extension Hearings”). The witnesses included
future Justice Ruth Bader Ginsburg, who was then a
professor at Columbia Law School, and John Harmon,
who was the Assistant Attorney General for this Office.
A subcommittee of the Senate Judiciary Committee
also conducted hearings. See Equal Rights Amendment
Extension: Hearings on S.J. Res. 134 Before the

Subcomm. on the Constitution of the S. Comm. on the
Judiciary, 95th Cong. (1979) (“Senate Extension Hearings”).
In connection with these hearings, Assistant
Attorney General Harmon released an opinion, which
he had provided to the Counsel to the President,
concluding that the proposed extension of the ERA
would likely be constitutional. See Constitutionality
of ERA Extension at 1. The opinion advised that
“respectable arguments can be made on both sides of
this question,” since Article V “can be viewed as
envisioning a process whereby Congress proposes an
amendment and is divested of any power once the
amendment is submitted to the States for ratification.”
Id. at 7. Nevertheless, the opinion ultimately concluded
that Congress’s authority to “establish a ‘reasonable’
time in which ratification may occur,” id., may be
subject to modification by a later Congress at least
where the deadline has not yet expired, see id. at 5-8,
16-17. The opinion reasoned that the ERA’s deadline
was not in the proposed amendment’s actual text and
therefore concerned only a “‘subsidiary matter[] of

App.109a
detail’” that Congress could revise by a simple majority
vote of both Houses. Id. at 22-23 (quoting Dillon, 256
U.S. at 376).
In 1978, the House and Senate, acting by simple
majorities, adopted a resolution extending the deadline
for the ERA’s ratification. 92 Stat. at 3799.9 The ERA’s
supporters had initially sought to extend the ratification deadline by an additional seven years, but a
compromise extended the deadline by just over three
years, to June 30, 1982. See H.R. Rep. No. 95-1405, at
1 (1978). Although this Office had advised that the
President need not sign a resolution concerning a
constitutional amendment, see Constitutionality of ERA
Extension at 25, President Carter chose to sign the
extension resolution to demonstrate his support. See
Equal Rights Amendment, Remarks on Signing H.J.
Res. 638 (Oct. 20, 1978), 2 Pub. Papers of Pres. Jimmy
Carter 1800 (1978) (acknowledging that “the Constitution does not require the President to sign a
resolution concerning an amendment to the Constitution”).
Several States and state legislators challenged
the validity of the resolution extending the ratification
deadline, and a federal district court held that Congress
had exceeded its authority in passing the extension
resolution. See Idaho v. Freeman, 529 F. Supp. 1107,
1150-54 (D. Idaho 1981), vacated as moot, 459 U.S.
809 (1982). According to the district court, “[o]nce the
proposal has been formulated and sent to the states,
the time period could not be changed any more than
the entity designated to ratify could be changed from
9 The votes in the House and Senate were 233-189 and 60-36.
124 Cong. Rec. 26264, 34314 (1978).

App.110a
the state legislature to a state convention or vice
versa.” Id. at 1153. The Supreme Court allowed briefing
on appeals from the district court, granted certiorari
before judgment in the court of appeals, and stayed
the district court’s judgment. See Nat’l Org. for
Women, Inc. v. Idaho, 455 U.S. 918 (1982). But before
the Court was able to address the validity of Congress’s
deadline extension on the merits, the extended deadline
expired without ratifications by any additional States.
The Court then vacated the district court’s judgment
and remanded the cases with instructions to dismiss
the complaints as moot. See Nat’l Org. for Women,
Inc. v. Idaho, 459 U.S. 809 (1982).
After the expiration of the 1982 deadline, many
of the ERA’s supporters acknowledged that the
ratification effort had failed and would have to begin
anew. See Berry, Why ERA Failed at 81 (“In the
aftermath of ERA’s defeat, proponents began to assess
the reasons for failure.”); see also Adam Clymer, Time
Runs Out for Proposed Rights Amendment, N.Y.
Times, July 1, 1982, at A12 (“The drive to ratify the
proposed Federal equal rights amendment . . . failed
tonight in the states, still three legislatures short of
the 38 that would have made it the 27th Amendment
to the Constitution.”); Marjorie Hunter, Leaders
Concede Loss on Equal Rights, N.Y. Times, June 25,
1982, at A1 (“Leaders of the fight for an equal rights
amendment officially conceded defeat today.”). The
ERA’s supporters in Congress offered new resolutions
to reintroduce the ERA, which, if approved by twothirds majorities, would have restarted the ratification
process. See 128 Cong. Rec. 16106 (1982) (statement
of Rep. Schroeder) (announcing that she, along with
“200 Members of the House and 51 Members of the

App.111a
Senate,” had “reintroduced the equal rights amendment,” and analogizing the new proposal to “the
phoenix rising from the ashes”); id. at 16108-09
(statement of Rep. Rodino) (acknowledging that the
previously proposed ERA “failed of ratification as of
June 30,” arguing that “what we need to do is to really
go forward once again,” and introducing a resolution
to “begin the battle anew”); see also Berry, Why ERA
Failed at 82 (“The supporters of ERA in Congress . . .
did not give up the effort either. They announced on
July 14, that they had fifty-one cosponsors in the Senate
and 201 in the House to reintroduce ERA.”).
In January 1983, Joint Resolution 1 was introduced in the House, proposing the ERA for ratification
by state legislatures with a new seven-year deadline.
See H.R.J. Res. 1, 98th Cong. (1983). The House voted
on the resolution, but it fell short of the necessary twothirds majority. See 129 Cong. Rec. 32668, 32684-85
(1983). In the following decades, similar resolutions
were regularly introduced. See, e.g., H.R.J. Res. 1,
101st Cong. (1989); S.J. Res. 1, 101st Cong. (1989); S.J.
Res. 40, 103d Cong. (1993); H.R.J. Res. 41, 106th Cong.
(1999); S.J. Res. 7, 109th Cong. (2005); H.R.J. Res. 69,
112th Cong. (2011); S.J. Res. 6, 115th Cong. (2017).
None, however, was adopted. In the current Congress,
similar resolutions were introduced in the House on
January 29, 2019, see H.R.J. Res. 35, 116th Cong.,
and in the Senate on March 27, 2019, see S.J. Res. 15,
116th Cong. Two-thirds passage of either of those
resolutions in both chambers of Congress would
restart the ratification process by re-proposing the
ERA to the States.
Separately, ERA supporters in recent years have
sought to revive the expired ERA Resolution from

App.112a
1972, contending either that the original deadline was
legally invalid or that Congress may retroactively
nullify the deadline decades after the original proposal’s
expiration. See Allison L. Held et al., The Equal Rights
Amendment: Why the ERA Remains Legally Viable
and Properly Before the States, 3 Wm. & Mary J.
Women & L. 113 (1997).10 In the current Congress,
several proposed resolutions would purport to void the
deadline in the ERA Resolution. See S.J. Res. 6, 116th
Cong. (2019); H.R.J. Res. 79, 116th Cong. (2019); H.R.J.
Res. 38, 116th Cong. (2019). The House Judiciary Committee voted on November 13, 2019 to report one of
those resolutions favorably. See H.R.J. Res. 79, 116th
Cong. (2019) (as amended).11
In seeking to revive the ERA, supporters have
urged several States to ratify the ERA as proposed in
the ERA Resolution. See, e.g., Kristina Peterson,

Equal Rights Amendment Could Soon Be Back in
Congress, Wall St. J., July 3, 2019, https://www.wsj.

10 See also Maggie Astor, The Equal Rights Amendment May
Pass Now. It’s Only Been 96 Years, N.Y. Times, Nov. 6, 2019
(“‘It’s been extended by Congress, so if you can extend it, you can
certainly strike it,’ said Representative Jackie Speier of California,
the lead sponsor of a bipartisan House resolution to repeal the
deadline.”), https://www.nytimes.com/2019/11/06/us/politics/virginiaratify-equal-rights-amendment.html; Dana Canedy, Advocates
of Equal Rights Amendment Resume Their Fight, N.Y. Times,
May 4, 2003, § 1, at 41 (“Supporters contend they can challenge
the deadline if they can now find three more states to vote in
favor of the amendment.”).
11 See also Press Release, H. Comm. on the Judiciary, House

Judiciary Committee Passes Resolution Removing Ratification
Deadline for the ERA (Nov. 13, 2019), https://judiciary.house.
gov/news/press-releases/house-judiciary-committee-passesresolution-removing-ratification-deadline-era.

App.113a
com/articles/equal-rights-amendment-could-soon-beback-in-congress-11562155202. In March 2017,
Nevada’s legislature approved it. S.J. Res. 2, 79th Leg.
(Nev. 2017). In May 2018, the Illinois legislature did
the same. S.J. Res. Const. Amend. 0004, 100th Gen.
Assemb. (Ill. 2018). The Virginia legislature narrowly
failed to approve the amendment in 2019, but ERA
supporters will try again this year.12 If the ratification votes from 1972 to 1977 remain valid, and the
five rescissions of those ratifications are disregarded,
then thirty-seven of the States may be viewed as
having approved the ERA Resolution. In that case, the
approval by Virginia, or by another state legislature,
would require a determination as to whether the ERA
Resolution remains pending, notwithstanding the
congressional deadline. The passage of House Joint
Resolution 79, or a similar resolution, would likewise
require a determination as to whether Congress may
revive the ERA Resolution by retroactively removing
the earlier deadline. Accordingly, you have requested
our opinion on these matters.

12 See Jenna Portnoy, ERA Bill Dies for Good in GOP-Controlled
Virginia House of Delegates, Wash. Post, Feb. 21, 2019, https://
www.washingtonpost.com/local/virginia-politics/virginia-housekills-era-ratification-bill/2019/02/21/82920204-3560-11e9-854a7a14d7fec96a_story.html (noting the narrow failure); Rachel
Frazin, Virginia Targets Historic Push on Equal Rights Amendment
for Women, The Hill, Dec. 1, 2019, https://thehill.com/homenews/
state-watch/472295-virginia-targets-historic-push-on-equal-rightsamendment-for-women (noting that joint resolutions to ratify the
ERA have been prefiled in both houses for consideration in the
upcoming session).

App.114a
II.
Congress required that the ERA Resolution be
ratified within a fixed period, and whether the effective
deadline was in 1979 or 1982, that time has come and
gone. The ERA Resolution thus has expired unless the
deadline was somehow invalid in the first place. Yet
in Dillon, the Supreme Court squarely upheld
Congress’s authority to set a ratification deadline, 256
U.S. at 374-76, and that conclusion is consistent not
only with Article V of the Constitution, but with the
history of the seven amendments proposed and ratified
since Dillon. For the last four of those amendments,
Congress placed the deadline in the proposing clause—
the clause containing the procedural rules for
ratification that, like the amendment itself, has
always been adopted by two-thirds of both Houses of
Congress. As Chief Justice Hughes suggested in his
controlling opinion in Coleman v. Miller, 307 U.S. 433
(1939), a ratification deadline may be included “either
in the proposed amendment or in the resolution of
submission,” id. at 452, and there is no reason in law
or historical practice to draw any other conclusion.
Because Congress lawfully conditioned the States’
ratification of the ERA upon a deadline, and because
the deadline expired, the proposed amendment has
necessarily failed.
A.
The Founders established a process for amending
the Constitution that requires substantial agreement
within the Nation to alter its fundamental law. As
James Madison explained in The Federalist, the
Founders chose to ensure a broad consensus in favor
of any amendment to “guard[] . . . against that extreme

App.115a
facility which would render the Constitution too
mutable,” while at the same time avoiding “that
extreme difficulty which might perpetuate its discovered faults.” The Federalist No. 43, at 296 (James
Madison) (Jacob E. Cooke ed., 1961); see also id. No.
85, at 592 (Alexander Hamilton) (“[W]henever . . . ten
[of thirteen] states[] were united in the desire of a
particular amendment, that amendment must infallibly
take place.” (footnote omitted)). The Constitution
requires supermajorities in Congress (or of state
legislatures) to propose an amendment. U.S. Const.
art. V. It then raises the bar for ratification even
higher by requiring three-fourths of the States—acting
either through their legislatures or through ratifying
conventions—to approve the amendment. See id.
The infrequency with which the Constitution has
been amended attests not just to the genius of the
original design but also to the difficulty inherent in
securing the broad consensus required by Article V. In
connection with promises made during the state
ratifying conventions for the original Constitution, the
First Congress in 1789 proposed twelve amendments
to the States. See 1 Stat. 97 (1789); see also, e.g., David
P. Currie, The Constitution in Congress: The Federalist
Period, 1789-1801, at 110-115 (1997). By 1791, threefourths of the States had approved ten of those twelve
articles—the Bill of Rights. See U.S. Const. amends.
I-X; see also 1 Jonathan Elliot, The Debates in the

Several State Conventions on the Adoption of the
Federal Constitution 339-40 (2d ed. 1836). In the

nearly 230 years since then, the States have ratified
only seventeen additional amendments. See U.S.
Const. amends. XI-XXVII.

App.116a
Article V of the Constitution sets forth the
procedures for proposing and ratifying constitutional
amendments:
The Congress, whenever two thirds of both
Houses shall deem it necessary, shall propose
Amendments to this Constitution, or, on the
Application of the Legislatures of two thirds
of the several States, shall call a Convention
for proposing Amendments, which, in either
Case, shall be valid to all Intents and
Purposes, as Part of this Constitution, when
ratified by the Legislatures of three fourths
of the several States, or by Conventions in
three fourths thereof, as the one or the other
Mode of Ratification may be proposed by the
Congress; Provided that no Amendment
which may be made prior to the Year One
thousand eight hundred and eight shall in
any Manner affect the first and fourth
Clauses in the Ninth Section of the first
Article; and that no State, without its
Consent, shall be deprived of its equal
Suffrage in the Senate.

Id. art. V.
The process for proposing amendments is one of
only two instances where the Constitution requires
both Houses of Congress to act by a supermajority.13
13 The Constitution alternatively provides that a supermajority
(two-thirds) of the state legislatures may petition Congress to
convene a convention for proposing amendments. U.S. Const. art.
V. The Founders believed that this process would likely be
unnecessary unless Congress had become corrupted. See, e.g., 1
The Records of the Federal Convention of 1787, at 202-03 (Max
Farrand ed., 1911); 1 Blackstone’s Commentaries 371 (St. George

App.117a
The other is when Congress seeks to override the
President’s veto of a bill or other form of joint
resolution. See id. art. I, § 7, cls. 2-3.14 The Founders
thus established a high bar by requiring that twothirds of both Houses agree upon the terms of any
amendment to be proposed to the States and that
three-fourths of the States ratify the amendment on
those terms.
The Constitution further grants Congress the
authority to specify “one or the other Mode of
Ratification” in the States, either by the legislatures
thereof or by state conventions chosen for that purpose.
Id. art. V. In adopting the Constitution, the people
“deliberately made the grant of power to Congress in
respect to the choice of the mode of ratification of
amendments.” United States v. Sprague, 282 U.S.
716, 733 (1931); see also 4 Elliot, Debates in the
Several State Conventions at 177 (statement of James
Iredell) (“Any amendments which either Congress
shall propose, or which shall be proposed by such
general convention, are afterwards to be submitted to
the legislatures of the different states, or conventions
called for that purpose, as Congress shall think
Tucker ed., 1803) (observing that the convention process “will
probably never be resorted to, unless the federal government
should betray symptoms of corruption,” and describing the
convention process as a “radical and effectual remedy”). As a
historical matter, the state legislatures have never successfully
petitioned for such a convention, and every amendment proposed
to the States to date has come from Congress in the first instance.
14 The Constitution requires a two-thirds majority in the Senate
to convict a civil officer in an impeachment trial, U.S. Const. art.
I, § 3, cl. 6, and to give advice and consent to ratification of a treaty,
id. art. II, § 2, cl. 2. It requires two-thirds of either House to
concur in the expulsion of one of its Members. Id. art. I, § 5, cl. 2.

App.118a
proper[.]”). Congress therefore exercises discretion in
determining not just the substance of the amendment,
but which of the two modes of ratification is to be used.
See Sprague, 282 U.S. at 732 (recognizing that “the
choice of mode rests solely in the discretion of
Congress”).
In making such determinations, Congress has
specified the mode of ratification in the proposing
clause included within every resolution proposing a
constitutional amendment. For every successful amendment, both Houses of Congress approved the proposing
clause at the same time as the text of the proposed
amendment, and they did so by a two-thirds vote.
Congress included such a clause in the very first set of
amendments proposed to the States, ten of which were
ratified in 1791 as the Bill of Rights (and one of which
was ratified in 1992 as the Twenty-Seventh Amendment). The resolution recited that Congress was
proposing twelve articles “to the legislatures of the
several states, as amendments to the constitution of
the United States, all or any of which articles, when
ratified by three fourths of the said legislatures, to be
valid to all intents and purposes, as part of the said
Constitution.” 1 Stat. at 97 (emphasis added). In every
subsequent amendment proposed to the States,
Congress has included a proposing clause reciting the
intended mode of ratification.15
15 See 1 Stat. 402 (1794) (Eleventh Amendment); 2 Stat. 306 (1803)
(Twelfth Amendment); 2 Stat. 613 (1810) (proposed Titles of
Nobility Amendment); 12 Stat. 251 (1861) (proposed Article the
Thirteenth); 13 Stat. 567 (1865) (Thirteenth Amendment); 14
Stat. 358 (1866) (Fourteenth Amendment); 15 Stat. 346 (1869)
(Fifteenth Amendment); 36 Stat. 184 (1909) (Sixteenth Amendment); 37 Stat. 646 (1912) (Seventeenth Amendment); 40 Stat.

App.119a
The proposing clause for the Bill of Rights not only
specified the mode of ratification but also contained a
procedural instruction authorizing the state legislatures either to ratify “all” twelve proposed articles
or to ratify “any of “them individually. 1 Stat. at 97.
This proposing clause was debated by the House and
the Senate and considered of a piece with the substantive
proposed amendments. See 4 Documentary History of

the First Federal Congress of the United States of
America 35-45 (Charlene Bangs Bickford & Helen

E. Veit eds., 1986). Although the early resolutions
proposing amendments did not include deadlines for
ratification, seven-year deadlines were included in the
texts of what became the Eighteenth, Twentieth,
Twenty-First, and Twenty-Second Amendments. See
U.S. Const. amends. XVIII, § 3; XX, § 6; XXI, § 3; XXII,
§ 2. When proposing the Twenty-Third Amendment in
1960, Congress included a similar seven-year deadline
in the proposing clause, see 74 Stat. 1057 (1960), and
every subsequent proposed amendment has also
included, in its proposing clause, a requirement that
the amendment be ratified within seven years. See 76
Stat. 1259 (1962) (Twenty-Fourth Amendment); 79
Stat. 1327 (1965) (Twenty-Fifth Amendment); 85 Stat.
825 (1971) (Twenty-Sixth Amendment); 86 Stat. at 1523
1050 (1917) (Eighteenth Amendment); 41 Stat. 362 (1919) (Nineteenth Amendment); 43 Stat. 670 (1924) (proposed Child Labor
Amendment); 47 Stat. 745 (1932) (Twentieth Amendment); 48
Stat. 1749 (1933) (Twenty-First Amendment); 61 Stat. 959 (1947)
(Twenty-Second Amendment); 74 Stat. 1057 (1960) (Twenty-Third
Amendment); 76 Stat. 1259 (1962) (Twenty-Fourth Amendment);
79 Stat. 1327 (1965) (Twenty-Fifth Amendment); 85 Stat. 825
(1971) (Twenty-Sixth Amendment); 86 Stat. 1523 (1972) (proposed ERA); 92 Stat. 3795 (1978) (proposed D.C. Congressional
Representation Amendment).

App.120a
(proposed ERA); 92 Stat. 3795 (1978) (proposed D.C.
Congressional Representation Amendment). Each of
these deadlines was adopted as part of the same
resolution that proposed each amendment by the
required two-thirds majorities of both Houses of
Congress.
B.
Article V does not expressly address how long the
States have to ratify a proposed amendment. The
“article says nothing about the time within which
ratification may be had—neither that it shall be
unlimited nor that it shall be fixed by Congress.”
Dillon, 256 U.S. at 371. The text does direct that “[t]he
Congress, whenever two thirds of both Houses shall
deem it necessary, shall propose Amendments to this
Constitution[.]” U.S. Const. art. V (emphases added).
This language authorizes Congress to propose amendments for ratification when two-thirds majorities in each
chamber deem it necessary, thereby implying that
Congress may propose amendments for the period
that the requisite majorities deem necessary. See
Dillon, 256 U.S. at 375 (“[I]t is only when there is
deemed to be a necessity therefor that amendments are
to be proposed, the reasonable implication being that
when proposed they are to be considered and disposed
of presently.”). Article V thus requires Congress to
make a judgment concerning the needs of the moment
and, from that, the Supreme Court has inferred the
power to set a deadline by which the States must
ratify, or reject, Congress’s judgment. See id. at 375-76.
The Court reached this conclusion in Dillon,
which upheld Congress’s authority to impose a deadline
for ratifying the Eighteenth Amendment, which

App.121a
established Prohibition. See U.S. Const. amend. XVIII,
§§ 1-2. In section 3 of the Amendment, Congress
conditioned its effectiveness upon the requirement
that it be ratified within seven years. See id. § 3 (“This
article shall be inoperative unless it shall have been
ratified as an amendment to the Constitution by the
legislatures of the several States, as provided in the
Constitution, within seven years from the date of the
submission hereof to the States by the Congress.”).
The Senate had previously considered proposing ratification deadlines for the Fourteenth and Fifteenth
Amendments. See Cong. Globe, 40th Cong., 3d Sess.
912-13, 1309-14 (1869); Cong. Globe, 39th Cong., 1st
Sess. 2771 (1866). But the Eighteenth Amendment
was the first amendment to include one.
In Dillon, a prisoner detained in violation of the
National Prohibition Act (which was enacted pursuant
to federal power authorized by the Eighteenth Amendment) argued that the presence of the deadline invalidated the amendment because “Congress has no
constitutional power to limit the time of deliberation or
otherwise attempt to control what the legislatures of
the States shall do in their deliberation.” Br. for
Appellant at 4, Dillon v. Gloss, 256 U.S. 368 (1921)
(No. 251). In rejecting this claim, the Court observed
that “some” of the first seventeen amendments had
been ratified “within a single year after their proposal
and all within four years.” Dillon, 256 U.S. at 372.
Four other proposed amendments, however, had failed
to obtain the necessary votes from the States and “lain
dormant for many years,” leaving it an “open question”
whether they “could be resurrected.” Id. at 372-73. To
avoid such future uncertainty, the Court explained,
Congress fixed a seven-year deadline for the ratification

App.122a
of the Prohibition amendment. Id. at 373; see also 55
Cong. Rec. 5557 (1917) (remarks of Sen. Ashurst)
(expressing support for a provision “limiting the time
in the case of this amendment or any other amendment
to 10, 12, 14, 16, 18, or even 20 years, so that we will
not hand down to posterity a conglomerate mass of
amendments floating around in a cloudy, nebulous,
hazy way”).
In upholding Congress’s authority to impose
deadlines, the Court recognized that Article V does
not expressly address the timing of ratification. See
Dillon, 256 U.S. at 371. It nevertheless read the text
to imply a degree of contemporaneity between an
amendment’s proposal and its ratification, which “are
not treated as unrelated acts but as succeeding steps
in a single endeavor, the natural inference being that
they are not to be widely separated in time.” Id. at
374-75. The Court inferred that the approval of threefourths of the States needs to be “sufficiently contemporaneous . . . to reflect the will of the people in all
sections at relatively the same period.” Id. at 375.
Thus, “‘an alteration of the Constitution proposed today
has relation to the sentiment and the felt needs of
today,’” and “‘if not ratified early while that sentiment
may fairly be supposed to exist, it ought to be regarded
as waived, and not again to be voted upon, unless a
second time proposed by Congress.’” Id. at 375 (quoting,
with alterations, John Alexander Jameson, A Treatise
on Constitutional Conventions § 585, at 634 (4th ed.
1887)).16 The Court therefore concluded that “the fair
16 The Dillon Court necessarily rejected Jameson’s contention
that, although Article V gives Congress the powers to propose an
amendment and to express the mode of ratification, it does not
grant Congress the power “to prescribe conditions as to the time

App.123a
inference or implication from article V is that the
ratification must be within some reasonable time after
the proposal.” Dillon, 256 U.S. at 375.17
Having viewed Article V as implicitly including a
requirement of contemporaneity, Dillon rejected the
argument that Congress lacks the power to set the
reasonable time for ratification. See id. at 375-76. The
Court reasoned that, “[a]s a rule[,] the Constitution
speaks in general terms, leaving Congress to deal with
subsidiary matters of detail as the public interests and
changing conditions may require; and article V is no
exception to the rule.” Id. at 376 (footnote omitted).
Therefore, “[w]hether a definite period for ratification
shall be fixed so that all may know what it is and
speculation on what is a reasonable time may be
avoided, is, in our opinion, a matter of detail which
Congress may determine[.]” Id. The Court concluded
that Congress has the authority to impose a deadline
upon the ratification process, reasoning that such a
power is “an incident of its power to designate the
mode of ratification” under Article V. Id.
within which amendments are to be ratified, and hence to do so
would be to transcend the power given.” Jameson, A Treatise on
Constitutional Conventions § 585, at 634.
17 In Congressional Pay Amendment, this Office concluded that
“Dillon is not authoritative on the issue whether Article V
requires contemporaneous ratification” in the absence of any
congressional deadline, because the Eighteenth Amendment
contained a deadline. 16 Op. O.L.C. at 92-93. Finding no time
limit in Article V, we concluded that the Twenty-Seventh
Amendment, which was proposed without a deadline in 1789,
had been adopted in 1992. See id. at 97, 105. Because the ERA
Resolution contained a deadline (which has expired), we do not
need to consider in this opinion the 1992 opinion’s reading of Dillon.

App.124a
C.
Unlike with the Eighteenth Amendment, Congress
placed the ratification deadline for the ERA Resolution
in the proposing clause, rather than in the text of the
proposed amendment. But that judgment was entirely
consistent with the four preceding amendments, and
with Dillon’s recognition that a deadline is related to
the mode of ratification, which has always been
included in the proposing clause. In placing the ERA’s
deadline in the proposing clause, Congress followed a
practice that started with the Twenty-Third Amendment. See 74 Stat. at 1057 (resolving “that the following article is hereby proposed . . . which shall be valid
to all intents and purposes as part of the Constitution
only if ratified by the legislatures of three-fourths of
the several States within seven years from the date of
its submission by Congress”). Congress took the same
course in the proposing clauses of the Twenty-Fourth,
Twenty-Fifth, and Twenty-Sixth Amendments. See 76
Stat. at 1259; 79 Stat. at 1327; 85 Stat. at 825. There
is no reason for deadlines declared in proposing clauses
to be any less binding on the ratification process than
those included in the text of proposed amendments.
In Dillon, the Supreme Court held that Congress’s
decision to fix “a definite period for ratification” is “a
matter of detail which Congress may determine as an
incident of its power to designate the mode of
ratification” under Article V. 256 U.S. at 376. In the
first resolution proposing constitutional amendments,
Congress identified the mode of ratification in the
resolution’s proposing clause, separate from the text
of the proposed amendments themselves. See supra pp.
14-15. Congress has specified the mode of ratification
in the proposing clause of every resolution proposing

App.125a
a constitutional amendment since then. See supra
note 15. Each time, two-thirds of both Houses of
Congress approved these measures. Insofar as Congress
and the States have relied upon proposing clauses to
specify the mode of ratification since 1789, we think it
clear that Congress may exercise its integrally related
authority to set a deadline in precisely the same
manner. Chief Justice Hughes suggested as much
when he observed that the Child Labor Amendment
did not include a ratification deadline “either in the
proposed amendment or in the resolution of
submission.” Coleman, 307 U.S. at 452.
As we recognized in 1977, “[t]he history of congressional use of a seven-year limitation demonstrates that
Congress moved from inclusion of the limit in the text
of proposed amendments to including it within the
proposing clauses . . . without ever indicating any intent
to change the substance of their actions.” Constitutionality of ERA Extension at 15. After the Court’s
1921 decision in Dillon confirmed the validity of the
Eighteenth Amendment’s ratification deadline, Congress included a seven-year deadline in the Twentieth,
Twenty-First, and Twenty-Second Amendments. See
U.S. Const. amend. XX, § 6 (“This article shall be
inoperative unless it shall have been ratified as an
amendment to the Constitution by the legislatures of
three-fourths of the several States within seven years
from the date of its submission.”); id. amend. XXI, § 3
(“This article shall be inoperative unless it shall have
been ratified as an amendment to the Constitution by
conventions in the several States, as provided in the
Constitution, within seven years from the date of the
submission hereof to the States by the Congress.”); id.
amend. XXII, § 2 (“This article shall be inoperative

App.126a
unless it shall have been ratified as an amendment to
the Constitution by the legislatures of three-fourths of
the several States within seven years from the date of
its submission to the States by the Congress.”). By
including such a provision in the amendment itself,
Congress ensured that approvals secured after the
seven-year deadline would be ineffective. Even if threefourths of the States later ratified the amendment—
and it therefore became “valid to all Intents and
Purposes, as Part of [the] Constitution,” id. art. V—
the amendment, by its own terms, would be legally
inert.
Members of Congress recognized, however, that
these textual deadlines came at a cost. With each
amendment, the Nation’s highest law became increasingly cluttered with extraneous sections imposing
conditions on ratification that had no prospective
effect. Once three-fourths of the States ratified amendments within the prescribed deadlines, the deadlines,
having already fulfilled their purpose, were nonetheless
added to the constitutional text. To avoid exacerbating
that problem, Congress adopted an alternative way of
setting a ratification deadline when it proposed the
Twenty-Third Amendment. Rather than including the
deadline in the amendment’s text, Congress put it in the
proposing clause specifying the mode of ratification.
See 74 Stat. at 1057. As Senator Kefauver had
explained:
The general idea was that it was better not
to make the 7-year provision a part of the
proposed constitutional amendment itself. It
was felt that that would clutter up the
Constitution. . . . We wanted to put the 7-year
limitation in the preamble. So the intention

App.127a
of the preamble is that it must be ratified
within 7 years in order to be effective.
101 Cong. Rec. 6628 (1955); see also Appointment of
Representatives: Hearing on S.J. Res. 8 Before a
Subcomm. of the S. Comm. on the Judiciary, 84th
Cong. 34 (1955) (letter from Prof. Noel Dowling) (“The
7-year limitation is put in the resolution rather than
in the text of the amendment. There is no doubt about
the power of Congress to put it there; and it will be
equally effective. The usual way, to be sure, has been
to write the limitation into the amendment; but we hope
such an unnecessary cluttering up of the Constitution
can be ended.”).18
Congress thereafter adopted the Twenty-Third
Amendment resolution, including the seven-year
deadline, by a two-thirds majority of both Houses. 106
Cong. Rec. 12571, 12858 (1960); see 74 Stat. at 1057.
The States promptly ratified the amendment within
18 In connection with the Twentieth Amendment, Representative
Emanuel Celler had proposed placing the seven-year deadline in
the proposing clause, but that approach drew objections. 75 Cong.
Rec. 3856-57 (1932). Representative Lamar Jeffers protested that,
“[i]f the gentleman wants his amendment in the Constitution, it
should go in a new section, or section 6. As he has now offered it,
it would be of no avail, as he is offering it as a part of the proposal
clause and not as a part of the proposed constitutional
amendment.” Id. at 3856; see also id. (statement of Rep. Ramseyer)
(“The eighteenth amendment carried that 7-year provision as
section 3, and it was that provision that the Supreme Court held
to be valid. . . . I think we should play safe, inasmuch as the
Supreme Court has held the provision valid.”); see also
Constitutionality of ERA Extension at 10-11 (discussing this
history). We have not identified the expression of any similar
concern with respect to the Twenty-Third or any subsequent
Amendment, and, as discussed below, we believe this concern is
misplaced.

App.128a
ten months. See Certification of Amendment to Constitution of the United States Granting Representation in
the Electoral College to the District of Columbia, 26
Fed. Reg. 2808 (Apr. 3, 1961). And Congress repeated
the very same course by including deadlines in the
proposing clauses for the Twenty-Fourth, TwentyFifth, and Twenty-Sixth Amendments. See 76 Stat. at
1259; 79 Stat. at 1327; 85 Stat. at 825.19 In 1977, we
observed that Congress appears to have adopted this
approach without any discussion about potentially
placing the deadlines elsewhere. See Constitutionality
of ERA Extension at 14-15. And we have found no
indication that Members of Congress (or any court)
seriously questioned the binding nature of a deadline
stated in a resolution’s proposing clause rather than
the text of its proposed amendment.
In the case of the ERA Resolution, Congress
again included a ratification deadline in the proposing
clause. Members suggested that, by this time, it had
become the customary way of setting a deadline. See,
e.g., S. Rep. No. 92-689, at 20 (1972) (describing the
deadline as part of the “traditional form of a joint
resolution proposing a constitutional amendment for
ratification by the States” and stating that it “has
been included in every amendment added to the
Constitution in the last 50 years”). The deadline was
19 In proposing the Twenty-Third and Twenty-Fourth Amendments, Congress provided that the amendment would be valid
“only if ratified by the legislatures of three-fourths of the several
States within seven years from the date of its submission”
(emphasis added). Starting with the Twenty-Fifth Amendment,
Congress replaced “only if” with “when.” As we recognized in
1977, this change did not alter the meaning of the resolution or
the binding nature of the deadline. See Constitutionality of ERA
Extension at 15.

App.129a
widely understood to be a necessary part of the
legislative compromise that resulted in the resolution’s
passage. Prominent ERA opponents had faulted an
earlier version of the resolution for the absence of a
deadline. See, e.g., 116 Cong. Rec. at 28012 (remarks
of Rep. Celler, Chairman of the House Judiciary
Committee) (decrying the fact that, without a deadline,
“[t]his amendment could roam around State legislatures
for 50 years” and arguing that the “customar[y]”
seven-year deadline should be added); id. at 36302
(remarks of Sen. Ervin) (proposing a seven-year
deadline and noting that “we still have floating around
some unratified amendments that were submitted at
the time of the original submission of the Bill of
Rights”). And ERA supporters confirmed that, while
they expected prompt ratification, the seven-year
deadline would impose a binding time limit. See 117
Cong. Rec. at 35814-15 (remarks of Rep. Griffiths)
(recognizing that the deadline will ensure that the
resolution “should not be hanging over our head
forever”); 118 Cong. Rec. at 9552 (remarks of Sen.
Hartke) (recognizing that if the ERA is not “ratified
within 7 years,” then “we must begin the entire process
once again”). In proposing the ERA to the States with
a deadline, Members of Congress thus recognized that
the deadline was a binding condition upon its ratification.
Apart from the seven-year deadline in the proposing clause, the ERA Resolution included a separate
timing requirement—a delay on effectiveness for two
years after ratification—in section 3 of the text of the
proposed amendment. But this distinction did not
make the seven-year deadline any less mandatory
than the two-year delay. Unlike with ratification

App.130a
deadlines, Congress has never placed an amendment’s
delayed effective date in a proposing clause. Nor is it
clear that it could effectively do so, because Article V
declares that a proposed amendment “shall be valid to
all Intents and Purposes, as Part of [the] Constitution,
when ratified.” U.S. Const. art. V (emphasis added).
Including the two-year delay in the amendment itself
could be necessary to amend the effect that Article V
would otherwise have on the amendment’s effective
date.
After Congress proposed the ERA Resolution,
state legislatures considered whether to ratify it
subject to all of the conditions imposed by Congress,
including the seven-year deadline. Of the thirty-five
state legislatures that ratified between 1972 and
1977, twenty-five expressly voted upon a state measure
that included the text of the ERA Resolution in its
entirety (and hence the deadline). See Senate Extension
Hearings at 739-54, 756-61. Five others did not
expressly vote on the entire text of the ERA Resolution,
but the seven-year deadline was otherwise repeated
in the measures that they approved. See id. at 739-40,
742-43, 746-47, 752-54, 758. And South Dakota’s
legislature expressly provided that its ratification
would be formally withdrawn if the ERA were not
adopted within the seven-year deadline. S.J. Res. 2,
54th Leg. (S.D. 1979). Accordingly, the States that
ratified the ERA Resolution plainly did so with the
knowledge of the timing condition and with the
understanding that the seven-year deadline was part
and parcel of the amendment proposal.
Although some ERA supporters have recently
questioned the enforceability of the deadline, no one
involved with the ERA around the time of its proposal

App.131a
seems to have done so. As the original ratification period
neared its end, Congress weighed extending the deadline
precisely to avoid the failure of the amendment. For
instance, Representative Elizabeth Holtzman, the
primary sponsor of the extension resolution, testified
that “[t]he cosponsors of [the] resolution have every
hope that the equal rights amendment will be ratified
before March 22, 1979, but do believe there might be
need for an insurance policy to assure that the
deadline will not arbitrarily end all debate on the
ERA.” House Extension Hearings at 4 (emphasis
added). And while this Office advised that Congress
could extend the deadline, we nonetheless recognized
that the proposed amendment would otherwise expire.
See Constitutionality of ERA Extension at 15.
Even more telling, the Supreme Court necessarily
recognized the enforceability of the deadline by finding
that the legal controversy over the ERA extension
became moot when the extended deadline lapsed.
After the district court in Idaho v. Freeman held that
Congress could not extend the deadline, the federal
government and others sought review in the Supreme
Court. See, e.g., Pet. of Adm’r of Gen. Servs. for Writ
of Cert. Before J., Carmen v. Idaho, No. 81-1313 (U.S.
Jan. 22, 1982); Pet. for Writ of Cert. Before J., Nat’l
Org. for Women, Inc. v. Idaho, No. 81-1283 (U.S. Jan. 8,
1982). Although the Court accepted review, the June
1982 deadline expired before it could hear argument.
At that point, the Acting Solicitor General urged the
Court to dismiss the case as moot because “the
Amendment has failed of adoption no matter what the
resolution of the legal issues presented.” Mem. for
Adm’r of Gen. Servs. Suggesting Mootness at 3, Nat’l
Org. for Women, Inc. v. Idaho, Nos. 81-1282 et al.

App.132a
(U.S. July 9, 1982). Other parties objected to that
conclusion on prudential grounds, but none argued
that the deadline was unenforceable.20 The Supreme
Court remanded with instructions “to dismiss the
complaints as moot.” Nat’l Org. for Women, 459 U.S.
at 809. In so doing, the Court necessarily adopted the
view that Congress had validly imposed a ratification
deadline that had expired. See Response of Nat’l Org.
for Women, Inc., et al., to Mem. for Adm’r of Gen.
Servs. Suggesting Mootness at 3, Nat’l Org. for Women,
Inc. v. Idaho, Nos. 81-1282 et al. (July 23, 1982) (“Even
an unexplained ruling that this case is moot would
necessarily signal implicit acceptance of [the Acting
Solicitor General’s] position, particularly in light of
this Court’s stay of January 25.”).
All of this history confirms that the deadline in
the proposing clause of the ERA Resolution was a
valid and binding exercise of Congress’s authority to
set a deadline on ratification. Congress in 1972
required the ERA to be ratified by a certain date as an
incident to its authority to set the mode of ratification.
See Dillon, 256 U.S. at 376. Two-thirds of both Houses
20 See, e.g., Response of Nat’l Org. for Women, Inc., et al., to
Mem. for Adm’r of Gen. Servs. Suggesting Mootness at 3-5, Nat’l
Org. for Women, Inc. v. Idaho, Nos. 81-1282 et al. (U.S. July 23,
1982) (arguing that notwithstanding the expiration of the
deadline, the Court should address whether the validity of the
extension presented a political question); Response of Washington
Appellees and Respondents to Mem. for Adm’r of Gen. Servs.
Suggesting Mootness at 4, Nat’l Org. for Women, Inc. v. Idaho,
Nos. 81-1282 et al. (U.S. Aug. 10, 1982) (“One might think that a
scheme to secure ratification past the expiration of the second
deadline is patently ludicrous. However, it also seemed ludicrous
prior to 1978 to suggest an extension of time for the ratification
of a constitutional amendment by a simple majority vote.”).

App.133a
of Congress approved the amendment with that
accompanying condition, and the state legislatures
that ratified did so as well. Under the text and
structure of Article V, and consistent with the Court’s
opinion in Dillon, that condition was legally effective.
Because the deadline lapsed without ratifications
from the requisite thirty-eight States, the ERA
Resolution is no longer pending before the States, and
ratification by additional state legislatures would not
result in the ERA’s adoption.
III.
Although the ERA Resolution expired decades ago,
there remains the question whether Congress may
revive the ERA ratification process. As noted above,
the House Judiciary Committee has favorably reported
a joint resolution “[r]emoving the deadline for the
ratification of the equal rights amendment,” which
would purport to make the ERA “valid to all intents
and purposes as part of the United States Constitution
whenever ratified by the legislatures of three-fourths
of the several States.” H.R.J. Res. 79, 116th Cong. (as
ordered to be reported by H. Comm. on the Judiciary,
Nov. 13, 2019); see also supra note 11 and accompanying
text. We therefore must consider whether this pending
resolution, if adopted by both Houses of Congress,
would reopen the ratification of the ERA Resolution.
Congress, of course, could restart the amendment
process by re-proposing the ERA to the States. We do
not believe, however, that Congress in 2020 may
change the terms upon which the 1972 Congress
proposed the ERA for the States’ consideration. Article
V does not expressly or implicitly grant Congress such
authority. To the contrary, the text contemplates no

App.134a
role for Congress in the ratification process after it
proposes an amendment. Moreover, such a congressional power finds no support in Supreme Court
precedent. While the controlling opinion in Coleman
suggested that Congress—and not the Court—may
judge what constitutes “a reasonable limit of time for
ratification,” the opinion concerned only those instances
“when the limit has not been fixed in advance.” 307
U.S. at 454 (opinion of Hughes, C.J.). By its own
terms, that opinion does not extend to the circumstances of the ERA, where Congress fixed a deadline
before the proposal went to the States and that period
has now expired.
A.
Those who believe that the ERA Resolution may
be revived argue that Congress’s authority under
Article V would allow simple majorities in each House
to eliminate the earlier ratification deadline and
thereby extend the ratification process. See 165 Cong.
Rec. H8741 (daily ed. Nov. 8, 2019) (statement of Rep.
Speier) (identifying Article V as the constitutional
authority for House Joint Resolution 79). Relying
upon Congress’s prior action to extend the ERA
deadline, they argue that, since the deadline rests in
the proposing clause rather than the amendment’s
text, it is open to congressional revision at any time,
including decades after its expiration. See, e.g., Held,
3 Wm & M. J. Women & L. at 128-29; Astor, supra
note 10 (“‘It’s been extended by Congress, so if you can
extend it, you can certainly strike it,’ said Representative Jackie Speier of California, the lead sponsor of
a bipartisan House resolution to repeal the deadline.”).
They contend not only that this approach would
permit the States to ratify the ERA Resolution long

App.135a
after the deadline, but that the thirty-five ratifications
from the 1970s, as well as the two from the 2010s, would
count towards the thirty-eight necessary to complete
ratification.21 Despite Congress’s having proposed the
ERA Resolution to the States with an express deadline,
and the state legislatures’ having voted upon it with
that understanding, this contingent of ERA supporters
believes that a concurrent resolution of Congress could
void that earlier widespread understanding.
We do not believe that Article V permits that
approach. Congress’s authority to fix a “definite period
for ratification” is “an incident of its power to designate
the mode of ratification.” Dillon, 256 U.S. at 376.
Congress may fix such a deadline for a proposed
amendment “so that all may know what it is and
speculation on what is a reasonable time may be
avoided.” Id. Congress would hardly be setting a
“definite period for ratification” if a later Congress
could simply revise that judgment, either by reducing,
extending, or eliminating the deadline that had been
part of the proposal transmitted to the States. While
Congress need not set any ratification deadline, once
it has done so, “that determination of a time period
becomes an integral part of the proposed mode of
ratification.” Idaho v. Freeman, 529 F. Supp. at 115253. “Once the proposal has been formulated and sent
to the states, the time period could not be changed any
21 Notably, these proponents further argue that States may not
rescind their earlier ratifications, which means that a resolution
would amend the terms of the proposal upon which the state
legislatures voted between 1972 and 1977 and purportedly lock
them into their earlier votes upon different terms, without any
input from, or opportunity for reconsideration by, those
legislatures. See, e.g., Held, 3 Wm & M. J. Women & L. at 131-34.

App.136a
more than the entity designated to ratify could be
changed from the state legislature to a state convention
or vice versa.” Id. at 1153.
When Congress “propose[s]” an amendment, it
also selects the “Mode of Ratification.” U.S. Const. art.
V. The power to “propose” authorizes Congress to set
the terms upon which the amendment will be
considered by others, namely the States. See 2 Noah
Webster, American Dictionary of the English Language
s.v. PROPOSE (1828) (defining the transitive verb
propose: “To offer for consideration, discussion, acceptance or adoption; as, to propose a bill or resolve to a
legislative body[.]”); 2 Samuel Johnson, A Dictionary
of the English Language s.v. To PROPOSE (6th ed.
1785) (“To offer to the consideration.”). Once Congress
has “propose[d]” an amendment and selected the mode
of ratification as “may be proposed by the Congress,”
the States then determine whether the proposal will
be ratified. U.S. Const. art. V. As we recognized in our
1992 opinion concerning the Twenty-Seventh Amendment, “[n]othing in Article V suggests that Congress
has any further role. Indeed, the language of Article V
strongly suggests the opposite[.]” Congressional Pay
Amendment, 16 Op. O.L.C. 85, 102 (1992).22 The power

22 See also 56 Cong. Rec. 446 (1917) (statement of Rep. Lenroot)
(“Article V expressly provides that once this proposed amendment
has gone from the halls of Congress and rests with the States,
when ratified by the States it becomes a part of the Constitution.”);
Walter Dellinger, Legitimacy of Constitutional Change: Rethinking
the Amendment Process, 97 Harv. L. Rev. 386, 398 (1983) (The
Constitution “requires no additional action by Congress or by
anyone else after ratification by the final state.”); Grover Rees
III, Throwing Away the Key: The Unconstitutionality of the Equal
Rights Amendment Extension, 58 Tex. L. Rev. 875, 899 (1980)

App.137a
to propose is thus a prospective power, and does not
entail any authority to modify the terms of a proposed
amendment once it has been offered for the consideration of the States.
Consistent with the Constitution’s federal structure, Congress and the state legislatures are “separate
legislative bodies representing separate sovereignties
and agencies of the people.” Michael Stokes Paulsen,
A General Theory of Article V: The Constitutional
Lessons of the Twenty-Seventh Amendment, 103 Yale
L.J. 677, 689 (1993). Congress has the responsibility
to propose the text of an amendment and the terms
under which the States may ratify it, but once it has
done so, Congress may not directly regulate the States
in the performance of their distinct constitutional
responsibilities. Cf. Murphy v. Nat’l Collegiate Athletic
Ass’n, 138 S. Ct. 1461, 1475 (2018) (recognizing that the
Founders made a “decision to withhold from Congress
the power to issue orders directly to the States”). If
anything, Article V operates in precisely the opposite
direction by authorizing the state legislatures themselves to require Congress to call a constitutional
convention to propose new amendments.23 Article V

(arguing that Article V requires only “proposal by Congress” and
“ratification by the states,” not “final ‘acceptance’ by Congress”).
23 As noted above, see supra note 13, the Founders expressed
concern that the national government might block necessary
amendments, and they therefore included in Article V a mechanism
to ensure that the States could amend the Constitution even over
the objection of Congress by allowing two-thirds of the state
legislatures to direct Congress to convene a convention to
propose such new constitutional amendments. See Federalist No.
85, at 593 (Alexander Hamilton) (“By the fifth article of the plan
the congress will be obliged, ‘on the application of the legislatures

App.138a
goes on to confirm that Congress lacks any continuing
authority over ratification by providing that the
States’ ratification of what Congress proposed is selfexecuting. Upon the approval of “three fourths” of the
state legislatures or of state ratifying conventions, the
amendment “shall be valid to all Intents and Purposes,
as Part of th[e] Constitution.” U.S. Const. art. V. In
other words, the amendment becomes immediately
effective, and Article V contemplates no additional
role for Congress in modifying the proposal or in
accepting or approving ratifications by the States.
For these reasons, constitutional commentators
have long recognized that “Congress may not withdraw an amendment once it has been proposed.”
Constitutionality of ERA Extension at 18 n.22; see
also Lester Bernhardt Orfield, The Amending of the
Federal Constitution 51-52 (1942) (“The practice has
been to regard such a withdrawal as ineffectual. The
theory apparently is that each affirmative step in the
passage of an amendment is irrevocable.”); Charles K.
Burdick, The Law of the American Constitution 39
(1922) (“It seems safe to assert that Congress, having
once submitted a proposed constitutional amendment
to the States, cannot thereafter withdraw it from their
consideration[.]”); Jameson, A Treatise on Constitutional Conventions § 585 at 634 (“[T]he Federal Constitution, from which Congress alone derives its power
to submit amendments to the States, does not provide
for recalling them upon any event or condition;
and . . . the power to recall cannot be considered as
involved in that to submit, as necessary to its complete
execution. It therefore cannot exist.”). Similarly, we
of two thirds of the states . . . to call a convention for proposing
amendments.’”).

App.139a
believe that Article V does not authorize Congress to
adjust the terms of an amendment previously proposed
to the States, whether it seeks to alter the mode of
ratification or the deadline for ratification.
Recognizing congressional authority to modify
the terms of a proposed constitutional amendment
would present numerous questions that lack answers
in the text of the Constitution or the history of past
amendments. Could Congress modify a substantive
provision within a pending amendment, or is its
modification power limited to procedural terms? Could
a later Congress hostile to a pending amendment
shorten the deadline or declare it expired (and if so,
how would such a power differ from a power to
withdraw the pending amendment)? Must Congress
adopt such changes by the same two-thirds vote of
both Houses by which an amendment is proposed, or
would a simple majority vote of each House suffice?
And must the President sign the joint resolution
modifying a proposal, or would the modification become
immediately effective without presentment? Compare
U.S. Const. art. I, § 7, cls. 2-3, with Hollingsworth v.
Virginia, 3 U.S. (3 Dall.) 378, 381 n.*, 382 (1798). In
concluding that Congress could extend the ERA’s
deadline, our 1977 opinion hazarded answers to all of
these questions, while recognizing the absence of any
authoritative guidance from the Constitution, caselaw,
or historical practice. See Constitutionality of ERA
Extension at 16-26. We think that the better inference
to draw from the Constitution’s silence is that there is
no modification authority in the first place. If Congress
wants to remove a ratification deadline from a proposed
amendment, then it must propose an entirely new
constitutional amendment, giving the States a new

App.140a
opportunity to consider that proposal. Article V does
not provide for any other supervisory mechanism by
which Congress can adjust those terms.
B.
Although the text of Article V does not contemplate
any further role for Congress after it has proposed
a constitutional amendment, the Supreme Court
suggested one exception in Coleman, where a majority
of justices concluded that, when a proposed amendment
contains no deadline, then Congress, not the courts,
should have the responsibility for deciding whether
the States had ratified the amendment within a
reasonable time. In Coleman, members of the Kansas
legislature had challenged the State’s 1937 ratification
of the Child Labor Amendment based, in part, on the
ground that it was untimely because Congress had
proposed the amendment in 1924. See 307 U.S. at 436.
In addressing that question, the Court fractured on
whether Dillon’s requirement that an amendment be
ratified within a “reasonable time” was a matter
subject to judicial resolution. There was no majority
opinion, but two separate opinions, joined by a total of
seven justices, agreed that where a proposed
amendment lacked any deadline, what constituted a
“reasonable time” for ratification was a nonjusticiable
political question.
Chief Justice Hughes’s controlling opinion, which
was joined by Justices Stone and Reed and styled as
the “Opinion of the Court,” concluded that the political
branches, and not the Court, should decide whether
an amendment had been ratified within a “reasonable
time.” See Coleman, 307 U.S. at 454 (opinion of Hughes,
C.J.). In so ruling, he reasoned that “the question of a

App.141a
reasonable time in many cases would involve . . . an
appraisal of a great variety of relevant conditions,
political, social and economic,” and these conditions
were “appropriate for the consideration of the political
departments of the Government.” Id. at 453-54. The
Chief Justice advised that Congress should address
that question “when, in the presence of certified
ratifications by three-fourths of the States, the time
arrives for the promulgation of the adoption of the
amendment.” Id. at 454 (emphasis added). Justice
Black, joined by Justices Roberts, Frankfurter, and
Douglas, would have gone further and treated any
congressional proclamation that an amendment had
been ratified as “final” and “‘conclusive upon the
courts.’” Id. at 457 (Black, J., concurring) (quoting
Leser v. Garnett, 258 U.S. 130, 137 (1922)).24
24 Justice Black’s separate opinion, which would appear to view
every question about the adoption of a constitutional amendment
as a political question, is difficult to square with Dillon and
several other cases where the Supreme Court has addressed the
validity of congressional action on constitutional amendments.
See, e.g., National Prohibition Cases, 253 U.S. 350 (1920) (holding
that the requirements of Article V were met in connection with
the adoption of the Eighteenth Amendment); Sprague, 282 U.S.
at 716 (rejecting the claim that Congress was obliged to call a
convention to propose the Eighteenth Amendment); Hollingsworth,
3 U.S. at 381 n.*, 382 (stating that “[t]he negative of the
President applies only to the ordinary cases of legislation,” and
thus holding that the Eleventh Amendment had been
“constitutionally adopted”). As then–Circuit Judge John Paul
Stevens recognized, “since a majority of the [Coleman] Court
refused to accept [Justice Black’s] position in that case, and since
the Court has on several occasions decided questions arising
under article V, even in the face of ‘political question’ contentions,
that argument is not one which a District Court is free to accept.”
Dyer v. Blair, 390 F. Supp. 1291, 1299-1300 & n.20 (N.D. Ill.
1975) (Stevens, J.) (footnote omitted). In contrast with cases

App.142a
Neither of these Coleman opinions identified any
textual foundation for any power of Congress to
“promulgate” an amendment ratified by three-fourths
of the States. The dissenting justices criticized the
majority opinions for addressing a point that had not
been “raised by the parties or by the United States
appearing as amicus curiae.” Id. at 474 (Butler, J.,
dissenting). And Coleman’s conclusion has been
frequently criticized as lacking foundation in the text,
caselaw, or historical practice of congressional
amendments. See, e.g., Congressional Pay Amendment,
16 Op. O.L.C. at 99 (“[C]ongressional promulgation is
neither required by Article V nor consistent with
constitutional practice.”); Dellinger, 97 Harv. L. Rev.
at 403 (“[T]he Coleman Court largely manufactured
the anticipated event of congressional promulgation
to which it was deferring.”); Rees, 58 Tex. L. Rev. at
887 (“Coleman was a very bad decision when handed
down, and the Court almost certainly would decide it
differently today.”) (footnote omitted). Nothing in Article
V suggests that Congress has any role in promulgating
an amendment after it has been ratified by the
requisite number of state legislatures or conventions.
To the contrary, Dillon held that the ratification of the
Eighteenth Amendment was “consummated” on the
date that the thirty-sixth State had ratified it, and not
involving the requirements of Article V, the Court has treated
questions about whether a State has ratified an amendment as
nonjusticiable. See Leser, 258 U.S. at 137 (holding a State official’s
“duly authenticated” acknowledgement of ratification to be
“conclusive upon the courts”); cf. White v. Hart, 80 U.S. 646, 649
(1871) (suggesting, in dictum, that the Court could not review
Congress’s decision to require Georgia to ratify the Fourteenth
and Fifteenth Amendments as a condition of regaining
representation in Congress after the Civil War).

App.143a
thirteen days later when the Acting Secretary of State
had proclaimed it under the statutory predecessor to
1 U.S.C. § 106b. See Dillon, 256 U.S. at 376. The Court
in Dillon did not suggest that there was any need for
Congress to promulgate the amendment, and Congress
did not purport to do so.
Chief Justice Hughes’s opinion would create a
strange situation in which state legislatures voting on
an amendment would not know until after the fact—
and potentially long after the fact—whether a future
Congress would conclude that their ratifications had
occurred within a “reasonable time.” See Congressional Pay Amendment, 16 Op. O.L.C. at 95 (“In order
to be able to carry out its function in the ratification
process, any state that is contemplating ratification
must know whether an amendment is in fact pending
before it. That is not a matter of degree; the proposed
amendment is either pending or not.”). Such a scenario
would not only be a constitutional anomaly, it would
directly conflict with Article V’s command that, “when
ratified” by three-fourths of the States, an amendment
“shall be valid to all Intents and Purposes, as Part of
this Constitution.” U.S. Const. art. V (emphasis
added).25

25 In addition, the Coleman rule would suggest that Congress
could block a constitutional amendment that was proposed, over
Congress’s objection, by a convention called by the States, simply
by declaring that the States had not ratified it within a “reasonable
time.” And because Congress’s decision to block the amendment
would be a political question, no court could second-guess that
determination. That would vitiate the States’ affirmative power
under Article V to bypass Congress. See supra notes 13 and 23.

App.144a
Chief Justice Hughes’s analysis relied upon the
role that Congress had played in the “special circumstances” surrounding the ratification of the Fourteenth
Amendment during Reconstruction. Coleman, 307
U.S. at 449-50. There, Secretary of State George Seward
had responded to irregularities in the ratifications of
Ohio and New Jersey by issuing a conditional
certification of the amendment “if the resolutions of
the legislatures of Ohio and New Jersey . . . are to be
deemed as remaining in full force and effect.”
Proclamation No. 11, 15 Stat. 706, 707 (1868). The
House and Senate responded by adopting a concurrent
resolution declaring the Fourteenth Amendment to be
part of the Constitution. See Proclamation No. 13, 15
Stat. 708, 709-10 (1868). One week later, the Secretary
of State issued a second proclamation “in execution of
“the States’ ratifications and the concurrent resolution
certifying the Fourteenth Amendment. Id. at 710-11.
Based on that one episode, Chief Justice Hughes
concluded that Congress could determine the timeliness
of Kansas’s ratification if and when Congress exercised
its promulgation authority after three-fourths of the
States had submitted ratifications. But that vision of
Congress’s role in the ratification process was “inconsistent with both the text of Article V of the Constitution
and with the bulk of past practice.” Congressional Pay
Amendment, 16 Op. O.L.C. at 102. As Professor
Walter Dellinger later observed, “[t]he action of the
Reconstruction Congress with respect to the fourteenth
amendment was literally unprecedented.” Dellinger,
97 Harv. L. Rev. at 400. Congress had played no official
role in promulgating the first thirteen amendments or
any amendment since. Indeed, only two of the other
twenty-six amendments have been the subject of any

App.145a
congressional action at all, and in neither case was
Congress’s action deemed necessary to promulgate the
amendment.26 Accordingly, the notion of a freestanding
authority of Congress to determine the validity of a
constitutional amendment after the States have
submitted their ratifications finds little support in the
text of Article V, historical practice, or other Supreme
Court precedent.
Moreover, to the extent that Chief Justice Hughes’s
Coleman opinion (joined by only two other Justices)
represents a precedential holding of the Court, see
Marks v. United States, 430 U.S. 188, 193 (1977), it still
would not authorize Congress to revive the long-expired
ERA Resolution. Coleman addressed whether an
amendment, which had been proposed thirteen years
earlier, could still be ratified within a “reasonable
time,” and the Court held that the political branches,
26 The Fifteenth Amendment, like the Fourteenth, was plagued
with Reconstruction irregularities, and the Senate initially referred
to committee a joint resolution declaring the Amendment to be
valid and part of the Constitution, but it later passed a simple
resolution requesting the views of the Secretary of State. Cong.
Globe, 41st Cong., 2d Sess. 1444, 1653 (1870). The Secretary of
State thereafter proclaimed the Fifteenth Amendment on March
30, 1870. See Proclamation No. 10, 16 Stat. 1131-32 (1870). The
House then adopted its own resolution declaring the amendment’s
validity, Cong. Globe, 41st Cong., 2d Sess. 5441 (1870), but the
Senate never took up the measure. With respect to the TwentySeventh Amendment, the Archivist certified the ratification in
reliance upon the opinion of this Office. See Certification of
Amendment to the Constitution of the United States Relating to
Compensation of Members of Congress, 57 Fed. Reg. 21187 (1992).
The House and the Senate later passed separate versions of
concurrent resolutions that would have confirmed the amendment’s
validity. See H.R. Con. Res. 320, 102d Cong. (1992); S. Con. Res.
120, 102d Cong. (1992).

App.146a
not the Court, must decide that question. See Coleman,
307 U.S. at 454 (opinion of Hughes, C.J.). Although
Chief Justice Hughes contemplated that, where an
amendment’s proposal lacked a ratification deadline,
Congress could determine timeliness after the States
had ratified the amendment, he did not suggest that
Congress could nullify a deadline it had previously
imposed on the States.
To the contrary, the Chief Justice repeatedly
emphasized that Congress had not imposed any
deadline on the Child Labor Amendment. His opinion
stated that “[n]o limitation of time for ratification is
provided in the instant case either in the proposed
amendment or in the resolution of submission.” Id. at
452 (emphasis added). The Court assumed that the
question of “what is a reasonable time” may be “an open
one when the limit has not been fixed in advance” by
Congress. Id. at 454 (emphasis added). But it concluded
that, even if an amendment would lapse after some
period, “it does not follow that, whenever Congress has
not exercised that power, the Court should take upon
itself the responsibility of deciding what constitutes a
reasonable time and determine accordingly the validity of ratifications.” Id. at 452-53. The opinion thus
repeatedly made clear that the Court was addressing
the case where Congress did not include a deadline
when proposing the amendment. Nothing in Coleman
supports the view that when Congress proposed an
amendment and included a time limit “in the resolution
of submission,” id. at 452, it would later be free to
revise that judgment.

App.147a
C.
Apart from Coleman itself, the proponents of
reviving the ERA ratification process rely heavily
upon Congress’s 1978 decision to modify the ERA’s
original deadline before it expired. The precedent of
the ERA extension, however, is a thin reed. The action
reflected something that Congress had never done
before in our Nation’s history, and the only federal
court to review the measure held it unconstitutional.
See Idaho v. Freeman, 529 F. Supp. at 1153. Although
this Office at the time issued an opinion recognizing
Congress’s authority to extend the deadline, we recognized that it was “difficult to conclude with certainty
that [the extension resolution] is or is not constitutional,” and that “respectable arguments can be made
on both sides of this question.” Constitutionality of
ERA Extension at 1, 7. Since then, this Office has
adopted a narrower view of Coleman than the one
reflected in our 1977 opinion, but even if we adhered
to all of the reasoning in the 1977 opinion, we do not
believe that opinion would support reviving the ERA
Resolution nearly forty years after the deadline expired.
In Constitutionality of ERA Extension, this Office
concluded that, when the ratification deadline was not
placed in the text of the proposed constitutional
amendment, but only in the proposing clause, that
condition on ratification should be treated as equivalent
to a statute subject to congressional modification. See
id. 7-8, 15-16. The Office relied on Coleman as
recognizing a congressional authority “years after an
amendment has been proposed . . . to determine the
reasonableness of the intervening time period” and to
modify a deadline placed in the proposing clause. Id.
at 7-8. At the same time, our opinion admitted that

App.148a
there was an argument that “Art[icle] V itself can be
viewed as envisioning a process whereby Congress
proposes an amendment and is divested of any power
once the amendment is submitted to the States for
ratification,” and that, “[a]s suggested by the language
of the Coleman opinion, the question of a time limit is
no longer open once a time limit is imposed by the
proposing Congress.” Id. at 7.
This Office later read Article V to further limit
Congress’s role in proposing amendments. In Congressional Pay Amendment, we rejected the proposition
that Coleman had recognized an exclusive congressional
authority to determine when a constitutional amendment had been validly ratified. See 16 Op. O.L.C. at
101-02. In a footnote, our 1992 opinion questioned the
1977 opinion’s interpretation of Coleman, although we
suggested that the extension of the ERA ratification
deadline might be viewed as the “‘reproposal’ of a
constitutional amendment” (a purely congressional
action) rather than “the certification of a ratified
amendment” (an action in which Article V gives
Congress no role). Id. at 102 n.24. At the same time,
we opined that, “[t]o the extent that our earlier
opinions suggest that Congress alone must make the
determination of the adoption of a constitutional
amendment, we reject them today.” Id. For the reasons
discussed above, we also take a narrower view of
Coleman than the one advanced in our 1977 opinion,
and we do not believe that the decision supports the
authority of Congress to revise a deadline included in
an amendment previously proposed to the States.
Yet even under the reasoning of Constitutionality
of ERA Extension, there was a distinction between
congressional action to extend a pending ratification

App.149a
deadline and action to revive it after the fact. That
opinion concluded that, under Coleman, Congress
might reconsider whether a seven-year deadline was
a “reasonable time” for ratification, but the opinion
simultaneously suggested that any such authority
could not survive the deadline’s expiration. As we
observed, “[c]ertainly if a time limit had expired
before an intervening Congress had taken action to
extend that limit, a strong argument could be made
that the only constitutional means of reviving a
proposed amendment would be to propose the amendment anew by two-thirds vote of each House and
thereby begin the ratification process anew.” Constitutionality of ERA Extension at 5-6. The Acting Solicitor
General effectively took the same view in Supreme
Court litigation about the extension of the ERA
Resolution, defending the extension until the deadline
expired, but then acknowledging that the effort to
ratify the ERA had come to an end. See Mem. for
Adm’r of Gen. Servs. Suggesting Mootness at 3-4,
Nat’l Org. for Women (“[T]he amendment has failed of
adoption. . . . Even if all of the ratifications remain
valid, the rescissions are disregarded, and Congress is
conceded the power to extend the ratification period
as it did here, only 35 of the necessary 38 states can
be regarded as having ratified the Amendment.”).
The proponents of the 1978 ERA extension also
relied upon Congress’s general authority to extend
statutes of limitations. As Justice Ginsburg explained
in 1979, “[i]n form and function, the seven-year
provision is a statute of limitations. Generally, statutes
of limitations may be extended should the legislature
determine that its initial estimate was inaccurate.”
Ginsburg, 57 Tex. L. Rev. at 927 n.43; see also House

App.150a

Extension Hearings at 129 (testimony of Prof. Ruth
Bader Ginsburg) (“It is the general rule that extensions
[of] statutes of limitation may be directed by the
legislature. . . . If the objective was simply to exclude
[stale] claims, an extension of the limitation period for
a reasonable time is well-accepted and fully comports
with constitutional constraints.”).27 It is true that
Congress may extend a limitations period, sometimes
even after pending claims have expired. See Chase
Secs. Corp. v. Donaldson, 325 U.S. 304 (1945); Campbell
v. Holt, 115 U.S. 620 (1885); see also Plaut v.
Spendthrift Farm, Inc., 514 U.S. 211, 228 (1995) (“[T]he
length and indeed even the very existence of a statute
of limitations upon a federal cause of action is entirely
subject to congressional control.”). But Congress changes
the terms of a statute of limitations only by enacting
a new law, and that change is adopted through the
same constitutionally required procedures as the prior
one. See U.S. Const. art. I, § 7. There is no constitutional
shortcut that would permit revisions without adoption
by both Houses and presentment to the President. By
the same token, we do not believe that Congress may
change the terms upon which an amendment has been
proposed to the States except by following the same
procedures that were required in connection with the
earlier proposal, namely proposal by two-thirds majorities and a new round of consideration by the States.
27 We again note that, several months ago, Justice Ginsburg
publicly stated her view that the ERA “fell three States short of
ratification” and the ratification process must begin anew: “I
hope someday [the ERA] will be put back in the political hopper,
starting over again, collecting the necessary number of States to
ratify it.” See supra note 1 and accompanying text (emphasis
added).

App.151a
Because Congress and the state legislatures are
distinct actors in the constitutional amendment process,
the 116th Congress may not revise the terms under
which two-thirds of both Houses proposed the ERA
Resolution and under which thirty-five state
legislatures initially ratified it. Such an action by this
Congress would seem tantamount to asking the 116th
Congress to override a veto that President Carter had
returned during the 92nd Congress, a power this
Congress plainly does not have. See Pocket Veto Case,
279 U.S. 655, 684-85 (1929) (“[I]t was plainly the
object of the [relevant] constitutional provision that
there should be a timely return of the bill, which . . .
should enable Congress to proceed immediately with
its reconsideration [.]” (emphasis added)). Because the
1972 ERA Resolution has lapsed, the only constitutional way for Congress to revive the ERA, should it
seek to do so, would be for two-thirds of both Houses
of Congress to propose the amendment anew for
consideration by the States.
IV.
In view of our foregoing conclusions, it is unnecessary for us to consider whether the earlier
ratifications of the ERA by five state legislatures were
validly rescinded. See supra note 8 and accompanying
text. The question of a State’s authority to rescind its
ratification, before an amendment has been ratified
by three-fourths of the States, is a significant one that
has not been resolved. See Ginsburg, 57 Tex. L. Rev.
at 920 (describing the doctrine of rescission as “the
most debatable issue” concerning the ERA’s legal
status shortly after the 1978 extension). In Constitutionality of ERA Extension, we concluded that the
Constitution does not permit rescissions, even if

App.152a
Congress had changed the ratification deadline after
the State had voted upon the amendment. See id. at
28-49; see also Power of a State Legislature to Rescind
its Ratification of a Constitutional Amendment, 1 Op.
O.L.C. 13, 15 (1977).
The district court in Idaho v. Freeman disagreed,
however, reasoning that Dillon’s interpretation of
Article V requires a contemporaneous consensus of
the people of the United States, and therefore implies
that a state legislature, as the representative of one
portion of the people, remains free to change its
position until three-fourths of the States have agreed
in common to support ratification. See 529 F. Supp. at
1146-50. The Supreme Court did not reach the
question before the extended deadline expired. Although
we have disagreed in this opinion with some of the
conclusions in the 1977 opinion, we believe that the
expiration of the ERA Resolution makes it unnecessary
for us to revisit this question. Regardless of the
continuing validity of the five States’ ratifications,
three-fourths of the States did not ratify the
amendment before the deadline that Congress set for
the ERA Resolution, and therefore, the 1972 version
of the ERA has failed of adoption.
V.
For the reasons set forth above, we conclude that
the ERA Resolution has expired and is no longer
pending before the States. Even if one or more state
legislatures were to ratify the 1972 proposal, that
action would not complete the ratification of the
amendment, and the ERA’s adoption could not be
certified under 1 U.S.C. § 106b. In addition, we conclude
that when Congress uses a proposing clause to impose

App.153a
a deadline on the States’ ratification of a proposed
constitutional amendment, that deadline is binding
and Congress may not revive the proposal after the
deadline’s expiration. Accordingly, should Congress
now “deem [the ERA] necessary,” U.S. Const. art. V,
the only constitutional path for amendment would be
for two-thirds of both Houses (or a convention sought
by two-thirds of the state legislatures) to propose the
amendment once more and restart the ratification
process among the States, consistent with Article V of
the Constitution.
Steven A. Engel
Assistant Attorney General
Office of Legal Counsel

App.154a

LETTER TO THE HONORABLE CAROLYN
MALONEY FROM NATIONAL ARCHIVES
(OCTOBER 25, 2012)
NATIONAL ARCHIVES
ARCHIVIST OF THE UNITED STATES
David S. Ferriero
T: 202.357.5900
F: 202.357.5901
david.ferriero@nara.gov
________________________
The Honorable Carolyn Maloney
U.S. House of Representatives
Washington, DC 20515
Dear Ms. Maloney:
Thank you for your letter requesting information
about the ratification status of the Equal Rights
Amendment (ERA), and the role played by the National
Archives and Records Administration (NARA) in
certifying amendments to the Constitution.
You asked for a list of the states that ratified the
ERA, and a list of states that either rejected the
amendment, or rescinded an earlier ratification vote.
I have attached a chart showing this information.
You also asked for legal verification of statements on NARA’s website page “The Constitutional
Amendment Process” (www.archives.gov/federalregister/constitution). This webpage states that a
proposed Amendment becomes part of the Constitution
as soon as it is ratified by three-fourths of the states,
indicating that Congressional action is not needed to

App.155a
certify that the Amendment has been added to the
Constitution. It also states that my certification of the
legal sufficiency of ratification documents is final and
conclusive, and that a later rescission of a state’s
ratification is not accepted as valid.
These statements are derived from 1 U.S.C. 106b,
which says that: “Whenever official notice is received
at the National Archives and Records Administration
that any amendment proposed to the Constitution of
the United States has been adopted, according to the
provisions of the Constitution, the Archivist of the
United States shall forthwith cause the amendment
to be published, with his certificate, specifying the
States by which the same may have been adopted, and
that the same has become valid, to all intents and
purposes, as a part of the Constitution of the United
States.” Under the authority granted by this statute,
once NARA receives at least 38 state ratifications of a
proposed Constitutional Amendment, NARA publishes
the amendment along with a certification of the
ratifications and it becomes part of the Constitution
without further action by the Congress. Once the
process in 1 U.S.C. 106b is completed the Amendment
becomes part of the Constitution and cannot be
rescinded. Another Constitutional Amendment would
be needed to abolish the new Amendment.
I hope this information answers your question
and is of use to you. If you would like more information
or would like to discuss this issue further, please do
not hesitate to contact me again.

App.156a
Sincerely,
/s/ David S. Ferriero
Archivist of the United States

